<html>
<title> - NASA'S INTERNATIONAL SPACE STATION PROGRAM: STATUS AND ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                   NASA'S INTERNATIONAL SPACE STATION
                       PROGRAM: STATUS AND ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 24, 2008

                               __________

                           Serial No. 110-96

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

41-799 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

































                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               MICHAEL T. MCCAUL, Texas
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
             ALLEN LI Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


























                            C O N T E N T S

                             April 24, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    20
    Written Statement............................................    21

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    22
    Written Statement............................................    23

                                Panel 1:

Dr. Edward B. Knipling, Administrator, Agricultural Research 
  Service, U.S. Department of Agriculture
    Oral Statement...............................................    25
    Written Statement............................................    27

Dr. Louis S. Stodieck, Director, BioServe Space Technologies; 
  Associate Research Professor, Aerospace Engineering Sciences, 
  University of Colorado at Boulder
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    38

Dr. Cheryl A. Nickerson, Associate Professor of Life Sciences, 
  School of Life Sciences, Center for Infectious Diseases and 
  Vaccinology, The Biodesign Institute, Arizona State University
    Oral Statement...............................................    38
    Written Statement............................................    41
    Biography....................................................    44

Mr. Thomas Boone Pickens, III, Chairman and Chief Executive 
  Officer, SPACEHAB, Inc.
    Oral Statement...............................................    45
    Written Statement............................................    48
    Biography....................................................    52

Discussion
  ISS Productivity and Utilization...............................    53
  Differences Between Government and SPACEHAB Activities.........    55
  Commercial Activity at the ISS.................................    57
  Uncertainty Pertaining to Long-term Research...................    58
  ISS Lab Compatability..........................................    59

                                Panel 2:

Mr. William H. Gerstenmaier, Associate Administrator for Space 
  Operations, National Aeronautics and Space Administration 
  (NASA)
    Oral Statement...............................................    62
    Written Statement............................................    63

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office
    Oral Statement...............................................    70
    Written Statement............................................    71
    Biography....................................................    85

Dr. Jeffrey P. Sutton, Director, National Space Biomedical 
  Research Institute
    Oral Statement...............................................    85
    Written Statement............................................    87
    Biography....................................................    97

Discussion
  Cost of ISS Operations.........................................    98
  Logistics Flights..............................................    99
  Soyuz Safety Issues............................................   100
  Exception to INKSNA............................................   101
  Alpha-Magnetic Spectrometer....................................   102
  Russian Cooperation and Capabilities...........................   104
  Additions to the ISS...........................................   105
  INKSNA Amendment...............................................   106
  Soyuz Landing Problems.........................................   108

             Appendix 1: Answers to Post-Hearing Questions

Dr. Edward B. Knipling, Administrator, Agricultural Research 
  Service, U.S. Department of Agriculture........................   112

Dr. Louis S. Stodieck, Director, BioServe Space Technologies; 
  Associate Research Professor, Aerospace Engineering Sciences, 
  University of Colorado at Boulder..............................   114

Dr. Cheryl A. Nickerson, Associate Professor of Life Sciences, 
  School of Life Sciences, Center for Infectious Diseases and 
  Vaccinology, The Biodesign Institute, Arizona State University.   118

Mr. Thomas Boone Pickens, III, Chairman and Chief Executive 
  Officer, SPACEHAB, Inc.........................................   121

Mr. William H. Gerstenmaier, Associate Administrator for Space 
  Operations, National Aeronautics and Space Administration 
  (NASA).........................................................   123

Ms. Cristina T. Chaplain, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office..............   129

Dr. Jeffrey P. Sutton, Director, National Space Biomedical 
  Research Institute.............................................   131

             Appendix 2: Additional Material for the Record

Statement of the American Society for Gravitational and Space 
  Biology........................................................   138

























 
     NASA'S INTERNATIONAL SPACE STATION PROGRAM: STATUS AND ISSUES

                              ----------                              


                        THURSDAY, APRIL 24, 2008

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:34 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   NASA's International Space Station

                       Program: Status and Issues

                        thursday, april 24, 2008
                         10:30 a.m.-12:30 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, April 24, 2008 at 10:30 a.m., the House Committee on 
Science and Technology's Subcommittee on Space and Aeronautics will 
hold a hearing to examine the status of the International Space Station 
(ISS) and issues related to its operation and utilization, including 
the planned and potential uses of the ISS to meet both NASA and non-
NASA research needs.

Witnesses

    Witnesses scheduled to testify at the hearing include the 
following:

William Gerstenmaier, Associate Administrator, Space Operations Mission 
Directorate, National Aeronautics and Space Administration

Ms. Cristina Chaplain, Director, Acquisition and Sourcing Management, 
Government Accountability Office

Dr. Jeffrey Sutton, Director, National Space Biomedical Research 
Institute

Dr. Edward Knipling, Administrator, Agricultural Research Service, U.S. 
Department of Agriculture

Thomas B. Pickens III, CEO, SPACEHAB, Inc.

Dr. Louis Stodieck, Director, BioServe Space Technologies, Aerospace 
Engineering Sciences, University of Colorado

Dr. Cheryl Nickerson, Associate Professor, Center for Infectious 
Diseases and Vaccinology, The Biodesign Institute, Arizona State 
University

Potential Issues

    The following are some of the potential issues that might be raised 
at the hearing:

Status and Risks of ISS Assembly and Logistics Flights

        <bullet>  What is the status of ISS construction and logistics 
        flights and what issues could impact the planned construction 
        schedule and sequence?

        <bullet>  What are the main risks and challenges to 
        successfully assembling the ISS by the time the Shuttle is 
        retired?

        <bullet>  What is the impact on programmatic risk of the low 
        level of reserves ($32 million) requested for FY09?

        <bullet>  What are NASA's options if scheduled and proposed ISS 
        assembly and logistics fights are not completed by the end of 
        2010 and how will this impact future ISS utilization and 
        operations?

        <bullet>  What challenges, risks and assumptions does each 
        option pose?

        <bullet>  Do any of the options require prior action by the 
        Congress?

        <bullet>  What has been the progress in securing a commercial 
        cargo transportation capability?

        <bullet>  What planned actions have the international partners 
        indicated they will take to maintain access to the ISS during 
        the ``gap''?

        <bullet>  Will operational, wear, or failure data now available 
        have an impact on NASA's current ISS logistics strategy?

Utilization of the ISS and the ISS National Laboratory

        <bullet>  How does ISS research contribute to reducing risk in 
        human space exploration? How much of that risk will be retired 
        by the Administration's proposed 2016 ISS end date?

        <bullet>  How much of NASA's on-orbit research facilities and 
        racks are currently being used to support research?

        <bullet>  Does NASA have a plan with priorities for ISS 
        research to be conducted in the post-2010 period, and if so, 
        what is NASA doing now to prepare that research for flight?

        <bullet>  How many experiment facilities/ hardware to support 
        research investigations have been completed but are not planned 
        for flight, and what if any plans does NASA have to fly that 
        hardware on the ISS, free-flyers or other microgravity 
        platforms?

        <bullet>  What advantages does the ISS National Laboratory 
        provide to Laboratory partners, public and private?

        <bullet>  How will agency or commercial participants in the ISS 
        National Lab get access to the ISS and who will pay for 
        transportation?

        <bullet>  When will NASA know how much up-mass and down-mass is 
        available to support research through commercial cargo 
        vehicles?

        <bullet>  Will NASA's decision to support investigations on ISS 
        be determined by commercial logistics availability or will NASA 
        seek to supplement, if necessary, logistics requirements for 
        research needs through non-U.S. launch capabilities?

        <bullet>  What lead time is required for potential ISS users, 
        including other governmental agencies, to prepare experiments 
        to fly on the ISS?

        <bullet>  What impact does the uncertain status of the ISS past 
        2016 have on potential users being able to plan long term 
        research using the station?

        <bullet>  What will NASA do with the unused capacity and 
        capabilities of the ISS if other agencies decide not to make 
        significant use of it?

        <bullet>  What is the status of NASA's (1) development of 
        educational projects to be conducted on the ISS, and (2) plan 
        for research that supports national competitiveness in science, 
        technology, and engineering, as directed in the America 
        COMPETES Act (P.L. 110-69)?

BACKGROUND

Overview
    The ISS is the most complex international scientific and 
technological endeavor ever undertaken, involving the United States, 
Russia, Japan, Canada, and 10 nations of the European Space Agency. One 
of the fundamental objectives of the ISS is to enable astronauts to 
learn how to live and work in space for long duration missions. When 
President Bush announced his Vision for Space Exploration in 2004, he 
made completion of the ISS an important part of the overall exploration 
initiative. The ISS has been continuously crewed for over six years; a 
six-person crew capability is planned to start in 2009. At assembly 
complete, the ISS will have a pressurized volume of over 33,000 cubic 
feet and a mass of over 925,000 pounds.
    Development and construction of the ISS has been a difficult 
journey. In addition to schedule delays of its own, the ISS was 
severely impacted by the loss of the Shuttle Columbia and its crew. The 
ISS was in the midst of assembly when the accident took place. Today, 
construction is over 65 percent complete. Development is mostly done 
and components only await their turn on the Shuttle manifest for on-
orbit assembly. The most recent additions to the ISS happened in March 
with the attachment of the Canadian-built Special Purpose Dextrous 
Manipulator and the Kibo Japanese Experiment Logistics Module--
Pressurized Section. Later next month, STS-124 will take up the 
Japanese Experiment Module's Pressurized Module and the Japanese Remote 
Manipulator System.
    The retirement of the Shuttle currently scheduled for 2010, will 
cause the U.S. to rely on partners such as Russia to provide routine 
transportation and emergency crew return from the station or acquire 
commercial services. That period of time during which the U.S. will 
have no crew transportation capability is referred to as ``the gap.'' 
While NASA is encouraging the development of a commercial crew and 
cargo capability, the availability of such a capability is uncertain at 
this time. The Commercial Crew and Cargo Program is NASA's effort to 
foster the development of a cost-effective commercial space 
transportation capability for the post-Shuttle Era. Initially, this 
capability will be used to carry cargo to the ISS; future options could 
involve developing a crew transportation capability. The development of 
the commercial cargo/crew transportation capability is being funded in 
the Constellation budget managed by the Exploration Systems Mission 
Directorate (ESMD). While the services will be demonstrated through the 
Commercial Orbital Transportation Systems (COTS) project, the 
operational responsibility for the program will move to the ISS program 
within the Space Operations Missions Directorate (SOMD).
    NASA is seeking partnerships with other government agencies and the 
commercial sector to utilize the ISS as a National Laboratory, as 
designated by the NASA Authorization Act of 2005. NASA's plan for the 
ISS National Laboratory, the National Lab Report, was submitted to 
Congress in May 2007. Interest in ISS use has been demonstrated in the 
areas of education, human health-related research and defense sciences 
research. A Memorandum of Understanding for ``Cooperation in Space-
Related Health Research'' between the National Institutes of Health 
(NIH) and NASA was signed on September 12, 2007. This could be the 
first in a series of Memorandum of Understandings with U.S. Government 
agencies that have expressed interest in access to the ISS for research 
and development purposes. In addition, NASA issued an announcement of 
``Opportunity for Use of the ISS by Non-Government Entities for R&D and 
Industrial Processing Purposes'' on August 14, 2007, and is planning to 
enter into several Space Act Agreements as a result.

Fiscal Year 2009 Budget Request
    NASA's FY09 budget provides $2.06 billion for the International 
Space Station Program under the direction of SOMD. It should be noted 
that NASA's FY 2009 budget has been restructured pursuant to the 
Consolidated Appropriation Act, 2008, and is now presented in seven 
accounts. In addition, the budget estimates presented in the FY 2009 
request are in direct program dollars rather than in the full cost 
dollars used in previous Presidential budget requests. From a direct 
cost perspective,\1\ the proposed FY09 budget for the ISS is an 
increase of $247 million from that appropriated in FY08.
---------------------------------------------------------------------------
    \1\ As part of the Congressionally directed budget restructuring, 
NASA shifted from a full-cost budget, in which each project budget 
included overhead costs, to a direct cost budget. All overhead budget 
estimates are now consolidated into the Cross Agency Support budget 
line. NASA has stated that maintaining a full cost budget with seven 
appropriations accounts would be overly complex and inefficient. The 
direct cost budget shows program budget estimates that are based 
entirely on program content. Individual project managers continue to 
operate in a full-cost environment, including management of overhead 
costs.

---------------------------------------------------------------------------
The ISS Program budget funds:

        <bullet>  ISS operations. The FY09 request for ISS operations 
        is $1,755.4 million, a slight increase from the $1,713.1 
        million enacted in FY08. The ISS Operations budget funds 
        several key activities: Program Integration, Multi-User System 
        Support, Avionics and flight software, and Launch and Mission 
        Operations.

        <bullet>  ISS Crew and Cargo Services. The FY09 request for ISS 
        Crew and Cargo Services is $304.8 million, an increase from the 
        $100.1 million enacted in FY08. The purchase of ISS Cargo Crew 
        Services was transferred from ESMD to SOMD in the FY 2008 
        budget. The total available funding for the purchase of cargo 
        transportation services is $2.6 billion over five years.

    Funding for research conducted on the ISS is included in the budget 
managed by the Exploration Systems Mission Directorate (ESMD). The FY09 
request for ESMD's Human Research Program (HRP) is $151.9 million in 
direct program dollars. The HRP identifies risk for human exploration 
of space and measures to mitigate the risks. According to NASA's Fiscal 
Year 2009 Budget Request, the HRP includes $19.9 million for the ISS 
Medical Project, which ``includes current ISS biomedical research 
capabilities and on-orbit validation of next generation on-orbit 
equipment medical operations procedures and crew training concepts.'' 
ESMD's budget request also provides $168 million for Exploration and 
Non-Exploration research to be conducted on the ISS, free-flyers, and 
through ground-based activities, of which $138 million is for 
Exploration and $30 million is for Non-Exploration research. 
Exploration research focuses on physical sciences in the areas of life 
support, thermal control, fire prevent, detection, and suppression, and 
on fluid flow. Non-Exploration research supports fundamental research 
in the areas of material sciences, fluid physics, combustion sciences, 
cellular and animal research, and microbial research, among other 
areas.

Assumed Budget Growth for the ISS Program FY 2009-FY 2013
    NASA's out-year projections for the ISS Program in the President's 
FY09 budget request show minor funding level changes through 2013.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Key Challenges Related to the FY09 Budget and Five-Year Runout
    Key challenges related to the FY09 budget request and five-year 
runout for the ISS program include:

        <bullet>  Low level of program reserves. The ISS program has 
        depleted reserves through FY 2009 while facing the most 
        challenging period of ISS assembly.

        <bullet>  Uncertain status of the two logistics flights. Two of 
        the remaining Shuttle flights are listed as ``contingency'' and 
        have not yet been approved by the Office of Management and 
        Budget (OMB)--although NASA says sufficient funds have been 
        included in the FY09 budget request. NASA has indicated that 
        the two flights needed to deliver spares and logistics in 
        advance of the Shuttle's retirement are necessary and of high 
        priority.

        <bullet>  Cuts in research funding. Funding for ISS research 
        has been cut back significantly over the last several years, 
        and the research community that was intended to utilize the ISS 
        has been decimated by reductions in funding. This raises the 
        issue of reduced opportunity to attract top research scientists 
        in the future.

        <bullet>  Export control restrictions. Current International 
        Traffic in Arms Regulations (ITAR) restrictions on NASA ``are a 
        threat to the safe and successful integration and operations of 
        the International Space Station,'' according to the ISS 
        Independent Safety Task Force (IISTF) issued in 2007. The Task 
        Force also found that workforce interactions must enable direct 
        interfaces to assure safe and successful operations. These 
        interactions, including the ability to exchange and discuss 
        technical data relevant to vehicle operation, are hampered by 
        the current ITAR restrictions.

ISS Cargo and Crew Transportation Services in the Post-Shuttle Era
    The Commercial Crew and Cargo Program is NASA's effort to foster 
the development of a cost-effective commercial space transportation 
capability for the post-Shuttle Era. This capability will initially be 
utilized to carry cargo to the ISS; future options could involve 
developing a crew transportation capability. The development of the 
commercial cargo/crew transportation capability is being funded in 
ESMD's Constellation budget. Once the services have been demonstrated 
(Phase 1), the operational responsibility for the program will move to 
the ISS program within SOMD.
    As the Space Shuttle nears retirement, NASA's stated preferred 
solution for ISS crew and cargo delivery and return requirements is to 
use commercial services provided by space transportation companies. 
NASA's Commercial Orbital Transportation Services (COTS) project is 
intended to facilitate U.S. private industry's development of cargo and 
crew space transportation capabilities with the goal of demonstrating 
reliable, cost effective access to low-Earth orbit. NASA had initially 
selected two partners for its COTS project under Space Act Agreements. 
One partner failed to meet NASA's milestones, and NASA terminated the 
Agreement. The other partner, SpaceX, recently announced that it has 
delayed the first demonstration flight for their Falcon 9 rocket for 
six to nine months. Following GAO's decision rejecting a challenge by 
the terminated partner to NASA's plans to utilize a Space Act Agreement 
rather than a government contract, NASA made an award to Orbital 
Sciences Corporation in February 2008. Last week, NASA issued a Request 
for Proposals (RFP) for Phase 2 of the COTS program, now called 
Commercial Resupply Services, with a planned contract award by the end 
of the year. Both of the current COTS partners are working only on 
cargo carriers.
    If NASA's preferred solution of using commercial services is not 
attainable by the time the Shuttle is retired, the agency has indicated 
that it will rely on prepositioned spares to be sent up to the ISS 
before the Shuttle retires. In an interview in Aviation Week last week, 
NASA's Associate Administrator for Space Operations said ``We 
recognized that there may be a little bit of a delay in the delivery of 
those [commercial] services,'' adding that ``Our plan is that if we 
have a delay we would live off the spares we flew up on Shuttle and 
take some limited degradation in space station capabilities until those 
commercial services come on line.'' However, this poses a risk since 
the last two Shuttle flights scheduled to bring up those spares have 
not been approved by the Administration. As to the use of international 
partner cargo capabilities, NASA said last week that it will not ask 
Congress for permission to continue buying cargo services from Russia 
after 2011. European Automated Transfer Vehicles (ATV) and Japanese H-
II Transfer Vehicles (HTV) are alternatives but would require some time 
to procure.
    Regarding crew transportation during ``the gap,'' purchases of 
Russian capabilities beyond 2011 will require an extension of the 
waiver currently granted in the Iran, North Korea and Syria Non-
Proliferation Act (INKSNA). Last week, NASA notified the Congress that 
it needs to continue using Russian Soyuz capsules to deliver crew to 
the ISS after the Shuttle retires in 2010 and is thus seeking an 
extension of INKSNA waiver authority. A copy of NASA's letter to 
Chairman Udall transmitting the proposed waiver and the waiver itself 
are included as Attachment 1.

Research Objectives of the ISS
    Although one NASA objective for the ISS was to create a world-class 
laboratory, cost overruns, a decision to focus on a ``core complete'' 
configuration, the elimination of several planned research facilities, 
and a smaller crew size led a National Research Council (NRC) committee 
to conclude in a 2003 report, Factors Affecting the Utilization of the 
International Space Station, that achieving that goal was ``unlikely.''

        <bullet>  Following President Bush's announcement of a Vision 
        for Space Exploration in January 2004, NASA reoriented its 
        goals for the ISS to focus on exploration.

    A 2006 NRC report, NASA's Plans for the International Space 
Station, identified several priority areas of research to support 
NASA's exploration goals, including ``effects of radiation on 
biological systems, loss of bone and muscle mass during space flight, 
psychosocial and behavioral risks of long-term space missions, 
individual variability in mitigating a medical/biological risk, fire 
safety aboard spacecraft, and multi-phase flow and heat transfer issues 
in space technology operations.''
    In addition, the report recommended that NASA take several other 
actions in utilizing the ISS to support exploration missions. For 
example, the NRC recommended that:

        <bullet>  ``NASA should develop an agency-wide, integrated 
        utilization plan for all ISS activities as soon as possible.''

        <bullet>  ``NASA should develop and maintain a set of 
        operations demonstrations that need to be conducted on the ISS 
        to validate operational protocols and procedures for long-
        duration and long-distance missions such as the ones to Mars.''

        <bullet>  ``NASA should plan options and decision points for 
        obtaining a post-Shuttle logistics capability for . . . 
        demonstrating the technology and operations that will enable 
        exploration missions. NASA should establish priorities and 
        develop back-up plans to enable the post-2010 deployment of 
        large ISS structural components and research facilities 
        required to accomplish exploration mission objectives.''

    In 2007, at the House Committee on Science and Technology's hearing 
on NASA's Fiscal Year 2008 Budget Request, NASA provided material for 
the record noting that NASA's research use of the ISS aligns with the 
Agency's needs in the following areas:

        <bullet>  Research, Development, Test, and Evaluation of 
        Biomedical Protocols for Human Health and Performance on Long-
        Duration Space Missions

        <bullet>  Research, Development, Test, and Evaluation of 
        Systems Readiness for Long-Duration Space Missions

        <bullet>  Development, Demonstration, and Validation of 
        Operational Practices and Procedures for Long-Duration Space 
        Missions.

Congressional Policy Direction on ISS Utilization
    Congress directed in the NASA Authorization Act of 2005 (P.L. 109-
155) that NASA complete the assembly of the ISS and ensure its 
utilization for basic and applied research, as well as commercial 
research, and other benefits to the Nation. As part of this policy 
direction, NASA is to sustain the necessary scientific expertise to 
support research in disciplines that require microgravity environments 
(e.g., molecular crystal growth, animal research, basic fluid physics, 
combustion research, and cellular research). To ensure that NASA 
continues to sustain basic research in life and microgravity sciences, 
the Act directs NASA to allocate at least fifteen percent of ISS 
research funds to non-exploration research conducted on the ISS, free-
flyers and ground. In addition, the Act designates the ISS as a 
National Laboratory to ``increase the utilization of the ISS by other 
federal entities and the private sector through partnerships, cost-
sharing agreements, and other arrangements that would supplement NASA 
funding of the ISS.''

Status of NASA Plans for ISS Utilization and Ongoing Utilization 
        Activities
    In response to direction in the 2005 NASA Authorization Act, NASA 
submitted a report, the NASA ISS Research and Utilization Plan. The 
nature of that report was high-level, and as a follow-up, NASA 
submitted three additional documents detailing NASA plans for ISS 
utilization: 1) Human Research Program Utilization Plan for the 
International Space Station, 2) ISS Exploration and Non-Exploration 
Research Project Plan for the NASA ISS Utilization Plan, 3) 
Consolidated Operations and Utilization Plan 2007-2015. The first 
report identifies the human health risks to be addressed by the ISS 
Human Research Program, for which 25 of 32 risks require research on 
the ISS to mitigate the risk. The second report provides a top-level 
plan for ISS research to support NASA's exploration objectives 
(applied) as well as non-exploration (basis) research. The third report 
details the operational plans for utilizing the ISS, including 
allocation of resources among partners. An overview summary of these 
documents states that ``human biomedical research is of the highest 
priority in order to prepare for longer duration human space 
exploration missions . . .''
    At a hearing of the House Committee on Science and Technology on 
NASA's Fiscal Year 2008 Budget Request, the NASA Administrator 
testified that ``we are still building the Station, and its full 
capability as a research laboratory is mostly in front of us. But we 
can't have a research laboratory until we get the power and the water 
and the air conditioning fully in place. And that is what we are doing 
right now.'' He further stated that ``I believe it [the Station] should 
be sustained as long as the costs of its operations and maintenance, 
once built . . . seem to be justified by the research, which is being 
returned . . .'' The duration of Space Station operations has not yet 
been determined.
    Upon request of the Committee, NASA provided material for the 
record noting that NASA has conducted 17 NASA Human Research Program 
investigations (the ISS component of that research was complete) which 
supported 44 researchers ``worldwide.'' NASA also reported that there 
were 16 investigations of the Human Research Program being conducted on 
the ISS in which 49 researchers ``worldwide'' were involved. NASA's 
plans were to conduct nine Human Research Program investigations over 
the next year, which would involve 25 researchers. NASA also conducts 
exploration and non-exploration research on the ISS, although it is not 
completely clear how many experiments have been flown or how many will 
be flown and when.

ISS as a National Laboratory
    As directed in the 2005 NASA Authorization Act, NASA submitted a 
report to Congress on an International Space Station National 
Laboratory Application Development. NASA indicates that approximately 
50 percent of planned U.S. utilization resources on ISS could be 
available for non-NASA use through the ISS National Laboratory. In 
August 2007, NASA solicited proposals for ``Opportunity For The Use Of 
The International Space Station By U.S. Non-Government Entities For 
Research And Development And Industrial Processing Purposes.''

ISS National Laboratory Partners and Prospective Partners
    In September 2007, NASA and the National Institutes of Health (NIH) 
signed a Memorandum of Understanding (MOU) for Cooperation on Space-
Related Research. The MOU will foster synergies in research being 
sponsored by both agencies that will help ensure astronaut health, 
especially on long-duration missions, and yield benefits for medical 
science on Earth. For example, research on the loss of bone density and 
muscle mass resulting from the effects of microgravity may improve 
treatment for bone and muscle diseases. Better understanding of the 
effects of gravity on astronauts' balance may increase our knowledge of 
conditions such as vertigo, problems of the inner ear, and dizziness. 
Research on how microorganisms respond to microgravity may also provide 
insights into the immune system's response to infectious diseases.
    The MOU outlines NIH's particular interest in the use of the ISS 
for research in the following types of areas:

          ``Basic biological and behavioral mechanisms in the absence 
        of gravity

          Human physiology and metabolism

          Spatial orientation and cognition

          Cell repair processes and tissue regeneration

          Pathogen infectivity and host immunity

          Medical countermeasures

          Health care delivery and health monitoring technologies''

    A copy of the MOU is included as Attachment 2.
    In a Fall 2007 issue of NIH Medline Plus, Dr. Stephen Katz, 
National Institute of Arthritis and Musculoskeletal and Skin Diseases, 
said, ``An enormous amount of time will be required to develop the 
questions and experimental models for use on the Space Station. . ..'' 
Members may wish to probe whether or not the Administration's current 
plans for operating the ISS until 2016 will be sufficient to 
accommodate the time NIH would need to prepare and carry out research 
investigations.
    NASA is currently working on an MOU with the U.S. Department of 
Agriculture. Potential UDSA-sponsored research on the ISS could help to 
advance knowledge in the areas of nutrition and animal and plant 
biology. Potential goals of the research include outcomes that could 
provide additional benefits in assuring food safety and the quality of 
agricultural products.
    SPACEHAB, a commercial company that provides space products and 
services, is also discussing partnership opportunities with NASA as 
part of the ISS National Laboratory. The company announced in 2007 
plans ``to develop a new company division that will focus on 
manufacturing pharmaceuticals and materials in space for distribution 
into the commercial marketplace.'' Following on this path, SPACEHAB's 
January 28, 2008 press release announced the company's plans to use the 
ISS for ``research, development, and industrial processing purposes.'' 
SPACEHAB's past relationship with NASA has been in providing 
pressurized habitation modules, unpressurized cargo carriers, and 
related space flight equipment and services to support research and 
other payloads for launch, operation, and return from NASA space flight 
and ISS missions. In addition, SPACEHAB has an unfunded Space Act 
Agreement with NASA to develop (along with several partner companies) a 
commercial transportation system (COTS) to provide logistical support 
to the ISS following the retirement of the Shuttle in 2010.
    The ISS National Laboratory report refers to ``the availability of 
cost-effective transportation services'' as the most significant risk 
for the success of the National Laboratory. The report prepared for 
Congress did not indicate that NASA planned to provide transportation 
services to ISS National Laboratory partners. According to the ISS 
National Laboratory report to Congress, NASA plans to begin managing 
the operations and utilization of the ISS National Laboratory. NASA is 
also considering alternative approaches for managing the ISS national 
lab.

Readiness of the Life and Microgravity Sciences Research Community to 
        Support ISS Research
    At a hearing of the Subcommittee on Space and Aeronautics on 
``NASA's Space Shuttle and International Space Station Programs: Status 
and Issues'' in July 2007, Dr. G. Paul Neitzel, a professor of fluid 
mechanics, testified that ``At its zenith, the budget of the then 
Office of Biological and Physical Research . . . had grown to 
approximately $1B and the FY03 OBPR Task Book . . . shows a broad 
research program containing roughly 1000 tasks, supporting over 1,700 
PIs and co-investigators and nearly 3,000 students. . ..'' Following 
the Columbia accident and the President's announcement of a Vision for 
Space Exploration, NASA reduced the size of the life and microgravity 
sciences program. ``In December 2005, NASA sent letters to hundreds of 
investigators in the program, informing them of significant cuts in 
their funding for FY06 and the termination of their grants effective 
September 30, 2006.'' Dr. Neitzel further noted that ``The re-
establishment of an external research community will take years, if it 
can be accomplished at all.''

Existing and Planned Research Facilities for U.S. Use on the ISS
    The U.S. laboratory module, Destiny, houses several research 
facilities. These include the:

        <bullet>  Human Research Facility racks

        <bullet>  Microgravity Science Glovebox

        <bullet>  The Minus Eight-Degree Freezer for ISS that can store 
        and freeze life science and biological samples

        <bullet>  Expedite the Processing of Experiments to Space 
        Station (EXPRESS) racks, which can provide power, data, and 
        fluids and other utilities needed to support research 
        experiments that can attach to the racks.

    The following are NASA facilities planned for inclusion on the ISS, 
and most, if not all, have been manifested on upcoming Shuttle flights 
to the ISS:

        <bullet>  Fluids and Combustion Facility (includes the 
        Combustion Integrated Rack and the Fluids Integrated Rack)

        <bullet>  Microgravity Science Research Rack

        <bullet>  Space Dynamically Responding Ultrasound Matrix 
        Facility

        <bullet>  Window Observation Research Facility

        <bullet>  EXPRESS Rack 6

        <bullet>  Muscle Atrophy Research Exercise System

        <bullet>  Five External Logistics Carriers (ELCs) each of which 
        can support two payloads that do not require a pressurized 
        environment.

        <bullet>  Several International Standard Payload Racks (ISPR)

        <bullet>  Other research facilities can be accommodated on 
        international modules.

    The Alpha Magnetic Spectrometer (AMS), a collaboration between the 
Department of Energy and international participants, had been planned 
for flight to the ISS, but is currently not manifested on any of the 
remaining Shuttle flights.

Use of ISS to Support Math and Science Education and Competitiveness
    In exploring the opportunities for using the ISS National 
Laboratory for potential educational activities, a NASA-led task force 
produced the International Space Station National Laboratory Education 
Concept Development Report. The task force concluded ``that there is 
significant interest among other federal agencies in the opportunity to 
further develop the ISS as an asset for education.''
    In 2007, Congress passed the America COMPETES Act, which became 
Public Law 110-69. Section 2006 of the law directs NASA to use the 
results of the ISS education task force report to ``develop a detailed 
plan for implementation of one or more education projects that utilize 
the resources offered by the International Space Station.''
    In addition, Section 2006 directs NASA to ``develop a detailed plan 
for identification and support of research to be conducted aboard the 
International Space Station, which offers the potential enhancement of 
United States competitiveness in science, technology, and 
engineering.'' NASA is to work with agencies and organizations that 
have entered into agreements as partners on the ISS National 
Laboratory.

Establishing ISS Program Service Life
    NASA indicates that while the FY09 budget run out does not 
presently allocate funds for operating ISS beyond 2016, it is not 
taking any action to preclude it. Likewise, out year projections do not 
include costs to retire and de-commission ISS.
    Two new issues have bearing on the ISS's life expectancy:

        1.  Reports of sooner-than-expected wear on components, such as 
        the beta gimbal assembly (BGA) and the Solar Array Rotary Joint 
        (SARJ) could be indications that NASA may need to re-analyze 
        its sparing strategy due to uncertainties about the last two 
        Shuttle logistics flights and resupply options after the 
        Shuttle is retired in 2010.

        2.  It was recently reported that Russia will ask partners in 
        June to extend the utilization of the ISS until 2020 because a 
        Russian segment would take longer to complete. Russia still 
        does not have a research module on the ISS and the Multi-
        Purpose Laboratory Module (MLM) would provide the expanded 
        research capability desired. The MLM will be Russia's primary 
        research module as part of the ISS. According to news reports, 
        funding issues had delayed the MLM from an initial 2007 date. A 
        NASA official has told Subcommittee staff that NASA will 
        discuss these issues at a meeting of the partner Space agencies 
        in July of this year.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        
    Chairman Udall. This hearing will come to order. Good 
morning to all of you. I want to welcome today's witnesses to 
our hearing. We welcome your participation and look forward 
very much to your testimony.
    Today's hearing continues the Subcommittee's oversight of 
NASA's major programs by focusing on the International Space 
Station (ISS) Program. While it is a program that has had a 
long and at times controversial and frustrating development 
path, I am impressed with the progress that has been made in 
assembling and operating this incredibly complex international 
space science and technology facility. The NASA witness, Mr. 
William Gerstenmaier, will describe some of the recent 
accomplishments of the ISS Program in his testimony, and he and 
his team and all the international partners, too, can take 
justifiable pride in what they are achieving.
    An important component of that success is the way the ISS 
is truly becoming the International Space Station with 
American, Japanese, European, Canadian, and Russian astronauts, 
engineers, and program managers working together to overcome 
challenges on a continuing basis.
    Yet, if we are to justify the significant resources that 
have been expended on the ISS Program, we need to be confident 
that it is going to be used in as productive a manner as 
possible once it is assembled.
    To that end, I am encouraged by news of emerging research 
and commercial collaborations with NASA, and I am looking 
forward to hearing from our witnesses from the research and 
commercial sectors about their plans for utilizing the Station. 
Equally important, their views on what it will take to make the 
ISS a productive venue for research and commercial activities.
    I also want to hear NASA tell us what it intends to do to 
make the ISS a productive facility, not just for research and 
commercial activities but also to carry out the ISS research 
and technology activities that NASA has said will be necessary 
to prepare for future exploration.
    In this hearing instead of dwelling on past problems, I 
want to focus on where we go from here.
    However, as NASA talks about providing research 
opportunities on the Station, we cannot forget that the funding 
cuts NASA has made to its microgravity research programs in 
recent years, whether willingly or not, have largely decimated 
the research community.
    Thus, I think the onus has to be on NASA to prove that it 
means what it says by taking meaningful steps both to make the 
Station a productive venue for research and to start to rebuild 
the research community.
    Yet, it won't be possible to have a productive Station 
unless the facility can be sustained after the Shuttle is 
retired.
    I am going to want to hear from NASA about how it plans to 
ensure the availability and productivity of the ISS after the 
Shuttle is retired, what it considers the major risks ahead, 
and how it plans to manage those risks.
    It is no secret that we are currently living with the 
adverse impacts of the Administration's shortsighted decision 
four years ago to accept a four-year gap in U.S. crew launch 
capabilities after the Shuttle is retired. I hope we learn from 
that experience and not let the future of the Station to be 
determined by equally shortsighted measures.
    If we are to receive a meaningful return on the Nation's 
investment in the ISS, we need to ensure that the Station's 
post-Shuttle logistics re-supply needs are adequately funded.
    It is also clear that it is time for the Administration to 
commit to flying the two contingency Shuttle flights that will 
deliver critical spares and logistics to the Station before the 
Shuttle is retired.
    Based on all the information provided to the Committee to 
date, it is clear that those flights are not optional if NASA 
is to minimize the risks facing the ISS after 2010.
    And finally, we need to ensure that any decision on the 
service life of this international facility is based on sound 
policy, considerations, and thorough consultations with our 
international partners and not simply be a date based on the 
current Administration's desire to make it conform to their own 
under-funded budget plan for NASA.
    Well, we have a great number of issues to consider today. 
As I have said, we have a very good panel of witnesses to help 
us address them.
    Again, I want to welcome you, and we will look forward to 
your testimony.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning. I'd like to welcome our witnesses to today's hearing. 
We welcome your participation and look forward to your testimony.
    Today's hearing continues the Subcommittee's oversight of NASA's 
major programs by focusing on the International Space Station program.
    While it is a program that has had a long, and at times 
controversial and frustrating development path, I am impressed with the 
progress that has been made in assembling and operating this incredibly 
complex international space-based science and technology facility.
    The NASA witness, Mr. William Gerstenmaier, will describe some of 
the recent accomplishments of the ISS program in his testimony, and he 
and his team--and all of the international partners too--can take 
justifiable pride in what they are achieving.
    An important component of that success is the way that the ISS is 
truly becoming the International Space Station, with American, 
Japanese, European, Canadian, and Russian astronauts, engineers, and 
program managers working together to overcome challenges on a 
continuing basis.
    Yet, if we are to justify the significant resources that have been 
expended on the ISS program, we need to be confident that it is going 
to be used in as productive a manner as possible once it is assembled.
    To that end, I am encouraged by news of emerging research and 
commercial collaborations with NASA, and I am looking forward to 
hearing from our witnesses from the research and commercial sectors 
about their plans for utilizing the Station. . .
    And equally importantly, their views on what it will take to make 
the ISS a productive venue for research and commercial activities.
    I also want to hear NASA tell us what it intends to do to make the 
ISS a productive facility--not just for research and commercial 
activities, but also to carry out the ISS research and technology 
activities that NASA has said will be needed to prepare for future 
exploration.
    In this hearing, instead of dwelling on past problems, I want to 
focus on where we go from here.
    However, as NASA talks about providing research opportunities on 
the ISS, we cannot forget that the funding cuts NASA has made to its 
microgravity research programs in recent years--whether willingly or 
not--have largely decimated that research community.
    Thus, I think the onus has to be on NASA to prove that it means 
what it says by taking meaningful steps both to make the ISS a 
productive venue for research and to start to rebuild that research 
community.
    Yet, it won't be possible to have a productive ISS unless the 
facility can be sustained after the Shuttle is retired.
    I am going to want to hear from NASA about how it plans to ensure 
the viability and productivity of the ISS after the Shuttle is retired, 
what it considers the major risks ahead, and how it plans to manage 
those risks.
    It is no secret that we are currently living with the adverse 
impacts of the Administration's shortsighted decision four years ago to 
accept a four-year gap in U.S. crew launch capabilities after the 
Shuttle is retired.
    I hope we learn from that experience and not let the future of the 
ISS be determined by equally shortsighted measures.
    If we are to realize a meaningful return on the Nation's investment 
in the ISS, we need to ensure that the ISS's post-Shuttle logistics 
resupply needs are adequately funded.
    It is also clear that it is time for the Administration to commit 
to flying the two ``contingency'' Shuttle flights that will deliver 
critical spares and logistics to the Station before the Shuttle is 
retired.
    Based on all of the information provided to the Committee to date, 
it is clear those flights are not optional if NASA is to minimize the 
risks facing the ISS after 2010.
    And finally, we need to ensure that any decision on the service 
life of this international facility is based on sound policy 
considerations and thorough consultations with our international 
partners--and not simply be a date based on the current 
Administration's desire to make it conform to their own underfunded 
budget plan for NASA.
    Well, we have a great number of issues to consider today, and we 
have a very good panel of witnesses to help us address them.
    I again want to welcome them, and we look forward to your 
testimony.

    Chairman Udall. The Chair now is greatly privileged to 
recognize my good friend, Congressman Hall, for an opening 
statement.
    Mr. Hall. Thank you, Mr. Chairman. I thank you, again, for 
my first neighbor when I came up here 28 years ago with Mr. 
Udall. I learned more from him than I had the past 50 years 
politically. And I thank you, Mr. Chairman, for calling this 
morning's very timely hearing on the International Space 
Station.
    I want to begin by thanking the witnesses, because I know 
about your busy schedules, and I know a lot of you have 
traveled considerable distance, and I want to assure all of you 
that your wisdom and expertise are greatly valued by, I value 
them greatly, as do other Members of this committee, because 
we, you are knowledgeable about what we are discussing, and we 
write laws based on the good information that we get from good 
folks like you that give us your time.
    And I would ask you, Mr. Pickens, are you related to Boone 
Pickens? He is one of the finest guys in the whole world. He 
just absolutely leads the energy chase and is generous with 
universities. Golly, he is going to solicit Nature's Aid in the 
greatest way. He is really a great guy, and I am--and how is he 
related to you?
    Mr. Pickens. He is my father.
    Mr. Hall. Your father? Golly, I wish he was my father.
    Anyway, Mr. Chairman, the International Space Station is 
well on its way to completion, and if NASA successfully flies 
out its remaining schedule of flights over the next two years, 
it will be capable of conducting a wide array of world-class 
science.
    The United States and its international partners have 
invested tens of billions of dollars to assemble the most 
complex and largest laboratory and living facility ever to fly 
in space. The fruits of this investment are only now capable of 
really being realized.
    But having said that, a number of critical questions and 
challenges remain to be answered, both with respect to 
completing assembly of Station and once accomplished, using the 
Station as a one-of-a-kind laboratory to conduct research in a 
microgravity environment.
    Issues that bear discussion include the status of the two 
contingency flights. Is NASA committed to flying them or not? 
Will the United States be able to reliably and safely move crew 
and cargo to and from Station during the five-year gap between 
retirement of Shuttle and advent of the Orion Ares Launch 
System?
    Now, and how safe is Soyuz in light of the most recent pair 
of re-entries that did not perform as expected? I hope our NASA 
witnesses, Mr. Gerstenmaier, will be able to spend a couple of 
minutes in his opening testimony talking about Soyuz 
performance problems and potential solutions.
    I am also concerned about NASA's plans to fully exploit the 
Station's research and testing capabilities and how it intends 
to maximize its utility as a national research laboratory.
    Several of the witnesses will offer helpful insights and 
suggestions stemming from their experiences. By raising these 
questions I don't mean to appear critical of NASA's management 
of ISS. In fact, I would applaud Mr. Gerstenmaier and the men 
and women of NASA and their contractor teams for making the 
difficult task of building the Station look relatively routine. 
I can only imagine the amount of detailed planning, design, and 
consultation, as well as negotiating with our international 
partners that went into this effort.
    It has always been one of NASA's great strengths and 
perhaps one of its biggest public relations challenges to make 
the highly-dangerous and complex task of space flight look 
benign, easy, or of no significance.
    I want to again thank our witnesses for joining us this 
morning, and I certainly look forward to your testimony.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman, for calling this morning's timely hearing 
on the status of the International Space Station. I want to begin by 
thanking our witnesses for taking time out of their busy schedules to 
be here. Some of you have traveled considerable distance, and I want to 
assure all of you that your wisdom and expertise are greatly valued by 
me and other Members of the Committee.
    Mr. Chairman, the International Space Station is well on its way to 
completion and, if NASA successfully flies out its remaining schedule 
of flights over the next two years, it will be capable of conducting a 
wide array of world class science. The United States and its 
international partners have invested tens of billions of dollars to 
assemble the most complex and largest laboratory and living facility 
ever to fly in space. The fruits of this investment are only now 
capable of being realized.
    But having said that, a number of critical questions and challenges 
remain to be answered, both with respect to completing assembly of 
station, and once accomplished, using the station as a one-of-a-kind 
laboratory to conduct research in a microgravity environment. Issues 
that bear discussion include the status of the two contingency flights; 
is NASA committed to flying them or not? Will the United States be able 
to reliably and safely move crew and cargo to and from station during 
the five-year gap between retirement of Shuttle and advent of the 
Orion/Ares launch system? How safe is Soyuz in light of the most recent 
pair of re-entries that did not perform as expected? I hope our NASA 
witness, Mr. Gerstenmaier, will be able to spend a couple of minutes in 
his opening testimony talking about Soyuz performance problems and 
potential solutions.
    I am also concerned about NASA's plans to fully exploit the 
station's research and testing capabilities, and how it intends to 
maximize its utility as a National Research Laboratory. Several of our 
witnesses will offer helpful insights and suggestions stemming from 
their experiences.
    By raising these questions, I don't mean to appear critical of 
NASA's management of ISS. In fact, I want to applaud Mr. Gerstenmaier 
and the men and women of NASA, and their contractor teams, for making 
the difficult task of building the station look relatively routine. I 
can only imagine the amount of detailed planning, design, and 
consultation, as well as negotiating with our international partners, 
that went into this effort. It has always been one of NASA's greatest 
strengths, and perhaps one of its biggest public relations challenges, 
to make the highly dangerous and complex task of space flight look 
benign.
    I want to again thank our witnesses for joining us this morning, 
and I look forward to hearing their testimony. Thank you.

    Chairman Udall. Thank you, Mr. Hall. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record. Without objection, so 
ordered.
    At this time I would like to introduce our first panel of 
witnesses. I am going to start from my left, and we will 
introduce each one of you, and then we will return and start 
with the panel.
    Dr. Edward Knipling is the Administrator for the 
Agricultural Research Service at the U.S. Department of 
Agriculture. Next to him, Dr. Louis Stodieck, who is a 
constituent of mine. He is the Director of the BioServe Space 
Technologies at the University of Colorado at Boulder. To his 
left, Dr. Cheryl Nickerson is an Associate Professor at the 
Biodesign Institute in the Center for Infectious Diseases and 
Vaccinology at Arizona State University. I would note I grew up 
in Tucson so I tend to be a little bit more of a fan of the 
University of Arizona, but we will leave that where it may be, 
Dr. Nickerson. And finally we have Mr. Thomas Pickens, III, who 
is the President and CEO of SPACEHAB, Incorporated, and who 
shares kinship now with Dr. Hall because you both have a father 
in common. You have, Dr. Hall is an honorable, he is 
everybody's father, including mine.
    I would add before we turn back to the witnesses, it is an 
honor for me. I don't know that I have had a chance to Chair a 
committee hearing in the presence of Judge Hall, but he has 
been a mentor to me, and he chaired this committee, and I am 
truly honored.
    Mr. Rohrabacher. Mr. Chairman, I would like to also note 
that it is an honor for me to be here with a man who knew Sam 
Houston as well.
    Chairman Udall. We will discuss later whether that 
commentary will be in the record or not based on Judge Hall's 
perspective.
    And again, the witnesses know that spoken testimony is 
limited to five minutes each, after which Members of the 
Subcommittee will have five minutes each to ask questions.
    Dr. Knipling, the floor is yours.

                                Panel 1:

      STATEMENT OF DR. EDWARD B. KNIPLING, ADMINISTRATOR, 
 AGRICULTURAL RESEARCH SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Dr. Knipling. Well, thank you, Mr. Chairman, and Members of 
the Subcommittee. My name is Edward Knipling. I serve as the 
Administrator of the Agriculture Research Service, also known 
as ARS. ARS is the research arm of USDA, the intramural, in-
house research arm of USDA, and we operate a network of 100 
federal agricultural science laboratories across the Nation in 
all aspects of agricultural science.
    And thank you for the opportunity to appear before this 
subcommittee today to present testimony about ARS's 
collaboration with NASA on research relevant to agriculture and 
the Space Program.
    ARS and NASA have a long history of working together. The 
ARS Beltsville Agricultural Research Center and the Goddard 
Space Flight Center in Maryland, we are next-door neighbors. We 
worked together for many years, particularly with respect to 
the Earth Observation Program and various aspects of remote 
sensing of the environment.
    Among our successes in that area are predictions of animal 
disease outbreaks in Africa based upon global weather and 
vegetation patterns that affect insect vector populations, 
detection of drought indicators, remote measurements of crop 
yields, detection and risk assessment of plant pests and 
invasive species, and development of data for application of 
precision farming using GPS technology. The role of ARS 
scientists in these collaborations has been to provide the 
knowledge and interpretation of plant, animal, and 
environmental indicators recorded in the imagery and other data 
collected by NASA's satellites and other aerial platform 
sensors, and in turn, how to effectively design and use those 
systems for meaningful environmental and biological 
assessments.
    These research activities have been conducted under the 
framework of an existing Memorandum of Understanding between 
USDA and NASA and various predecessor agreements, and today I 
will speak of a planned new Memorandum of Understanding 
involving research collaboration in the agricultural life 
sciences that will take advantage of the microgravity 
environment of the International Space Station.
    And Mr. Chairman, I will address four questions about this 
new collaboration between ARS and NASA that are of particular 
interest to this subcommittee. One of these is what 
achievements are expected under this new collaboration? Well, 
we anticipate this research will lead to new understandings of 
biological cellular mechanisms and creative new ways to improve 
American agriculture, protect the environment, and contribute 
to human health. These will be based upon principles related to 
the early development of cells and how that development is 
influenced by zero or reduced gravity compared to the Earth's 
gravitational field.
    Certainly access to the facilities and the environment of 
the International Space Station will provide ARS with new 
abilities to test biological processes in microgravity. Topics 
of immediate interest are development plant and animal cells 
and culture and improved understanding of the capacity of such 
cells to express desired traits or to develop in specialized 
ways. Selection of cell lines under microgravity may provide 
germplasm capable of improving plant resistance to pathogens, 
improved growth characteristics, and generation of functional 
replacement organs.
    Question number two. How will ARS and NASA proceed on these 
collaborations? Our ARS program managers and scientists have 
met with NASA program managers and scientists to define areas 
of mutual interest. They have determined that for work on the 
International Space Station, the ARS focus will be on the 
science of cells, principally the affects of microgravity on 
basic biological mechanisms, genetic regulation in plants and 
animal cells, pathogenesis in both plants and animal cells, 
development of cells cultured to understand organ function and 
development, and selection of plant cells for desirable growth 
characteristics.
    We expect to apply the findings and results of research in 
these areas to improving animal and plant productivity. We 
anticipate that our first collaborative research on the Space 
Station will be to understand the effect of microgravity on the 
differentiation of animal germ cells. Our goal is to develop 
and validate the technology to produce and replicate 
undifferentiated cells that can be, in turn, used to study gene 
expression, cellular differentiation, and to improve genetic 
enhancement technologies.
    What is the role of agriculture in space research? Well, we 
envision the tools of space research provided by NASA 
collaboration as a powerful means to better understand and deal 
with the responsibilities and challenges we face in agriculture 
as well as exploiting new opportunities to help advance to 
agricultural life scientists and potential new applications. 
And certainly our experiences with the development of remote 
sensing applications have proven this to be possible.
    The ARS research mission and our own goals themselves will 
not change, but we will benefit from the NASA collaboration and 
unique approaches to help reach our goals. The new MOU that I 
spoke about will specify that each agency, ARS and NASA, will, 
shall provide their own resources, including expenditure of 
funds, to support their, our respective complementary part of 
the collaborative research.
    Question four. How will ARS develop a research plan for 
work on the International Space Station? Well, planning for 
this work has already begun at the national or program level. 
Our respective program managers have worked together to assure 
that the goals to be met will be relevant to the problems of 
agriculture and to establish a formal relationship through the 
MOU. And at the investigator level, science level, NASA, ARS, 
and cooperating private sector and university scientists have 
met and explored the possibilities for specific experiments to 
be conducted.
    Initially ARS investigators are interested in determining 
if fertilized cow eggs do not differentiate under microgravity 
but continue to replicate. And additional experiments will be 
designed for a particular set of cell lines from swine embryos 
that have been shown to give rise to liver cells, and these 
cells may have potential use in artificial liver devices.
    Many questions about the regulation of their 
differentiation and replication in culture remain unanswered. 
And the research planning has focused on the design of 
experiments to answer such questions.
    In addition to the potential value of all of these 
experiments for advancing animal and plant agriculture, they 
are expected to serve as models for beneficial applications of 
cell culture technologies for human health as well.
    Mr. Chairman and Members of the Subcommittee, this 
completes my testimony. I will be pleased to address any 
questions that you have at a later time.
    [The prepared statement of Dr. Knipling follows:]
                Prepared Statement of Edward B. Knipling
    Mr. Chairman and Members of the Subcommittee, I am Edward B. 
Knipling, Administrator of the Agricultural Research Service (ARS). ARS 
is the principal intramural science research agency of the United 
States Department of Agriculture (USDA). ARS operates a network of more 
than 100 federal research laboratories across the Nation on all aspects 
of agricultural science.
    Thank you for the opportunity to appear before the Subcommittee 
today to present testimony about ARS' collaboration with the National 
Aeronautics and Space Administration (NASA) on research relevant to 
agriculture and the space program.
    ARS and NASA have a long history of working together. The ARS 
Beltsville Agricultural Research Center and the Goddard Space Flight 
Center are next-door neighbors in Maryland. ARS scientists at 
Beltsville and other ARS locations have worked with the NASA scientists 
in the Earth Observation program at Goddard and elsewhere to apply a 
wide range of remote sensing methods to environmental and agricultural 
problems.
    Among our successes are predictions of animal disease (Rift Valley 
Fever) outbreaks based on global weather patterns, detection of drought 
indicators, remote measurement of crop yields, detection and risk 
assessment of plant pests and invasive species, and development of data 
for application of precision farming. The roles of ARS scientists in 
such collaborations have been to provide knowledge and interpretation 
of plant, animal, and environmental indicators recorded in the imagery 
and data collected by NASA's satellite and other aerial platform 
sensors, as well as how to effectively design and use these systems for 
meaningful environmental and biological assessments.
    These research activities have been conducted under the framework 
of an existing Memorandum of Understanding (MOU) and predecessor 
agreements between USDA and NASA. Today I will speak of a planned new 
Memorandum of Understanding involving research collaborations in the 
agricultural life sciences that will take advantage of the microgravity 
environment of the International Space Station (ISS). Mr. Chairman, I 
will address four issues about this new collaboration between ARS and 
NASA that are of particular interest to this subcommittee.

Achievements Expected Under the New Collaboration

    We anticipate that this research will lead to new understandings of 
biological cellular mechanisms and creative new ways to improve 
American agriculture, protect the environment, and contribute to human 
health. These will be based on principles related to the early 
development of cells and how that development is influenced by zero or 
reduced gravity compared to the earth's gravity environment.
    Access to the facilities and environment of the ISS will provide 
ARS with new abilities to test biological processes in microgravity. 
Topics of immediate interest are development of plant and animal cells 
in culture and improved understanding of the capacity of such cells to 
express desired traits or to develop in specialized ways. Selection of 
cell lines under microgravity may provide germplasm capable of 
improving plant resistance to pathogens, improved growth 
characteristics, and generation of functional replacement organs.

How ARS and NASA Will Proceed on Significant Collaborations

    ARS program managers and scientists have met with NASA program 
managers and scientists to define the areas of mutual interest. They 
have determined that for work on the ISS the ARS focus will be on the 
science of cells, principally the effects of microgravity on:

          basic biological mechanisms,

          genetic regulation in plants and animals cells,

          pathogenesis in both plants and animal cells,

          development of cells cultured to understand organ function 
        and development, and

          selection of plant cells for desirable growth 
        characteristics.

    We expect to apply the findings and results of research in these 
areas to improving animal and plant productivity. We anticipate that 
our first collaborative research on the ISS will be to understand the 
effect of microgravity on the differentiation of animal germ cells. Our 
goal is to be able to produce undifferentiated cells that can be used 
to study gene expression, cellular differentiation, and to improve 
genetic enhancement technologies.

The Role of Agriculture in Space Research

    We envision the tools of space research provided by NASA 
collaboration as a powerful means to better understand and deal with 
the responsibilities and challenges we face in agriculture as well as 
exploiting new opportunities. Our experiences with the development of 
remote sensing applications have proven this to be true. We expect that 
the microgravity environment on the ISS will provide the same kinds of 
benefits to help advance our agricultural life sciences programs and 
potential new applications. The ARS research mission and goals will not 
change but we will benefit from NASA collaboration and unique 
approaches to help reach those goals. The new MOU will specify that 
each agency, ARS and NASA, shall provide their own resources, including 
expenditure of funding, to support their respective complementary part 
of the collaborative research.

How ARS Will Develop a Research Plan for Work on the ISS

    Planning for this research on the ISS has begun. ARS has been 
involved at two levels: at the national planning level and at the 
investigator level. At the national level, ARS program managers have 
worked with NASA program managers to assure that the goals to be met 
would be relevant to problems of agriculture and to establish a formal 
relationship through a MOU. At the investigator level, NASA and ARS 
scientists have met and explored the possibilities for specific 
experiments to be conducted at the ISS. In particular ARS investigators 
are interested the development and differentiation of a particular set 
of cell lines that came from swine embryos and have been shown to give 
rise to liver cells. These cells may even be able to be used in 
artificial liver devices. Many questions about the regulation of their 
differentiation in culture remain unanswered. Research planning has 
focused on the design of experiment to ask questions about the role of 
gravity in cell culture differentiation.
    Mr. Chairman, this completes my testimony. I will be pleased to 
address any questions you and Subcommittee Members may have.

    Chairman Udall. Thank you, Dr. Knipling.
    Dr. Stodieck.

 STATEMENT OF DR. LOUIS S. STODIECK, DIRECTOR, BIOSERVE SPACE 
     TECHNOLOGIES; ASSOCIATE RESEARCH PROFESSOR, AEROSPACE 
    ENGINEERING SCIENCES, UNIVERSITY OF COLORADO AT BOULDER

    Dr. Stodieck. Chairman Udall and Members of the 
Subcommittee, thank you for inviting me to testify before you 
today. The International Space Station represents an incredible 
human achievement for which our nation and our international 
partners can be very proud. It represents the best of what 
people can do working together with commitment and resolve. I 
for one am very grateful to the engineers and all who have 
built this magnificent facility.
    With the focus on assembly of the ISS set to end in only 
two and one-half years, research utilization, the original 
purpose of the ISS, can finally be brought to the forefront of 
our discussions and planning. The ISS has tremendous potential 
to advance our nation's interests in science, technology, and 
commerce. I imagine some of the witnesses here today will 
testify to this potential, and you will find other 
illustrations of this in my written statement.
    These examples are but the tip of the proverbial iceberg. 
The ability to use the lens of microgravity to understand and 
exploit gravity as a physical force is unique to the ISS. If 
fully utilized, I expect that the ISS is going to greatly 
advance scientific knowledge and have important economic 
impacts in many fields of study.
    The NASA Authorization Act of 2005, designated the U.S. 
segment of the ISS as a national laboratory. This designation 
was a result of Congress recognizing that limiting ISS 
utilization to only NASA's exploration research needs would do 
a disservice to the taxpaying public and the many ISS 
stakeholders. This designation clearly opens the door to re-
establishing the ISS as an important, productive R&D facility.
    However, this step by itself is insufficient to insure that 
the ISS National Lab will be successful. In my view there are 
three actions that need to be taken.
    The first is Congress or NASA should establish an 
independent management organization to provide leadership of 
the ISS National Lab R&D activities. This organization should 
be chartered to develop and manage a rich portfolio of non-
exploration research on the ISS. The expeditious way to do this 
might be for NASA to identify one or more qualified 
organizations to provide this leadership and form a partnership 
with them through the use of a space act agreement.
    Resulting ISS National Lab management organization would 
reach out to scientists and commercial users across disciplines 
and across institutions, identify the best research ideas to 
bring forward. The organization would also serve as the 
interface to NASA and assure, and assume the responsibility for 
getting the research integrated and operated on the ISS.
    The second action that should be taken is Congress should 
provide modest funding to encourage and support non-NASA 
agencies, U.S. industry, universities, and other organizations 
to utilize the ISS. Under the ISS National Lab model, the 
research sponsor would be expected to cover the cost of the 
science. And it should. However, conducting research on the ISS 
requires something like five to ten times the funding than that 
needed for comparable ground-based research. This is because 
research on the ISS carries additional costs associated with 
all the requirements to fly with the procurement of specialized 
hardware and with securing transportation to and from low-Earth 
orbit.
    If ISS National Lab users are required to cover these full 
costs, then I fear it will have the unfortunate affect of 
precluding a number of excellent ideas from going forward. 
Funding provided to the ISS National Lab management 
organization to cover these extra costs would encourage 
increased demand for ISS utilization and help achieve a high 
level of productivity and ultimately success.
    The third action is for Congress or NASA to ensure that 
research sponsors have regular, reliable, and frequent 
transportation access to and from the ISS. The Space Shuttle is 
currently the only vehicle with any significant capacity for 
bringing research samples and equipment back to Earth. 
Retirement of the Space Shuttle in 2010, will exactly coincide 
with when this capability will be most needed for the ISS 
National Lab to become productive.
    The best option for both up and down transportation will be 
for one or more U.S. commercial providers to be successful at 
developing new launch vehicles and ISS docking spacecraft and 
for these capabilities to be pressed into service. As NASA 
works to procure services for logistics re-supply to the ISS, 
planning should also include the needs of the ISS National Lab 
users. Productive ISS National Lab will require something like 
20 to 25 percent of the transportation capacity both up and 
down with shipments spread across multiple flights each year.
    The ISS National Lab has enormous potential to advance the 
interests of the Nation in commerce, science, medicine, 
technology, and education. If the steps I have just outlined 
are taken, I believe ISS National Lab will be productive, and 
significant breakthroughs can be expected.
    Thank you for your time, and I look forward to answering 
any questions you may have.
    [The prepared statement of Dr. Stodieck follows:]
                Prepared Statement of Louis S. Stodieck
    Chairman Udall, Ranking Member Feeney and Members of the 
Subcommittee, thank you for inviting me to testify on a subject that I 
feel is very important to our nation. As you will see, I believe there 
is tremendous potential for the International Space Station (ISS), as a 
National Laboratory, to be utilized for high-value research and 
development in low-Earth orbit. I also hope to convince you that more 
must be done now to position the ISS National Laboratory to succeed.
    My name is Louis Stodieck and I am a Research Professor in the 
department of Aerospace Engineering Sciences at the University of 
Colorado at Boulder. In addition to my academic role at CU-Boulder, I 
am privileged to serve as the Director of BioServe Space Technologies, 
a space life sciences research center. BioServe was founded in November 
1987 through a NASA grant to the University. Through its 20-year 
history, BioServe's mission has essentially remained unchanged: we work 
in partnership with industry, academia and government to conduct space 
life sciences research that primarily focuses on commercial 
applications that could benefit the public. BioServe has served the 
biotechnology, pharmaceutical, agribusiness and biomedical industry 
sectors with most Center projects focusing on the effects of 
microgravity, often referred to as weightlessness.
    Starting with our first flight in 1991 on STS-37, the Center has 
flown 40 payloads on 29 missions. Our experiments have launched on the 
Space Shuttle, Progress and Soyuz vehicles and were operated in orbit 
on the Space Shuttle, the Russian Mir Space Station and, more recently, 
the International Space Station. A wide range of experiments have been 
carried out across the full spectrum of space life sciences 
applications that have evaluated molecular processes, cell and tissue 
biology and the development and adaptation of various plants and 
organisms. BioServe's commercial partners have included large Fortune 
500 companies such as Amgen, Bristol-Myers Squibb, Procter and Gamble 
and Weyerhaeuser along with numerous start-up and established smaller 
life sciences companies.
    It is through the above activities that I feel I am qualified to 
present to you today the reasons why the Nation should capitalize on 
the ISS and utilize its capabilities to the greatest possible extent.

Potential for R&D on the International Space Station

    The International Space Station (ISS) represents an incredible 
human achievement for which our nation and our International Partners 
can be very proud. The launch of the first ISS element took place just 
under 10 years ago in 1998. Today, the ISS is a remarkable orbiting 
laboratory with unequaled capabilities. It represents the culmination 
of the dedication and commitment of thousands of people who have worked 
tirelessly on the design, fabrication and on-orbit assembly of this 
massive undertaking. The ISS also represents an unparalleled 
opportunity in human history: The ability to use the ``lens'' of 
microgravity to understand and exploit gravity as a physical force. The 
ISS offers a superb vantage point from which to observe the Earth as 
well as providing access to the space environment, attributes that can 
both be exploited for research. The ISS is rapidly growing in 
capability and even now can support a wide array of research and 
development activities that simply cannot be done on Earth.
    During the last 10 years, the focus for the ISS Program has 
necessarily been on assembly. NASA's ISS Payload's Office at the 
Johnson Space Center has done an excellent job of supporting research 
utilization, but in reality such utilization has had to take a back 
seat to ISS assembly and maintenance. The focus on assembly has meant 
that comparatively little transportation volume, mass, power and, 
probably most important of all--crew time--have been available to 
utilize the ISS to any significant extent. As a result, many of the ISS 
racks and equipment are currently sitting idle awaiting the day when 
ISS utilization can be ramped up. So, when can ISS utilization be 
ramped up, and what will it take to do so?
    Based on the current schedule, the ISS project is now only two and 
one-half years away from completion. At that point, the ISS can be 
officially and substantially opened for business. A significant part of 
that business, in my mind, ought to be scientific and commercial 
research and development. It will indeed be unfortunate if the ISS 
remains substantially under-utilized once it is completed in 2010. I 
hope instead that with proper planning and strategic investment now, 
the ISS will be able to live up to its fullest potential as a unique 
laboratory the like of which has never before been available and 
possibly never again will be in our lifetime. It is probably not 
possible to predict when the ISS will reach the end of its lifetime and 
be de-commissioned, and it seems quite premature to discuss this when 
the lab is not yet completed and anything close to full utilization 
remains unrealized. However, the operational lifetime of the ISS is 
currently certified only through 2016. Even if this date is extended, 
it should be clear to all of us that the ISS will be available to serve 
the interests of the U.S., our International Partners and, more 
broadly, humanity for a finite period of time. Once the Space Shuttle 
is retired, our ability to service and replace major components of the 
ISS will be severely constrained. This ultimately could limit or reduce 
the amount of science that is conducted in this laboratory. Compare 
this situation with that of the Hubble Space Telescope. Just imagine 
how the lifetime of the Hubble Space Telescope would have been 
shortened and consider the amount of science lost without Space Shuttle 
servicing missions. The period of actual use of the ISS after assembly 
complete may be only five to 10 years and may be determined more by an 
inability to maintain safe operations than by U.S. policy. Thus, it 
will be very important to derive the most benefits possible from this 
incredible, one-of-a-kind laboratory as early as possible and for as 
long as possible.
    Currently, NASA remains the predominant user of the ISS. Research 
is being performed to better understand the negative effects of long-
duration space flight on the human body and to develop countermeasures 
and technologies to mitigate these effects. Non-exploration utilization 
research on the ISS has been conducted but only on a limited basis due 
to resource constraints and NASA's focus on the Exploration Vision. If 
the ISS is going to live up to its full potential, then clearly the 
productivity of the station must significantly increase, especially for 
non-exploration research.
    Before discussing the future of ISS utilization, I believe it is 
important to revisit the potential that ISS represents and why planning 
and further investment should be considered to jump start the great 
body of work to be done there.

Value of ISS as a National Lab

    It is easiest for me to speak from the experience and flight 
research projects that my Center has directly sponsored or supported. 
Of course there are numerous articles and studies that have identified 
and vetted the best R&D applications for the ISS across a host of 
scientific disciplines. The examples below are based in the life 
sciences, which is the focus of our Center and my area of expertise.
    Despite significant funding challenges over the last few years 
following the termination of NASA's Space Product Development program, 
the program within NASA under which BioServe was funded, BioServe has 
strived to remain productive in space flight research endeavors. We 
have done so for the simple reason that we believe strongly in the 
potential of the ISS to benefit the general public, commerce, 
scientific knowledge, technology development and education. Since 
December of 2006, space flight hardware designed and developed by 
BioServe has supported 17 different commercial, international, NASA and 
K-12 research projects. These research experiments have flown on five 
different Shuttle missions, launched and landed on the Russian Soyuz 
spacecraft, and spanned three ISS increments. In addition, BioServe has 
had operating research hardware on-board the ISS since December of 
2002.
    Over the years BioServe has worked with several different 
commercial companies in support of collaborative research with 
commercial applications. Some of these companies are mentioned above 
but the most recent support of commercial research involved experiments 
conducted in collaboration with Amgen and SPACEHAB.
    Amgen, one of the world's largest biotechnology companies, has 
collaborated with BioServe in the area of disuse bone and muscle loss 
since 1995. During this time BioServe conducted ground- and space-based 
studies both to verify the models utilized in these studies as well as 
to determine the effectiveness of two Amgen developed investigational 
compounds designed to reduce or prevent significant bone and muscle 
loss associated with certain types of disease and disuse conditions. 
This work culminated in two successful space flight experiments, one 
conducted on-board STS-108 and the other on-board STS-118. For each 
experiment, in addition to the primary research that was conducted, 
Amgen agreed BioServe could arrange a tissue-sharing program in which 
unused tissues from the space experiments were given to over 20 
separate investigators each researching the effects of space flight and 
microgravity exposure on different physiological systems. In essence 
with careful planning productivity was greatly enhanced despite limited 
resources. Although these two space flight experiments were Shuttle 
missions, it is believed that significant additional information could 
be learned through longer duration studies on-board ISS.
    The research projects with Amgen show the potential for alignment 
between industry and NASA goals and needs in the broader context of the 
ISS National Lab. For example, the research investigation of a bone 
therapeutic on STS-108 was part of a much larger traditional 
development program being conducted by Amgen. Today, that development 
program has led to a therapeutic called Denosumab which is in Phase III 
clinical trials. In addition to helping patients with osteoporosis, 
bone metastasis, and other serious bone loss conditions, this drug 
could become a highly effective countermeasure for future flight crews 
exposed to long-duration skeletal unloading. In the context of the ISS 
National Lab, this project shows the potential for industry-sponsored 
research to benefit the company, NASA's exploration vision and the 
general public.
    As part of a Space Act Agreement that is being completed between 
NASA and BioServe to support ISS National Lab commercial path-finder 
research, BioServe recently collaborated with SPACEHAB, Inc. to launch 
a series of commercially applicable experiments in the area of vaccine 
development for certain infectious diseases. The first of these 
payloads launched in March on-board STS-123 and the second is scheduled 
to launch in May on-board STS-124. The results, while still 
preliminary, are very encouraging. SPACEHAB, which is represented here 
today, can speak more to this promising work.
    Additionally, BioServe supported four NASA peer-reviewed life 
science researchers on-board STS-123. The Microbial Drug Resistance and 
Virulence or MDRV payload was sponsored by NASA's Exploration Systems 
Mission Directorate under the non-exploration research program. As the 
payload name implies, the research conducted by these investigators 
focused on the effects of space flight on virulence in pathogenic 
microbes, specifically bacteria, and antifungal resistance in a yeast 
model organism. This research has tremendous space- and Earth-based 
applications. Again, one of the investigators from this mission is here 
today and can speak to the value of this important work.
    BioServe has a long history of providing training and educational 
opportunities to graduate, undergraduate and K-12 students. The Center 
has trained and educated over 115 graduate students since its 
inception. BioServe students are highly sought by NASA and industry 
once they graduate due to the unique education in bioastronautics and 
hands-on training received within the Aerospace Engineering Sciences 
department and at the Center. This important benefit of the ISS 
National Lab simply cannot be overstated. With the sharp cuts by NASA 
in the physical and life sciences, universities and colleges have lost 
critical support for students to keep them engaged in these important 
fields. More importantly, academic institutions have lost the single 
largest set of opportunities for students to be involved with the human 
space program. Without this connection, I fear that fewer and fewer 
students will pursue lines of study and choose careers associated with 
NASA's ambitious Vision for Exploration. The ISS National Lab has the 
potential to restore some of these lost opportunities.
    In late 2006 BioServe started a formal K-12 education program 
called CSI. CSI brings actual space flight experiments into the K-12 
classroom. Through its education partners, curriculum supplements are 
developed for each CSI experiment. These materials are delivered to 
participating classroom teachers via the Internet. Once the experiment 
is activated on-orbit, images and data of the experiment are down-
linked to BioServe and then up-linked to the educational web site. 
Students are able to conduct their own ``ground controls'' in the 
classroom and compare their results on a near-real time basis to the 
space experiment. These experiments have examined seed germination, 
growth of metallic salts in silicate solutions, multi-generational 
organism growth in space and plant development. The CSI-01 and CSI-02 
projects have reached over 10,000 students. This program is an 
excellent example of utilizing a national asset, the ISS, to inspire K-
12 students in science, technology, engineering and math. It utilizes a 
unique element, the ISS, to promote inquiry of gravity's effects and 
influence on our every day lives. In turn, this type of activity 
creates a very real connection between students and parents and the 
tremendous accomplishments of NASA and the ISS.
    This brief description of work we have recently been conducting 
provides what I believe is only a very small glimpse into what could be 
possible on the ISS National Lab if research utilization were 
significantly stepped up. There is great potential to use ISS to 
advance applications in biotechnology, life sciences, fluid physics, 
fundamental physics, combustion, energy, Earth sciences, materials and 
biomedicine. Of course, there are critics of the ISS who disagree with 
this statement as would be expected when competing interests come into 
play. I would argue, however, that the work done to date on the Shuttle 
and on the ISS has shown the potential of the ISS National Laboratory 
to produce a rich return for taxpayers and that far greater benefits 
and discoveries await us. In any event, strict scientific return on 
investment should not be the sole measure of the worth of taking the 
ISS National Lab to the next level. Like it or not, the investment to 
build and assemble ISS in orbit has been made. We should now recognize 
the historically unique capability of this tremendous facility and 
exploit that capability to the maximum extent possible while we can.

Status of ISS National Lab Utilization

    It is difficult to assess the current status of ISS utilization 
without first considering how we arrived where we are today. It is well 
known that NASA policy concerning utilization of the ISS changed 
dramatically in January 2004 with the release of the new Vision for 
U.S. Space Exploration. The new vision for NASA clearly enumerated that 
the NASA Administrator should:

        <bullet>  ``Complete assembly of the International Space 
        Station, including the U.S. components that support the U.S. 
        space exploration goals and those provided by foreign partners, 
        planned for the end of this decade;''

        <bullet>  ``Focus U.S. research and use of the International 
        Space Station on supporting space exploration goals, with 
        emphasis on understanding how the space environment affects 
        astronaut health and capabilities and developing 
        countermeasures.''

    Two significant decisions by NASA leadership pertinent to the 
future of the ISS followed from the new Vision for Exploration policy:

        1.  NASA's life and physical science programs were drastically 
        cut with many lines of research being eliminated altogether. 
        Even life sciences research that was seen as supportive of the 
        Vision for Space Exploration but was more fundamental in nature 
        or involved pre-clinical animal models, was effectively 
        canceled. For many scientists within NASA and at universities 
        across the country, these decisions translated to the 
        termination of grants and forced the redirection of research 
        programs, even whole careers. Hundreds of college undergraduate 
        and graduate students were discouraged from engaging in 
        physical and space life sciences research. The development of 
        much of the life and physical sciences equipment that was being 
        built to support robust research programs on the ISS was 
        canceled.

        2.  As part of the realignment of NASA programs to the Vision 
        for Exploration, in 2006, NASA terminated the Space Product 
        Development program, which at the time supported 11 Research 
        Partnership Centers around the country, including ours. Many of 
        these centers were engaged in commercial research and 
        development activities that planned to utilize the ISS.

    These changes, along with others, certainly had the desired effect 
to reprogram significant funding and define budgets to carry out the 
Vision for Space Exploration and help focus NASA squarely on the 
development of replacement vehicles to the Space Shuttle and the 
development of plans and hardware systems to return to the Moon.
    Of course these decisions also placed in serious doubt the future 
of the ISS as a world-class, productive research laboratory in space, 
as had been originally envisioned. The momentum that had been built up 
by the collective efforts of thousands of people was depleted by these 
decisions in what seemed a very short period of time. There are in fact 
few organizations remaining today with the knowledge and expertise to 
conduct ISS utilization. Even now, these organizations are at risk of 
disappearing altogether and would take years to recreate.
    The NASA Authorization Act of 2005 designated the U.S. segment of 
the International Space Station as a National Laboratory. This 
designation was made as a result of strong leadership within Congress 
who recognized that limiting ISS utilization to only exploration 
research would do a disservice to the taxpaying public and the myriad 
of ISS stakeholders who should expect a reasonable return from the ISS 
in the form of scientific advances, new technologies, economic 
development, inspiration of education in technical fields and overall 
societal enrichment. This designation clearly opened the door to re-
establishing the ISS as an important and productive R&D facility.
    The designation of the ISS as a National Lab represents an 
important step in the right direction. However, this step by itself is 
insufficient to ensure that ISS will be productive in supporting high-
value R&D activities. In my view, there are three actions that need to 
be taken for the ISS National Lab to become successful.

        1.  Establish an independent management organization to provide 
        leadership and oversight of the ISS National Lab R&D 
        activities.

        2.  Provide modest funding to encourage and support non-NASA 
        agencies, U.S. industry, universities, colleges and other 
        organizations to utilize the ISS.

        3.  Ensure regular, reliable and frequent transportation access 
        to and from the ISS.

    Please allow me to expand on each of these steps.

ISS National Lab Management Organization

    The ISS National Lab designation from the 2005 Authorization Act 
establishes the potential for the ISS to be used for non-exploration 
research but does not establish a path by which this is to happen. In 
essence, this designation establishes the national lab facility without 
specifically identifying the people who would manage it. Imagine if 
Brookhaven National Lab, with its incredible facilities, were operated 
and maintained but no organization existed to serve the extramural 
research scientists and communities who might want to use the 
facilities. The productivity of Brookhaven's facilities would drop off 
precipitously.
    The NASA Report to Congress regarding a Plan for the ISS National 
Laboratory in 2007 partially addressed the question of management. In 
the report, NASA acknowledged the issue and indicated that various 
management structures had been considered to create a possible future 
ISS National Lab management organization. The report went on to 
recommend a two-phase approach to implementation. Phase I, which is 
currently being followed, utilizes the expertise of a small project 
office at NASA headquarters under the direction of the Associate 
Administrator for Space Operations. In this phase, NASA is focused on 
identifying end-users of the ISS National Lab and securing agreements 
intended to provide access to NASA expertise and eventual access to ISS 
for R&D activities. Phase II would occur depending on whether demand 
for access to the ISS National Lab evolved to a scale that would 
warrant such an organization. In this event, ``NASA could establish an 
institute, or other cost-effective entity, to manage opportunities for 
non-government organizations that are pursing applications unrelated to 
the NASA mission.''
    I am very encouraged by the steps that NASA has so far taken in 
creating a small project office at headquarters and by the 
accomplishments of this office. Clearly, our Center is a beneficiary of 
the work of this office through the Space Act Agreement about to be 
completed. However, demand for the use of the ISS is already high and 
continuing to grow. This can be evidenced, in part, by the increasing 
number of agreements being formed with NASA by various organizations 
including, commercial, academic and government, all of which are 
interested in utilizing the ISS. Many of the witnesses here today are 
testifying about these interests. I would argue that now is the time to 
move into the second phase of the ISS National Lab management strategy 
identified in NASA's report. An effective management organization put 
into place now should have a strong initial focus on expanding the user 
base by providing outreach to scientists, engineers and leaders of R&D 
organizations. This would continue to build demand for ISS utilization, 
which would lay the foundation for a high level of productivity of the 
ISS National Lab soon after completion of the ISS facility in 2010.
    How can an organization capable of leading ISS National Lab 
utilization be created in a short time frame? One approach could be 
pursued by the ISS National Lab office at NASA headquarters. 
Specifically, this office could seek interested parties, identify one 
or more qualified organizations and then proceed to execute a Space Act 
Agreement that would establish a public-private partnership to oversee 
ISS National Lab utilization on behalf of multiple users. I have 
recently become aware of one such organization that allows me to 
believe that this approach would be possible. The Biotechnology Space 
Research Alliance (BSRA) is a self-organized partnership between 
university, industry, foundation and economic development 
organizations. The purpose of BSRA is to facilitate access to the ISS 
National Lab and create benefits for the biotechnology industry sector 
in Southern California. This represents a possible model of how an ISS 
National Lab management organization might be structured. It should 
also be pointed out that BSRA could grow to support other industry 
sectors and expand to meet the needs of other regions across the 
Nation.
    The ISS National Lab management organization should be chartered to 
develop and manage a rich portfolio of non-exploration research 
activities on the ISS. To be clear, this organization would not be 
intended to replace the office at NASA headquarters but rather to 
greatly augment its efforts. This organization also would not replace 
any of the responsibilities of NASA's Payloads Office, which serves to 
integrate requirements for flight research across all users of the ISS 
including exploration and non-exploration research, but rather work 
hand-in-hand with this group.
    An effective ISS research management organization would have a 
number of key responsibilities in supporting the ISS National Lab:

        1.  Perform outreach to scientists across multiple disciplines 
        such as physics, materials science, life science, biomedicine, 
        chemistry, Earth science, etc. The organization would educate 
        scientists and others on the known effects of gravity, the 
        space environment and other space attributes and how conducting 
        studies on the ISS might benefit their research. The ISS would 
        essentially be marketed to prospective university, government 
        and commercial users. The goal would be to identify researchers 
        whose work could benefit the most from utilizing the ISS and 
        develop a substantial portfolio of prospective R&D projects.

        2.  Develop a selection process to prioritize and support the 
        best research from a regularly updated list of candidates. The 
        goal would be to serve as a fair broker in selecting research, 
        particularly when flight resources are constrained, based on 
        criteria that would be established by the organization when it 
        is formed.

        3.  Work to seamlessly integrate and fly research as a turn-key 
        operation. The goal would be to take responsibility for the 
        onerous process of flying research so that the scientists can 
        focus solely on their science.

        4.  Work closely with the ISS Payloads Office to streamline the 
        process of integrating and certifying research for flight. The 
        goal would be to shorten the payload processing timeline as 
        much as possible so as to maximize the productivity of the ISS 
        National Lab.

        5.  Maintain a database with key specifications for all space 
        flight research hardware that might be used on the ISS. In some 
        cases, the organization might maintain an inventory of flight 
        hardware and make this hardware available, as needed. The goal 
        would be to match the best available hardware with a particular 
        research project to avoid duplicate hardware development.

        6.  Assist NASA to archive results from work performed on the 
        ISS and effectively communicate these results to the public.

ISS National Lab Utilization Costs

    Performing research in orbit is more expensive than comparable 
ground-based research. Conducting a research investigation on the ISS 
could include 1) the cost of the science itself (research team, 
materials, analyses, etc.), 2) the cost for development of new hardware 
necessary to meet the science objectives, 3) the costs for payload 
integration, operations, preparation and flight certification, 4) the 
costs of transportation to and from the Space Station and, 5) use of 
the ISS and associated resources (power, crew time, volume, etc.).
    Within the concept of ISS as a National Lab, it is appropriate that 
the research sponsor or beneficiary would cover the cost of the 
research itself. This expectation would apply whether the work was 
being sponsored by a commercial, academic or government organization. 
In short, whoever brings research ideas forward and expects to benefit 
from those ideas should cover the full costs for executing the 
research.
    On the other end of the spectrum, it is currently NASA's policy to 
cover the costs associated with Space Shuttle transportation and the 
use of the ISS utilization resources. Compared with the costs being 
borne by NASA to launch the Shuttle, and assemble and operate the ISS, 
costs for transporting research and use of ISS resources for 
utilization are certainly marginal. Assuming that the costs for use of 
ISS resources continue to be covered by NASA for the foreseeable 
future, the obvious question is what happens to the transportation 
costs after the ISS is complete and the Space Shuttle is retired in 
2010? Without doubt, this question poses a significant risk to ISS R&D 
productivity post-assembly complete. Transportation costs for ISS 
National Lab research communities after 2010 need to be understood as 
soon as possible so they can be taken into account in laying a plan for 
productive ISS utilization. I'll address more on the subject of 
transportation shortly.
    Cost categories 2 and 3 present a different type of challenge. The 
costs of developing new hardware and meeting all of the NASA 
requirements associated with safety, integration, operations and flight 
certification can be significant. These costs are not ones that are 
normally associated with terrestrial research and, as such, even with 
the transportation cost excepted, the cost for conducting a research 
investigation on the ISS may be anywhere from two- to tenfold higher 
than a comparable ground investigation. These costs could impose a high 
barrier to research utilization of the ISS. Passing these costs to the 
end user will discourage high-risk, high-payoff research on the ISS. 
One obvious solution might be to provide modest funding to the ISS 
National Lab management organization so the organization can assume the 
responsibility for performing and meeting all NASA payload integration, 
operations and flight requirements. If research is selected for flight 
through an appropriate prioritization and vetting process, then the ISS 
National Lab organization could assume the responsibility and costs for 
its execution in orbit. This approach would have the important 
advantage that neither the research sponsor nor the science team will 
need to learn the daunting process for integrating and certifying an 
investigation for flight. At the same time, more high-risk, high-payoff 
experiments will be possible.

ISS National Lab Utilization Transportation

    After the Space Shuttle is retired in 2010, the options for 
transporting research between Earth and the ISS become limited. At this 
point, the U.S. Space Shuttle, the Russian Soyuz and Progress vehicles 
and now the European Space Agency's Autonomous Transfer Vehicle are the 
only means for transporting research equipment, supplies and samples. 
By 2009-2010, the H-II Transfer Vehicle (HTV) being developed by JAXA 
should have a similar capability to transport cargo to the ISS. Of 
these, only the Space Shuttle has significant capacity for transport 
back to Earth and yet it will be retired exactly at the time that 
research on the ISS should be significantly stepped up. Without a 
solution to this dilemma, ISS National Lab utilization will be 
crippled. The only research that will be practically possible, other 
than exploration research involving the station crews as test subjects, 
will be research where data are generated on-orbit and samples and 
payload equipment are considered disposable and incinerated in the 
atmosphere after use. While this approach might work for some 
investigations, the technology necessary to do this on a large scale on 
the ISS has not been developed nor are there any plans to do so.
    NASA should be credited for pursuing commercial options for ISS 
resupply. The Commercial Orbital Transportation Services or COTS 
providers may help to solve the transportation problem for the ISS 
National Lab. The release by NASA only recently of the request for 
proposals for Cargo Resupply Services (CRS) represents a critical step 
forward and suggests a certain level of confidence that one or more 
COTS providers will step up and be able to meet the cargo resupply and 
sample return needs of NASA and the ISS. To be clear, the solicitation 
appears to only cover NASA's needs for logistics and science materials 
and equipment. The solicitation does not cover ISS National Lab 
research users. Instead, NASA's expectation is that prospective ISS 
National Lab users will independently negotiate transportation to meet 
their needs.
    There are two concerns with NASA's approach to the CRS procurement 
from the perspective of ISS National Lab users.
    First, in planning for success with the ISS National Lab, there 
will be many different users needing to make transportation 
arrangements. Clearly, having multiple organizations, such as 
individual companies, agencies, government labs, even individual 
scientists, all approaching the successful COTS provider for a ride 
will create some degree of chaos. More importantly, it is not clear how 
coordination between ISS National Lab users and NASA (logistics 
resupply and exploration science) will be done. It is my opinion that 
the ISS National Lab will be most productive if research material can 
be transported both up and down on a schedule of 4-5 times per year or 
more. This schedule will provide the greatest flexibility to meet the 
requirements of multiple end users. ISS National Lab users should be 
included on every NASA procured shipment. This will require careful 
coordination between the ISS National Lab management organization and 
NASA. For now while the Cargo Resupply Services are being procured, 
NASA needs to plan to include perhaps 20-25 percent of the volume on 
each supply mission for the ISS National Lab work.
    Second, the cost of this component of the research, as mentioned 
above, could be the most severe challenge of all. Without knowing the 
charges for transportation that the selected Cargo Resupply Services 
providers will decide is needed to allow them to recoup their 
investment, it is difficult to know how to predict this critical cost 
component. However, as a point of reference, a reasonable approximation 
that has been previously used is $20,000 to launch and return a 
kilogram of mass. Of course the actual charge could be different, 
either higher or lower. Based on this value, one modest sized 
experiment, comparable to what is currently flown in the Shuttle mid-
deck, would cost over $600,000 to transport to and from the ISS. Add 
the cost of integration, operations and safety certification (category 
3 discussed above) and an experiment may cost $1,000,000. Add the cost 
of any modest new hardware development, if suitable existing hardware 
cannot be found, and the cost for a single experiment may reach as high 
as $2,000,000, a cost prohibitive to most research sponsors.
    Conducting research on the ISS National Lab is going to require 5-
10 times the investment for comparable research on the ground. The 
transportation element is a significant portion of this cost. As 
previously stated, if this cost must be fully borne by the ISS National 
Lab users, then there will be a very high barrier that many end users 
may choose not to cross. This will have the unfortunate effect of 
precluding a number of excellent ideas and projects from going forward 
under the ISS National Lab. Keep in mind that some of the best and most 
successful ideas originate with entrepreneurial individuals or start-up 
companies, which may have little investment capital on hand.
    The issue of transportation and cost go hand in hand. One solution 
might be for the ISS National Lab management organization, if it were 
to be established, to be given sufficient funding outside of NASA to 
negotiate transportation contracts with the COTS providers on behalf of 
all ISS National Lab users. This would need to be done working with 
NASA to ensure sufficient capacity could be made available on each 
delivery mission to the ISS for ISS National Lab users.
    The greatest risk to the ISS National Lab failing to deliver on its 
research potential, in my opinion, is that the COTS providers may not 
succeed in developing an ISS re-supply capability soon enough or 
perhaps at all. Even though NASA is investing $500M into this program, 
considerably more investment capital is required from each of the COTS 
companies for these new rocket and spacecraft systems to be developed 
and tested and to meet NASA's safety requirements to dock with the ISS. 
Having a successful commercial transportation provider is strategically 
and technically important to the U.S. Without a U.S. provider, we will 
be purchasing extensive services from the Russians (Progress and Soyuz 
vehicles) and there will still be insufficient return mass capability 
to meet anyone's needs. All ISS research, including that of NASA and 
the ISS National Lab, will be crippled. While there is no simple 
solution to this issue, it is one that NASA should carefully consider, 
perhaps with the development of a contingency plan to assist any 
selected Commercial Resupply Services providers, if they encounter 
major technical difficulties.

Summary of Key Points and Recommendations

        <bullet>  The ISS National Lab has tremendous potential to 
        advance the interests of the Nation in commerce, science, 
        medicine, technology and education.

        <bullet>  Not enough is being done to ensure that the ISS 
        National Lab will succeed in what should be the most productive 
        time for the highly capable ISS facility after assembly is 
        complete. Given the finite period of time that it can be safely 
        assumed to be operational, perhaps only 5-10 years, it will be 
        very important to accommodate as many of the best research and 
        development ideas as possible.

        <bullet>  Transportation of research utilization equipment and 
        materials to and from the ISS with a frequency of at least 4-5 
        times per year is critical. With the Shuttle retiring in 2010, 
        the only other viable option will be for one or more COTS 
        providers to be successful at developing new launch vehicles 
        and docking-capable spacecraft. NASA is pursuing this solution 
        with the recently released solicitation for Cargo Resupply 
        Services.

        <bullet>  Recommendations

                a.  NASA should proceed to identify and select an ISS 
                National Lab management organization as soon as 
                possible. (Described in NASA's Plan for the ISS 
                National Laboratory.) Time is of the essence when 
                considering what must be done to set the stage for full 
                ISS National Lab utilization after 2010. Use of a Space 
                Act Agreement to form a public-private partnership 
                could allow this to be done relatively quickly.

                b.  Once it is formed, the ISS National Lab management 
                organization should be given adequate resources to 
                identify, manage and support a rich portfolio of 
                utilization projects. The organization should not cover 
                science costs, as those will be the responsibility of 
                the research sponsor, but should be structured to cover 
                some or all of the additional costs (hardware, 
                integration, operations, transportation, etc.) not 
                normally associated with terrestrial research. This 
                approach could change over time as demand for the ISS 
                increases where more and more of the full costs are 
                covered by the end users.

                c.  NASA should plan to fully accommodate ISS National 
                Lab transportation needs in their effort to secure 
                Cargo Resupply Services. At the least, this should 
                include setting aside 20-25 percent of the up and down 
                volume and mass on any given ISS resupply vehicle, even 
                if that means that the number of total commercial 
                launches per year must be increased.

                    Biography for Louis S. Stodieck
    Louis S. Stodieck, Ph.D. is the Director of BioServe Space 
Technologies and Associate Research Professor in Aerospace Engineering 
Sciences at the University of Colorado, Boulder. Dr. Stodieck earned 
his doctorate in Aerospace Engineering from the University of Colorado, 
Boulder in 1985. His research focus was biomedical engineering. He 
trained for two years as a postdoctoral Medical Research Council Fellow 
in the Department of Physiology at the University of British Columbia. 
He returned to the University of Colorado in 1987 to take a position as 
Associate Director for Technical Affairs for BioServe Space 
Technologies, a newly-formed NASA-sponsored Commercial Space Center. 
The Center's mission was to engage the private sector in conducting 
space life sciences research and development. Dr. Stodieck became 
Director of BioServe in 1999 where he currently leads an organization 
of approximately 25 faculty, staff and students. During his tenure at 
BioServe, Dr. Stodieck has overseen extensive ground-based research and 
over 40 space-based research payloads flown on the Space Shuttle, Mir 
Space Station and International Space Station. As a result of Dr. 
Stodieck's strong leadership BioServe is widely recognized for its 
successful partnerships with large and small biotechnology, 
pharmaceutical, biomedical and agricultural companies and for its 
highly successful, cost effective and innovative commercial space 
flight research program. Based in the College of Engineering and 
Applied Sciences, BioServe is also well regarded for providing high 
quality and unique hands-on educational opportunities for the next 
generation of scientists and engineers involved in space exploration. 
Dr. Stodieck's current research focuses on the development of 
countermeasures to the deleterious effects of space flight on human 
health especially in regard to space flight-induced bone and muscle 
loss. He has authored or co-authored 24 peer reviewed journal 
publications and over 40 conference papers in the fields of biomedical 
engineering and space life sciences research and hardware development.

    Chairman Udall. Thank you, Dr. Stodieck.
    Dr. Nickerson.

 STATEMENT OF DR. CHERYL A. NICKERSON, ASSOCIATE PROFESSOR OF 
 LIFE SCIENCES, SCHOOL OF LIFE SCIENCES, CENTER FOR INFECTIOUS 
  DISEASES AND VACCINOLOGY, THE BIODESIGN INSTITUTE, ARIZONA 
                        STATE UNIVERSITY

    Dr. Nickerson. Mr. Chairman and Members of the Committee, 
thank you for inviting me to appear today before you to 
testify. My name is Cheryl Nickerson. I am an Associate 
Professor in the Center for Infectious Diseases and Vaccinology 
at the Biodesign Institute at Arizona State University. I have 
been the principal investigator on multiple NASA-funded life 
science experiments. I serve as a consultant to the NASA Life 
Sciences Program at the Johnson Space Center, and I was honored 
to have been selected as a NASA astronaut candidate finalist in 
2003.
    In your invitation letter today you posed a series of 
questions to me regarding the utilization prospects by ISS 
research that I would like to now address in sequence.
    First, what had been the nature of my space-based research, 
and what had been my findings to date? My research focuses on 
understanding the molecular mechanisms of infectious disease 
and specifically on the affect of space flight on the molecular 
mechanisms of infectious disease, with an important emphasis on 
the microbial pathogen response.
    Infectious disease is responsible for 35 percent of all 
deaths globally, and it is the world's largest killer of 
children and young adults. The economic impact on the U.S. 
alone from infectious disease exceeds $120 billion annually, 
and of course, future threats loom on the horizon for us 
globally as well, including new and re-emerging infectious 
diseases for which we do not have sufficient treatments, 
antibiotic resistance strains, and always the potential for the 
intentional misuse of microbial pathogens as agents of 
bioterrorism. Clearly then new treatment and prevention 
paradigms are desperately needed.
    My space flight research is focused on the bacterial 
pathogen Salmonella, which is a global threat to public health 
and it counts for approximately 30 percent of all deaths from 
food-borne illness in the United States. From NASA's 
perspective Salmonella is considered a potential source of 
infection during space flight that could incapacitate crew 
members during a mission. However, there are currently no human 
vaccines to prevent Salmonella food-borne illness.
    I applaud NASA's foresight in funding our space flight 
research in the field of infectious diseases, as well as the 
awesome engineers for building this wonderful ISS craft. The 
connection between space flight and infectious diseases was not 
immediately clear 10 years ago when NASA originally funded our 
research. Based on our early findings using ground base space 
flight analogs, NASA awarded us a grant to investigate the 
effect of true space flight on Salmonella disease-causing 
ability, which we call virulence, and gene expression results. 
This experiment flew on STS-115 in September of '06, and the 
results were remarkable. They showed that space flight 
increased the virulence of this important pathogen and globally 
altered its gene expression profiles by changing 167 genes.
    Now, the interesting part about that is it not only 
increased its disease-causing potential and changed all these 
expression of genes, but it did so in unique ways that are not 
observed using traditional experimental approaches in the 
laboratory. So what we have done is we have been able to 
discover new ways that this important human pathogen causes 
disease in the host.
    We also discovered a key master regulatory mechanism that 
controls the vast majority of the Salmonella's responses to the 
space flight environment. This molecular target, along with 
others that we identified in my laboratory, holds real 
potential to be translated into new therapeutics and new 
vaccines to treat and prevent human enteric food-borne illness 
caused by Salmonella.
    Our findings were published in the proceedings of the 
National Academy of Sciences. The success of our flight 
experiment on STS-115 inspired a follow-up experiment on STS-
123, which just flew in March, 2008, and the results from that 
are equally exciting, and we are looking forward to publishing 
those within the next one to two months.
    An important part of our space flight work is helping us to 
understand, therefore, how microbial pathogens cause infectious 
disease here on Earth, and likewise, then using space flight as 
a novel, enabling research platform to translate those 
innovations into infectious disease control here for the 
general public on Earth. Shortly we expect NASA and the public 
to receive a direct benefit from their investment in our work.
    Second, what is my perspective on the future potential for 
the use of microgravity environment as a research tool? It is 
simple. The microgravity of space flight offers a unique 
environment for ground-breaking biotechnology and biomedical 
advances and discoveries to globally advance human health. Not 
just in infectious diseases but in some of the major health 
illnesses here that we worry about globally. Cancer, aging, 
bone and muscle wasting diseases, and tissue engineering. And 
it will have a long-lasting impact on our nation's scientific 
capability, economy, and the quality of our lives.
    Many breakthroughs in life sciences research have come from 
studying living systems in extreme environments. The 
environment of space flight offers insight into fundamental 
cellular and molecular response mechanisms that are directly 
relevant to human health and disease and which cannot be 
observed using traditional experimental approaches in the lab.
    Third, and my final question. What are any potential 
applications of the basic research I have conducted to date or 
intend to pursue? The investment that NASA has made in our 
research for innovations in infectious disease treatment and 
control will provide long-lasting return in the protection of 
humans as they explore space and for the general public here on 
Earth.
    An example of the potential boom from space flight 
experiments is my laboratory's discovery that gene regulatory 
proteins participate in the space flight response of microbial 
pathogens. Gene regulatory proteins affect every property of a 
cell, including its ability to cause disease. My lab is 
currently studying how this regulatory and these regulatory 
pathways work in Salmonella and other important human pathogens 
and how they can be manipulated to control microbial virulence 
and subsequently, how those findings can be translated to the 
design of new drugs and new vaccines with clinical 
applications.
    One key to our nation's economic success has been its 
ability to consistently provide unique answers to the world's 
problems. We have the opportunity here and now to advance in a 
field where the U.S. is a world leader. I firmly believe that 
space exploration and development will be one of the defining 
activities of our nation that will lead the world in this new 
millennium.
    And I thank you.
    [The prepared statement of Dr. Nickerson follows:]
               Prepared Statement of Cheryl A. Nickerson
    Mr. Chairman, Members of the Committee, thank you for inviting me 
to appear before you today to testify. My name is Cheryl Nickerson, and 
I am an Associate Professor in the Center for Infectious Diseases and 
Vaccinology at the Biodesign Institute at Arizona State University. My 
research focuses on understanding the molecular mechanisms and 
processes of infectious disease, with an important emphasis on 
investigating the unique effect of space flight on microbial pathogen 
responses. NASA's support of my research has resulted in multiple space 
flight experiments, which have provided novel insight into how 
microbial pathogens cause infection both during flight and on Earth, 
and hold promise for new drug and vaccine development to combat 
infectious disease.
    Through awards such as the Presidential Early Career Award for 
Scientists and Engineers, and independent research funding from grants 
totaling over three million dollars, NASA has consistently recognized 
my laboratory's contributions to the United States Space Program into 
infectious disease risks for the crew during space flight and the 
general public here on Earth. I also serve as a scientific consultant 
for NASA at the Johnson Space Center in support of their efforts to 
determine and mitigate microbial risks to the crew during flight, and 
was honored to be selected as a NASA Astronaut candidate finalist for 
the Astronaut class of 2004. That being said, the views expressed in 
today's testimony are my own, but I believe they reflect community 
concerns.
    In your invitation letter asking me to testify before you today you 
asked a series of questions regarding the utilization prospects of ISS 
research that I would like to address now in sequence.

1.  What has been the nature of your space-based research, and what 
have been your findings to date?

    I would like to begin by applauding NASA's foresight in funding our 
space flight research in the field of infectious disease. We were 
initially funded by NASA's Office of Biological and Physical Research 
and are currently funded by both the Advanced Capabilities Division and 
the Human Research Program in the Explorations Systems Mission 
Directorate. The connection between space flight and its influence on 
infectious disease was not immediately clear 10 years ago when NASA 
initially funded our research. As a result, NASA's support of my 
research through multiple space flight experiments has allowed us to 
provide novel insight into the molecular mechanisms that microbial 
pathogens use to cause infectious disease both during flight and on 
Earth, and has exciting implications for translation into human health 
benefits, including the development of new drugs and vaccines for 
treatment and prevention.
    While the eradication or control of many microbial diseases has 
dramatically improved the health outlook of our society, infectious 
diseases are still a leading cause of human death and illness 
worldwide. Infectious disease causes 35 percent of deaths worldwide, 
and is the world's biggest killer of children and young adults. Within 
the United States, infectious disease has a tremendous social, 
economic, and security impact. Total cost for infectious disease in the 
U.S. exceeds $120 billion annually due to direct medical and lost 
productivity costs. Moreover, the future is threatened by new and re-
emerging infectious diseases, an alarming increase in antibiotic 
resistance, and the use of microbial agents as a bioterrorist threat. 
Thus, research platforms that offer new insight into how pathogens 
cause infection and disease are desperately needed and will lead to 
novel strategies for treatment and prevention.
    To enhance our understanding of how pathogens cause disease in the 
infected host, my laboratory uses innovative approaches to investigate 
the molecular mechanisms of infectious disease. It was this search for 
novel approaches that drove our initial investigations with NASA 
technology. As flight experiments are a rare opportunity, our early 
experimental efforts concentrated on the use of a unique bioreactor, 
called the Rotating Wall Vessel (RWV), designed at the NASA Johnson 
Space Center in Houston as a ground-based space flight analogue. The 
RWV bioreactor allows scientists to culture cells (microbial or 
mammalian) in the laboratory under conditions that mimic several 
aspects of space flight and can be used to induce many of the 
biological changes that occur during space flight. In addition, by 
using mathematical modeling, we found that this analogue, and true 
space flight, produce an environment that is relevant to conditions 
encountered by the pathogen during infection in the human host--thus 
enhancing the relevance of our findings for the development of new 
strategies to combat infectious disease on Earth.
    We chose the model bacterial pathogen Salmonella typhimurium for 
both our space flight analogue and space flight studies, as it is the 
best characterized pathogen and poses a risk to both the crew during 
flight and the general public on Earth. Salmonella is the most readily 
and fully understood pathogen and belongs to a large group of bacteria 
whose natural habitat is the intestinal tract of humans and animals. 
This group includes most of the bacteria that cause intestinal and 
diarrheal disease, considered to be one of the greatest health problems 
globally. Indeed, Salmonella infection is one of the most common food-
borne infections worldwide. In the United States an estimated 1.41 
million cases occur, resulting in 168,000 visits to physicians, 15,000 
hospitalizations and 580 deaths annually. Salmonella accounts for 
approximately 30 percent of deaths caused by food-borne infections in 
the United States, and is even more detrimental in the developing 
world. The total cost associated with Salmonella infections in the U.S. 
is estimated at three billion dollars annually. Moreover, in 1984, 
Salmonella was used in a bioterrorism attack by a religious cult in 
Oregon to cause a community-wide outbreak of food-borne illness in an 
attempt to influence the outcome of a local election. The organism is 
also an excellent choice for NASA as it is considered a potential 
threat to crew health as a food contaminant. There are currently no 
human vaccines to prevent Salmonella food-borne illness.
    Using the RWV ground-based technology, we conducted preliminary 
studies showing that Salmonella responded to this environment by 
globally altering its gene expression, stress resistance, and disease 
causing (virulence) profiles, thereby improving our chance of success 
and need for a space flight experiment. Subsequent analysis of the 
genes that were expressed after growth in this analogue suggested that 
the environment induced unique molecular mechanisms in the microbe to 
cause disease. Our information from these early experiments provided 
NASA with new insight toward understanding the risk of infection during 
flight. In addition, the unique molecular mechanisms that were 
identified held the potential to be used to develop new therapeutics 
and vaccines for the general public on Earth.
    NASA and the scientific community continued their support of our 
ground-based findings by awarding us a grant to investigate the effect 
of true space flight on Salmonella virulence and gene expression 
responses. This was an exciting opportunity for us, as while the RWV 
bioreactor can simulate some aspects of the space flight environment, 
it cannot duplicate all of the physical parameters that organisms 
encounter during space flight or their biological responses. In 
September 2006, our first space flight experiment flew aboard STS-115, 
and we investigated the comprehensive changes in Salmonella when 
exposed to the truly unique environment of microgravity. The results 
from this experiment were remarkable and showed that during space 
flight, Salmonella altered its virulence and gene expression responses 
in unique ways that are not observed using traditional experimental 
approaches. These findings immediately advanced our knowledge of 
microbial responses to space flight and disease causing mechanisms used 
by this important human pathogen. Our first technical report from this 
space flight experiment was recently published in the Proceedings of 
the National Academy of Sciences, and our results demonstrated changes 
in Salmonella disease causing potential (virulence) during flight as 
compared to identical samples that were grown on the ground. 
Specifically, our findings demonstrated that space flight increased the 
virulence of Salmonella, and the pathogen was able to cause disease at 
lower doses. In addition, we identified 167 genes in Salmonella that 
changed expression in response to space flight. The identity of these 
genes allowed us to discover a key ``master switch'' regulatory 
mechanism that controls Salmonella responses to space flight 
environments. This molecular target, and others that we identified, 
hold potential to be translated into new therapeutic and vaccine 
approaches to treat and prevent human enteric salmonellosis.
    This experiment was a ``first of its kind'' in space flight 
biological study. It was the first study ever to investigate the effect 
of space flight on the disease-causing potential (virulence) of a 
pathogen, and the first ever to obtain the entire gene expression 
response profiles of a bacterium to space flight. In fact, very few 
studies contain data that document gene expression changes during space 
flight. It is also critical to mention that an important part of our 
space flight work is directly related to helping us understand how 
microbial pathogens cause infectious disease here on Earth. This is 
possible because the unique environment of space flight encountered by 
microorganisms (including pathogens) are also relevant to conditions 
that these cells encounter here on Earth during the normal course of 
their life cycles, including certain niches within the infected host, 
such as parts of the human intestine. Thus, an exciting part of this 
work is the opportunity to use space flight and the ISS as a novel 
enabling research platform for innovations in infectious disease 
control here on Earth--including novel insight into how pathogens cause 
disease and for the development of new therapeutics and vaccines for 
treatment and prevention.
    The success of our flight experiment aboard STS-115 inspired a 
follow-up experiment aboard STS-123, which just flew in March 2008. 
While the data is still being analyzed, our preliminary findings are 
leading toward translational applications of our original data for the 
development of novel strategies to treat and prevent infection and 
disease during flight and here on Earth. Shortly, we expect NASA and 
the public to receive a direct benefit from their investment.
    The ISS holds tremendous potential to provide novel insight into 
human health and disease mechanisms that can lead to ground-breaking 
new treatments to combat infectious disease and improve the quality of 
life.

2.  What is your perspective on the future potential for use of the 
microgravity environment as a research tool?

    The microgravity of space flight offers a unique environment for 
ground-breaking biotechnology and biomedical innovations and 
discoveries to globally advance human health in the following areas:

        -  Infectious disease

        -  Immunology

        -  Cancer

        -  Aging

        -  Bone and muscle wasting diseases

        -  Development of biopharmaceuticals

        -  Tissue engineering

    It is not surprising that biological systems respond in novel ways 
to the space flight environment. Many breakthroughs in life sciences 
research have come from studying living systems in unique and extreme 
environments. It is from studying the response of biological systems 
under these environments that we have not only gained new fundamental 
insight into how they function and adapt to extreme conditions, but 
have also translated these findings into beneficial biotechnology and 
biomedical advances to improve our quality of life. Space flight is 
simply the next logical progression and extreme environment to study 
that holds tremendous potential to provide the next ground-breaking 
advances in public health.
    The ISS provides a unique environment where researchers can explore 
fundamental questions about human health--like how the body heals 
itself and develops disease. Specifically, the ISS offers an orbiting 
laboratory to use microgravity as a tool to bring a new technological 
approach to understanding living systems and discover basic mechanisms 
we haven't seen before. That is because organisms and cells respond in 
unique ways to space flight and exhibit characteristics relevant to 
human health and disease that they do not when cultured using 
traditional conditions on Earth. Accordingly, cellular and molecular 
mechanisms that underlie disease can be studied, offering new 
opportunities to see how cells operate in these conditions, and giving 
new fundamental insight into the disease process. Many of these 
findings may translate directly to the clinical setting for novel ways 
to diagnose, treat and prevent disease here on Earth. This type of 
research creates exciting new opportunities for the utilization of ISS 
to advance the frontiers of knowledge and act as a commercial platform 
for breakthrough biomedical and biotechnological discoveries. I believe 
it is important to take advantage of this unique research facility to 
develop new advances in biotech and biomedicine that will globally 
advance human health and benefit the United States in the international 
economy.
    Thus, it is anticipated that ISS life sciences research will lead 
to ground-breaking discoveries and innovations in human health, biotech 
and biomedical innovations, and will have a lasting impact on our 
nation's scientific capability, economy, and quality of our lives.

3.  What are any potential applications of the basic research you have 
conducted to date or intend to pursue?

    The investment that NASA has made in our research for innovations 
in infectious disease treatment and control will provide long lasting 
return in the protection of humans as they explore space and for the 
general public here on Earth. Regarding protection of the crew, the 
negative impacts of infectious disease range from impeded crew 
performance to potentially life threatening scenarios. As humans travel 
further away from our home planet, the risk to crew health and mission 
success becomes even greater. As we gain greater knowledge of the risks 
of microbial infection, prudent preventative operational activities, 
therapeutics, and other countermeasures can be implemented to mitigate 
the risk to the crew and mission success.
    Perhaps the greatest application from this research will not apply 
directly to space flight, but rather to improving the quality of life 
on Earth through the development of novel strategies to combat 
infection and disease. Internationally, we face many challenges to our 
health by microbial threats. Antibiotic resistant strains are on the 
rise, regional diseases are expanding to new locations, the threat of 
bioterrorism looms, and a multitude of diseases have insufficient 
treatments. New treatment paradigms and testing methods are desperately 
needed. The knowledge from space flight experiments is providing novel 
insight into how microbes cause disease in the human body and is 
providing new targets for therapeutic and vaccine development. The goal 
is to identify target mechanisms in space and then investigate these 
mechanisms on Earth. By understanding more fully how these organisms 
function and react to novel stimuli, we can develop new methods to 
treat and prevent the spread of infectious agents.
    In addition, the knowledge gained from space flight research can 
advance and accelerate therapeutic development and implementation of 
new strategies for translation of this research into health benefits 
for the developing world. The costs of therapeutics and vaccine 
development can be prohibitively high. Bringing a new drug to market 
can cost in excess of one billion dollars over a decade before it 
reaches the patient. If the knowledge gained from space flight studies 
provides even an incremental decrease in these costs and timelines 
(which studies strongly suggest is the case), then this research is of 
tremendous importance.
    An example of a potential boon from space flight experiments is our 
laboratory's discovery that gene regulatory proteins participate in the 
space flight mechanistic response of microbial pathogens. Gene 
regulatory proteins affect every property of a cell including its 
ability to cause disease. Our laboratory is currently focusing on how 
this regulatory pathway works in Salmonella and how it can be 
manipulated to control that organism's virulence in flight and here on 
Earth. Once understood, we will use that knowledge to see which other 
microorganisms can be controlled in a similar fashion. A detailed 
understanding of how these gene regulatory proteins are controlled may 
offer new opportunities to design efficacious drugs and vaccines that 
would target this class of protein.
    It is also relevant to note that there are exciting efforts 
underway to develop a nationwide Biotechnology Space Research Alliance 
(BSRA) Consortium that partners a world-class team of industry, 
university, and economic development organizations across the country 
to partner with NASA to utilize the ISS for breakthrough biomedical and 
biotechnology discoveries. It is anticipated that the discoveries made 
on ISS will engender scientific knowledge, technological capability, 
and commerce on Earth as a gateway to 21st Century exploration and 
development of space.
    One key to our nation's economic success has been its ability to 
provide unique answers to the world's problems. We have the opportunity 
to advance in a field where the United States is a world leader. I 
believe space exploration and development will be one of the defining 
activities for our nation that will lead the world in this new 
millennium.

                   Biography for Cheryl A. Nickerson
    Dr. Nickerson is an Associate Professor at The Biodesign Institute 
in the Center for Infectious Diseases and Vaccinology at Arizona State 
University. She obtained a B.S. in Biology at Tulane University/Newcomb 
College (1983), a M.S. degree in Genetics from the University of 
Missouri (1988), and a Ph.D. in Microbiology from Louisiana State 
University (1994). Her postdoctoral internship in microbial 
pathogenesis and infectious disease research was done at Washington 
University in St. Louis, MO, in the laboratory of Dr. Roy Curtiss III. 
In 1998, Dr. Nickerson joined the Tulane University School of Medicine 
as an Assistant Professor in the Department of Microbiology and 
Immunology, where in 2003 she received tenure and appointment to 
Associate Professor. While at Tulane, she also served as the Director 
for the Tulane Center of Excellence in Bioengineering, and as Co-
Director of the Tulane Environmental Astrobiology Center. In January 
2006, Dr. Nickerson joined the Biodesign Institute at Arizona State 
University as an Associate Professor in the Center for Infectious 
Diseases and Vaccinology.
    Dr. Nickerson's research interests are focused on understanding how 
microbial pathogens cause infection and disease in humans, both on 
Earth and in space flight. By combining cell biology and microbiology 
with engineering and mathematics, she has been at the forefront of 
space biosciences and the emerging field called cellular biomechanics, 
making several fundamental discoveries in these fields. Her research 
has contributed important new insight into how mechanical forces like 
microgravity and fluid shear affect the function and behavior of living 
cells, and ultimately, play an important role in infectious disease. 
The results of Dr. Nickerson's NASA-funded work have been published in 
high-quality, peer-reviewed journals, including Proceedings of the 
National Academy of Sciences, Infection and Immunity, and Applied and 
Environmental Microbiology. She is recognized internationally for her 
work and has won several prestigious awards including the Presidential 
Early Career Award for Scientists and Engineers from NASA--presented by 
President George W. Bush at the White House (2001); the Charles C. 
Randall Award for Outstanding Young Faculty Member from the American 
Society for Microbiology (2000); Woman of the Year, New Orleans, LA, 
presented by New Orleans City Business (2002); Outstanding Newcomb 
College Alumnae (2004), and selection by NASA as an Astronaut Candidate 
Finalist (2003). She also serves as a Scientific Consultant for the 
NASA Life Sciences Division at the Johnson Space Center in Houston, TX. 
Experimental payloads from Dr. Nickerson's laboratory have flown on-
board NASA Space Shuttle missions STS-112, STS-115, STS-123, and the 
International Space Station.
    A landmark experiment from Dr. Nickerson's lab recently flew on 
Shuttle mission STS-115, and was the first study to examine the effect 
of space flight on the virulence (disease-causing potential) of a 
microbial pathogen, and the first to obtain the entire gene expression 
response of a bacterium to space flight. The results from this 
experiment were remarkable and showed that during space flight, the 
bacterial pathogen Salmonella increased its virulence and altered its 
gene expression responses in unique ways that are not observed using 
traditional experimental approaches. The results from this work have 
provided novel insight into the molecular mechanisms that microbial 
pathogens use to cause infectious disease both during flight and on 
Earth, and has exciting implications for translation into human health 
benefits, including the development of new drugs and vaccines for 
treatment and prevention.

    Chairman Udall. Thank you, Dr. Nickerson.
    Mr. Pickens.

STATEMENT OF MR. THOMAS BOONE PICKENS, III, CHAIRMAN AND CHIEF 
               EXECUTIVE OFFICER, SPACEHAB, INC.

    Mr. Pickens. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to make my first appearance 
before you today as the Chairman and CEO of SPACEHAB to discuss 
the significance of NASA's International Space Station Program, 
not just as it applies to commercial aerospace company, but 
also for its tremendous potential to benefit mankind. I 
represent the commercial perspective of microgravity and its 
value.
    First question was how does your company arrive at the 
decision to pursue vaccine development under microgravity 
conditions and other opportunities? SPACEHAB has long known the 
value of the microgravity as our commercial modules and 
carriers have been the primary payload on 23 Space Shuttle 
missions in both the Space Station here and International Space 
Station. We have flown over 1,500 experiments to space, and 
much knowledge was discovered.
    However, after reviewing these experiments I found that we 
have only begun the discovery processes. While experiments were 
sent to space, the ISS was under construction, and the 
environment was not ideal for these sometimes very sensitive 
samples.
    But today the International Space Station is nearly 
complete, and the ISS has been designated a national laboratory 
available for commercial endeavors, setting the stage for a new 
age in microgravity experimentation that shows strong 
indications of great value both in commercial investment 
returns and in saving and enhancing our lives here on Earth.
    To take advantage of these unparalleled space-based 
resources, SPACEHAB has initiated a new division. SPACEHAB's 
Microgravity Processing division is uniquely qualified to 
identify commercial microgravity processing opportunities 
through our history of supporting microgravity research 
activities and our wide range of partnerships with agencies and 
industry leaders.
    This division focuses on commercial R&D initiatives that 
are aligned with the national lab capabilities, transportation 
opportunities, and market demand.
    To assist SPACEHAB in identifying these high-value 
opportunities for commercialization, we formed a team of our 
nation's leading microgravity researchers. SPACEHAB Science 
Advisory Council is comprised of experts in microgravity life 
sciences, biotechnology, and material sciences, and most of 
these distinguished individuals have extensive experience with 
microgravity.
    The first step in this process is to gain access to the ISS 
through a Space Act Agreement, and the next step is to 
establish the appropriate public and private partnerships 
required to execute an ISS National Lab project.
    As an example, SPACEHAB has established a public 
partnership with the Department of Veterans Affairs, which will 
allow joint efforts in various biotechnology research and 
product development in the national lab, leading to commercial 
healthcare solutions.
    Second question. Are there other applications of the 
microgravity environment that you intend to pursue? And I will 
go through those. The space environment has been, has shown to 
induce key changes in microbial cells to, and are directly 
relevant to infectious disease. The targets identified from 
each of these microgravity-induced alterations represents an 
opportunity to develop new and improved therapeutics, including 
vaccines, as well as biological and pharmaceutical agents aimed 
specifically at eradicating the pathogen. Furthermore, these 
different targeted approaches each represent potential product 
lines of development within the microgravity environment.
    SPACEHAB has determined that one of the most valuable 
short-term microgravity opportunities is in the development of 
advanced vaccines that have the potential to be worth billions 
of dollars while saving thousands and perhaps millions of 
lives.
    No single medical advance has had a greater historical 
impact on human health than vaccines. Today vaccines continue 
to be developed, providing hope to eradicate many diseases that 
continue to kill millions every year as pandemic influenza, 
AIDS, cancer, and instruments of bioterror.
    An experiment that flew in the ISS in 2006, concluded that 
bacteria grown in microgravity are much stronger than those 
grown on Earth. This is a very important discovery as it 
signaled to scientists that microgravity properly controlled 
could be used to design vaccines much quicker and with much 
greater precision than before possible.
    As a result of these and other conclusions, SPACEHAB has 
taken these composite findings to the next level in sponsoring 
a microgravity vaccine development model that was sent to space 
on the Space Shuttle during mission STS-123. The vaccine model 
is scheduled to return on the STS-124 mission in May to confirm 
the initial results. Once complete, this new space-based model 
has the potential to significantly increase our ability to 
develop vaccines for various types of infectious diseases.
    Protein crystal growths, we call those PCGs, the cells of 
the human body are the mini factories that enable life. What 
divide all those factories to perform their specific functions 
are the proteins that are synthesized within these cells. The 
body utilizes approximately 400,000 of these proteins, and when 
certain protein/cell functions become abnormal, a wide variety 
of diseases and conditions may present themselves. Drugs can be 
developed to alter the effects of these problem proteins, but 
drug development is very difficult to accomplish on Earth and 
for some of those more serious diseases, microgravity is 
thought to hold the only solution for saving millions of lives 
on Earth.
    Diabetes, Parkinson's, Alzheimer's, Cystic Fibrosis are 
only just a few of the diseases the microgravity is thought to 
hold the potential to provide significant advancements in 
developing a drug treatment.
    A technique has been developed on Earth to discover drug 
therapies that involves growing a very pure crystal that is 
used to obtain an image of the atomic structure of a protein. 
Once the crystal is obtained, a very high powered X-ray or X-
ray crystallography, reads the structure of the protein and 
from this, a drug can be developed. It was discovered that when 
crystals were grown in microgravity, the results are often 
times a larger and better quality crystal that can be more 
easily and accurately characterized, making it more possible to 
develop a drug treatment that can treat these diseases.
    The PCGs have flown more than any other experiment with an 
estimated investment of over $400 million by NASA. SPACEHAB has 
identified 1,250 Membrane Proteins and 425 Aqueous Proteins 
that are ready for microgravity crystallization. The company 
expect to send the first samples to the ISS for processing in 
the third quarter of 2008. Upon return from space, these 
crystals will be X-rayed and the data sold to drug development 
companies. Alternatively, the company may choose to add more 
value to the discovery by pursuing its own drug development 
program.
    Since the inception of the ISS, hundreds of experiments 
have been conducted giving rise to additional opportunities to 
provide Earth-based benefit. As NASA's mission priorities focus 
on exploration beyond low-Earth orbit, the designation of the 
ISS as a national lab enables non-government entities to 
partner with NASA to further the benefit of space-based 
research and development. SPACEHAB intends to conduct its 
national lab activities to move technology forward, provide 
economic growth, stimulate the minds of our future engineers 
and scientists, and to ultimately improve the quality of life 
here on Earth.
    The third question that I had was are the current, what are 
the current perspectives in the financial community with 
respect to underwriting R&D efforts that require the 
microgravity environment of space? We are currently funding our 
micro-G efforts with internal cash and financial assistance 
from the State of Florida and its Space Florida Authority. The 
fact that the ISS was designated as a national laboratory last 
year went a long, long way to produce a--to putting an 
environment together to attract capital.
    Ultimately, the investment community needs to see 
commercial product come back from micro-G in products sold, in 
profits made. We feel confident that we can attract capital 
from corporate and institutional investors as needed to provide 
an acceptable return.
    In closing, I would like to add the International Space 
Station is unarguably the greatest achievement man has ever 
accomplished. The ISS is the pyramids of our generations in the 
aqueducts of our nation. The taxpayers of this country have 
spent over $100 billion in its design and construction, and it 
is a magnificent achievement that has included 19 countries in 
this effort.
    I want to take this moment to recognize the engineers, the 
technicians, and politicians that have accomplished this great 
feat, and I want to close by reminding you that this is the 
time to take advantage of what we have built.
    Mr. Chairman and Members of the Subcommittee, I want to 
extend my sincere appreciation for having me here today.
    [The prepared statement of Mr. Pickens follows:]
            Prepared Statement of Thomas Boone Pickens, III
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to make my first appearance before you today as the 
Chairman and CEO of SPACEHAB, Inc. to discuss the significance of 
NASA's International Space Station Program--not just as it applies to a 
commercial aerospace company--but also for its tremendous potential to 
benefit mankind.
    SPACEHAB, Inc. (NASDAQ: SPAB), was incorporated in 1984 and made 
its initial public offering in 1995. The Company flew its first module 
on a Space Shuttle mission in 1993. To date, SPACEHAB modules and 
carriers, which fly in NASA's Space Shuttle cargo bay, have been the 
primary payload on 23 Space Shuttle missions, including research 
missions on-board the fleet of orbiters, resupply missions to both the 
Russian space station Mir, and the International Space Station (ISS). 
The modules doubled the amount of working and living space available to 
the astronaut crews. Over the course of our pressurized module program, 
SPACEHAB has been involved in the analytical and physical integration 
and operation of hundreds of microgravity research and science 
payloads.
    SPACEHAB has long known the value of microgravity; however there 
has never been the environment to commercially exploit these 
opportunities as the priorities of the international space partners 
have been the construction of the ISS while performing rudimentary 
experiments in microgravity. Additionally, until this year, the ISS has 
simply not been in the state of completion that would have been able to 
sustain repeated processing of microgravity products. And, until the 
NASA Authorization Act of 2005, NASA has never considered commercial 
ventures to profit from ISS produced products. Now that the 
International Space Station is nearly complete, and the ISS has been 
designated as a National Laboratory available for commercial endeavors, 
the next obvious direction for SPACEHAB is to utilize its experience in 
microgravity and commercial practices in forming a partnership with 
NASA to demonstrate the efficacy of the commercial space industry. This 
goal is achieved by the enhancement of life on Earth through the 
advancement of a wide range of microgravity technologies from a 
``demonstrated'' state to a production state.
    To take advantage of these unparalleled space based resources 
SPACEHAB has initiated a new division. SPACEHAB's Microgravity 
Processing division is uniquely qualified to identify commercial 
microgravity processing opportunities through our history of supporting 
microgravity research activities and our wide range of partnerships 
with agency and industry leaders. Additionally, SPACEHAB's Microgravity 
Processing division is ideally positioned to implement these commercial 
microgravity opportunities through the company's core capability of 
planning, integrating, operating payloads and its proven experience in 
commercial business practices. This division focuses on commercial R&D 
activities that are aligned with the National Lab capabilities, 
transportation opportunities and market demand.
    SPACEHAB's Microgravity Processing division serves to advance both 
the business and technical state-of-the-art. With the designation of 
the ISS as a National Lab, SPACEHAB is establishing a broad portfolio 
of commercialization initiatives that will advance the state of the 
commercial space business sector to a level only previously theorized 
by commercial space advocates. By migrating microgravity processing 
initiatives from demonstration and validation to commercial production 
initiatives, substantial progress is made in sample throughput by 
adding to existing microgravity processing hardware the advanced 
automation systems necessary for higher volumes.
    To assist SPACEHAB in identifying those high-value opportunities 
for commercialization, a team of our nation's leading microgravity 
researchers has been formed. This Science Advisory Council, chaired by 
SPACEHAB's MGP Program Manager, is comprised of experts in microgravity 
life sciences, biotechnology and material sciences. The majority of the 
council members are affiliated with educational institutions and will 
also provide significant guidance and contribution to SPACEHAB-
developed educational programs used to motivate the next generation of 
science and engineering professionals. Members of this council include:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Once a commercial opportunity has been identified, SPACEHAB will 
develop a unique business plan to ensure the viability of the proposed 
opportunity. Each business will utilize a systematic process to assure 
all technical and financial aspects of each opportunity are aligned 
with the goals and objectives of the National Lab and have a high 
probability of success.
    The first step in this process is to establish the appropriate 
public and private partnerships required to execute an ISS National Lab 
project. As an example, SPACEHAB has established a public partnership 
with the Department of Veterans Affairs which will allow joint efforts 
in various biotechnology research and product development on the 
National Lab leading to commercial health care solutions. Additionally, 
SPACEHAB is establishing partnerships with private commercial companies 
to better ensure its success for the development of commercial products 
utilizing the National Lab. SPACEHAB has established a commercial 
partnership with Dynamac, the operator of the Space Life Sciences 
Laboratory (SLSL) at the Kennedy Space Center (KSC). For 37 years, 
Dynamac has been providing advanced science research and technology 
services related to physical, chemical, and life science research 
initiatives. Beginning in 1995, as the prime Life Sciences Services 
Contractor (LSSC) for NASA-KSC, Dynamac scientists have helped process 
more than 180 Shuttle and ISS flight experiments. In addition to 
supporting Principle Investigators (PIs) world wide, Dynamac scientists 
have designed, constructed, and processed over 10 flight experiments as 
the primary PIs. This partnership arrangement utilizes their commercial 
``work-for-others'' allocation in their SLSL contract allowing them to 
support industry initiatives in microgravity research. Utilization of 
their skills and this state of the art facility accommodates payload 
preparation, in-flight data collection, payload control, and supports 
post flight sample recovery and evaluation. The data network system 
installed in the SLSL, and managed by Dynamac, allows payload 
monitoring and control capability to both on-site and at off-site 
SPACEHAB facilities.
    SPACEHAB has developed a broad portfolio of opportunities in the 
biotech and material science markets. We are working diligently to 
match these opportunities with flight opportunities and funding 
profiles. The overall objective is to have a dynamic matrix that can 
quickly match opportunities with flight availability, market demand and 
available resources. Some near-term targets include:

Infectious Disease

    The space environment has been shown to induce key changes in 
microbial cells that are directly relevant to infectious disease, 
including alterations of microbial growth rates, antibiotic resistance, 
microbial pathogenicity (that is, the ability of the organism to invade 
human tissue and cause disease), organism virulence, and genetic 
changes within the organism. The targets identified from each of these 
microgravity-induced alterations represent an opportunity to develop 
new and improved therapeutics, including vaccines, as well as 
biological and pharmaceutical agents aimed specifically at eradicating 
the pathogen. Furthermore, these different targeted approaches each 
represent potential product lines of development within the 
microgravity environment.
    Understanding virulence factors is key to developing a vaccine. 
Virulence refers to the degree of pathogenicity of a microbe, or in 
other words, the relative ability of a microbe to cause disease. 
Virulence factors must be identified, and either purified for use as a 
vaccine, or the virulence factor can be deleted from the bacterium, 
yielding an attenuated strain to use as a vaccine. Hence, vaccines may 
consist of dead or inactivated organisms, or purified products derived 
from them. As the development of antibiotic resistance continues to 
erode one of the greatest advances in modern health care, it is crucial 
to identify bacterial targets that can form the basis of novel anti-
infective therapies, including vaccines.
    SPACEHAB has determined that one of the most valuable short-term 
microgravity opportunities is the development of advanced vaccines that 
have the potential to be worth billions of dollars and also represents 
one of the quickest paths to success.
    No single medical advance has had a greater impact on human health 
than vaccines. Before vaccines, Americans could expect that every year 
measles would infect four million children and kill 3,000; diphtheria 
would kill 15,000 people, mostly teenagers; rubella (German measles) 
would cause 20,000 babies to be born blind, deaf, or mentally retarded; 
pertussis would kill 8,000 children, most of whom were less than one 
year old; and polio would paralyze 15,000 children and kill 1,000. 
Smallpox, a disease estimated to have killed 500 million people, was 
eradicated by vaccines. Today, vaccines continue to be developed 
providing hope to eradicate many diseases that continue to kill 
millions every year such as pandemic influenza, staphylococcus, AIDS, 
instruments of bioterror, and various types of cancers.
    The frustration encountered by the biotech vaccine industry lays in 
the cost of the discovering the exact strain of bacteria needed to 
invigorate the immune system while causing no harm to the animal--
including humans. On Earth this is a very arduous process typically 
taking many years with a low probability of success. However, an 
experiment that flew to the ISS in 2006 concluded that bacteria grown 
in microgravity are much stronger than those grown on Earth. This was a 
very important discovery as it signaled to scientists that 
microgravity, properly controlled, could be used to design vaccines 
much quicker and with much greater precision than ever before possible. 
Many other vaccine experiments have since been sent with similar 
findings. As a result, SPACEHAB is taking these composite findings to 
the next level and sponsoring a microgravity vaccine development model 
that was sent to space on the Space Shuttle during mission STS-123. The 
vaccine model is scheduled to return on the STS-124 mission in May to 
confirm the initial results. The selected vaccine that SPACEHAB has 
chosen is to combat the complex Salmonella bacteria that makes millions 
sick every year, kills thousands, and costs many millions of dollars in 
financial damages. SPACEHAB has teamed with the Department of Veterans 
Affairs in collaboration with investigators from the National Space 
Biomedical Research Institute at Baylor College of Medicine, Duke 
University Medical Center, University of Colorado at Boulder, and the 
Max Planck Institute for Infection Biology. Results of this infectious 
disease model will be made public in the coming months. Once complete 
this new space based model has the potential to significantly increase 
our ability to develop vaccines for various types of infectious 
disease.

Proteins

    The cells of the human body are the mini ``factories'' that enable 
life. What drive all of those factories to perform their specific 
functions are the proteins that are synthesized within those cells. The 
body utilizes approximately 400,000 of these proteins and when certain 
protein/cell functions become abnormal, a wide variety of diseases and 
conditions may present themselves. Drugs can be developed to alter the 
effects of these problem proteins, but drug development is very 
difficult to accomplish on Earth and for some of the more serious 
diseases, microgravity is thought to hold the only solution for saving 
millions of lives on Earth. The following is a list of those diseases 
that microgravity is thought to hold the potential to provide 
significant advancements in developing a drug treatment:

        <bullet>  Diabetes

        <bullet>  Parkinson's

        <bullet>  Alzheimer's

        <bullet>  Lou Gehrig's disease

        <bullet>  Pancreas Cancer

        <bullet>  Cystic Fibrosis

        <bullet>  Hemophilia

Protein Crystal Growth (PCG)

    A technique has been developed on Earth to discover drug therapies 
that involves growing a very pure crystal that is used to obtain an 
image of the atomic structure of a protein. Once the crystal is 
obtained, a very high powered x-ray (x-ray crystallography) reads the 
structure of the protein and from this, a drug can be developed. This 
crystallography technique is routinely performed on Earth however it 
has been found that gravity has a limiting effect on the growth and 
quality of the crystals. It was discovered that when crystals are grown 
in microgravity, the result is often times a larger and better quality 
crystal that can be more easily and accurately characterized making it 
more possible to develop a drug treatment that can treat these 
diseases.
    The PCG's have flown more than any other experiment with an 
estimated investment of over $400 million to date. SPACEHAB has 
identified 1,250 Membrane Proteins and 425 Aqueous Proteins that are 
ready for microgravity crystallization. The Company expects to send the 
first samples to the ISS for processing in the third quarter of 2008. 
Upon return from space, these crystals will be x-rayed and the data 
sold to drug development companies. Alternatively, the Company may 
choose to add more value to the discovery by pursuing its own drug 
development program.
    Of the human body's approximately 400,000 proteins, nearly 30% are 
considered membrane proteins and are, in fact, the types of proteins 
involved in some of the higher mortality diseases thereby commanding 
significant governmental and corporate research funding. While 30 
percent represents well over 100,000 proteins, unfortunately only about 
100 membrane protein structures have been identified due to the extreme 
difficulty of growing membrane protein crystals of sufficient quality 
for crystallography. To show the importance of membrane proteins and 
despite low number identified, nearly 50 percent of the commercially 
available drugs target membrane proteins. Given the improvements in 
crystallography and drug design over the past 10 years, Vergara, notes 
that the ``production of well diffracting crystals of biological 
macromolecules remains a major impediment.''
    Previous space flight activities indicated that growing protein 
crystals in the microgravity environment experienced in spacecraft 
offers significantly increased quality of protein crystals. These 
better diffracting crystals create the opportunity to increase the 
number of protein structures identified that can be used for new drug 
development efforts.
    As SPACEHAB's microgravity processing initiative gains momentum, 
our business model is to reinvest in our own future. SPACEHAB will 
continuously evaluate past microgravity research and emerging discovery 
opportunities to drive our next generation microgravity processing 
programs. This exploratory activity will be self-funded and will set as 
a goal the continued demonstration to the American public the value of 
the International Space Station.
    From improved firefighting equipment derived from NASA's advances 
in extra-vehicular mobility units (EMUs) to satellite tracking of 
forest fires by NASA's Earth Observing System, the value of NASA's 
research and development activities has been manifested countless times 
here on Earth. Since the inception of the ISS, hundreds of experiments 
have been conducted giving rise to additional opportunities to provide 
Earth based benefit. As NASA's mission priorities focus on exploration 
beyond Low-Earth Orbit (LEO), the designation of the ISS as a National 
Lab enables non-government entities to partner with NASA to further the 
benefit of space based research and development. SPACEHAB intends to 
conduct National Lab activities on a broad portfolio of technologies in 
the life sciences, biotechnology and material sciences arenas to move 
technology forward, provide economic growth, stimulate the minds of our 
future engineers and scientists, and to ultimately improve the quality 
to life here on Earth. The SPACEHAB microgravity processing effort 
directly benefits the public in multiple ways.
    Through the establishment of our microgravity processing division 
and initial on-orbit processing opportunities, SPACEHAB will raise 
significant capital and re-invest this capital in established biotech 
companies, universities, research centers, as well as our own MGP 
division resulting in direct growth to local economies at our sites in 
Texas and Florida. Furthermore, as we incrementally increase the scale 
of our microgravity processing capabilities, we create job 
opportunities within the aerospace industry in support of the on-orbit 
facilities (i.e., rack facilities, etc.) development and operations, 
the necessary ground infrastructure to support microgravity processing 
preparation and flight operations, and non-traditional jobs in support 
of product post processing and distribution. We are actively planning 
the creation of new companies that are established as a result of the 
products developed from our space based processing; these new companies 
contribute positively to economic growth through additional job 
creation and capital investment.
    An integral component of the planned activities for utilization of 
ISS as a National Laboratory is the development of education and 
outreach initiatives for the advancement of 6-12 science, technology, 
engineering and mathematics (STEM). An education task force convened by 
NASA has defined a role for private sector participation in this 
important goal, and has extended this objective to also include 
activities ranging to university, graduate and post-doctoral studies. 
R&D activities in microgravity provide much opportunity in support of 
educational initiatives. SPACEHAB has a rich history in this area, 
specifically in the successful Space Technology and Research Students 
(STARS) program, which provided hands-on, interactive scientific 
learning for students from grammar through high school aboard the Space 
Shuttle missions, including STS-107. Students from six countries 
participated in the STS-107 mission and were directly involved in the 
experimental concept, design, management, set-up and data assessment of 
research conducted in microgravity. More than 40 countries expressed 
interest in participating during the development of the STARS program. 
This activity partnered with BioServe Space Technologies, and utilized 
the Isothermal Containment Module (ICM) for the experimental studies. 
BioServe has continued educational payload design--the Commercial 
Generic Bioprocessing Apparatus Insert-02 (CGB-02) was successfully 
deployed on STS-116 and provided data and imagery, via cameras 
installed within the hardware, which were down-linked directly into 
classrooms across the world via the World Wide Web. The CSI-02 is an 
educational payload designed specifically to heighten the enthusiasm of 
students in STEM and to provide opportunities for these students to 
participate in near-real time research on ISS. Moreover, these 
activities also raise national and international awareness of cutting 
edge science and technology, and opportunities for product development 
in microgravity. Partnerships to utilize ISS for educational endeavors 
can be modeled after the STARS program for 6-12, with additional 
outreach to the broader educator community to include teachers and 
scientists in both academia and industry, and can be further extended 
to educational program administrators for design of next-generation 
programs in STEM disciplines. The development of training, internship 
and shadowing programs designed to raise awareness of the commercial 
sector as it pertains to microgravity R&D would also be an important 
outcome of these educational initiatives.
    In conjunction with the establishment of our MGP business unit, 
SPACEHAB has undertaken the development of our microgravity processing 
technology roadmap. With 23 successful SPACEHAB missions containing 
numerous microgravity payloads, our engineers are experienced in end-
to-end microgravity payload processing including analytical 
integration, comprehensive payload functional and interface testing, 
physical integration, and payload flight operations. Leveraging this 
unique experience in the development of our technology roadmap, our 
efforts are focused on innovative concepts that move the state-of-the-
art in microgravity from small scale locker processing to large scale 
rack processing on-orbit, on automation techniques that reduce the 
required on-orbit crew time requirements, and to develop new techniques 
for on-orbit data processing where results can be down-linked thereby 
reducing the down-mass requirements.
    Mr. Chairman and Members of the Subcommittee, I want to extend my 
sincere appreciation for allowing me this forum to discuss a topic as 
critical to our future as the International Space Station Program--as 
well as your continued support which is vital for its success going 
forward. I would be pleased to respond to any questions you may have.

                Biography for Thomas Boone Pickens, III
    Mr. Tom B. Pickens, III is presently the Chief Executive Officer of 
SPACEHAB, Incorporated, a Texas-based aerospace company, which has been 
pioneering in providing commercial space services for nearly 25 years. 
Mr. Pickens is also the Managing Partner of Texas Nanotech Ventures, 
Inc., a leader in the global nanotechnology industry; and, the Managing 
Partner and Founder of Tactic Advisors, Inc., a company specializing in 
corporate turnarounds that have aggregated to more than $20 billion in 
value. Concurrently, Mr. Pickens is President of T.B. Pickens & Co., 
which has acted as both advisor and principal of corporate acquisitions 
now totaling more than $10 billion.
    Mr. Pickens' financial and corporate streamlining experience began 
in the Wall Street arena where he worked extensively in hedge fund 
management and due diligence implementation. His unprecedented 
experience with all facets of corporate turnaround and restructuring 
including startup, growth, and value creation has gained him the 
esteemed reputation of being one of the leading authorities in 
corporate transactional matters. Mr. Pickens has been a member of 
SPACEHAB's Board of Directors since 2003 and became the President and 
Chief Executive Officer in January 2007.
    Other notable contributions include acting as Founder and President 
of Beta Computer Systems; Managing Partner, Grace Pickens Acquisition 
Partners, LT; Managing Partner, Sumter Partners L.P.; Chairman and CEO 
of Catalyst Energy Corporation (NYSE); Chairman, United Thermal 
Corporation (NYSE); President, Golden Bear Corporation; President, 
Slate Creek Corporation; President, Eury Dam Corporation; Chairman, 
Century Power Corporation; President, Vidalia Hydroelectric 
Corporation; Managing Partner, Pickens Capital Income Fund, L.P.; 
Chairman, The Code Corporation; and President, U.S. Utilities, Inc. Mr. 
Pickens has also served in the capacity representing the Office of the 
Chairman, Mirant Equity Committee (NYSE) and Director, Optifab, Inc. 
(NASDAQ). He is currently Director, Trenwick America Corporation, and 
Director of Advocate MD.
    Mr. Pickens graduated from Southern Methodist University with a 
Bachelor of Arts in Economics.

                               Discussion

    Chairman Udall. Thank you, Mr. Pickens.
    At this point let us jump right into our first round of 
questions. The Chair recognizes himself for five minutes.
    I would like to direct a question to every member of the 
panel, and I would give each one of you about a minute or so to 
respond.

                    ISS Productivity and Utilization

    In your opinion what needs to be done to ensure that the 
ISS will be a productive research facility, and Dr. Stodieck, I 
might also ask you if you would speak to when you mentioned 
modest funding, what that might entail. But we will start with 
Dr. Knipling.
    Dr. Knipling. Well, my sense it is already very successful 
as one witness, Mr. Pickens, indicated. It is a tremendous 
success. Certainly, yes, we garner the results of some of these 
initial experiments. I think that is really going to provide 
testimony for the opportunity, and that in turn will drive our 
future strategies for expanding and enhancing that work. That 
is my sense of how this work will unfold.
    Dr. Stodieck. Thank you. Modest funding. You know, it 
depends, of course, on ultimately what it is going to cost for 
transportation, and that is a fairly uncertain term at this 
point, but just doing some estimates based on what I suspect 
this will get, I would say if you funded an organization 
somewhere between $50 million and $150 million, maybe ramping 
up to that point, that you would have a substantial ability to 
attract and raise the productivity of the space station, 
something on that order.
    Chairman Udall. Thank you. Dr. Nickerson.
    Dr. Nickerson. From a scientific perspective, in order to 
truly tap into the fundamental and the enormous potential of 
the ISS as I mentioned in my previous testimony to lead to 
global advances in human health, two things from my 
perspective.
    Consistent funding and access. The consistency in that 
funding word is very important, because science doesn't stop 
after one experiment. Good science leads to more questions than 
it answers, and so once you find something truly remarkable in 
flight and that potential for novel discovery, just as we found 
in STS-115, we were fortunate enough to have the follow-up 
flight on STS-123. But that consistency has to continue.
    So consistency for funding and access.
    Chairman Udall. Mr. Pickens.
    Mr. Pickens. I think that it is a little more complex from 
my standpoint, because I am from the commercial side. I have 
seen where they have put experiments in space. They have done 
kind of fits and starts of it in terms of funding, timing, but 
they are in the middle of a construction program, and I kind 
of, you know, put the analogy is that you are trying to do 
open-heart surgery on the back of a bulldozer in the middle of 
a construction site at a skyscraper.
    You know, they were building a space station in space, and 
they were putting and wedging the science in whenever they had 
the opportunity, and that is very, very hard to do science that 
way. When you talk to the scientists, they need to have 
consistency where they are bringing back samples, they are 
fixing them, they are going back again, over and over and over.
    Now is the time, because we have completed the station or 
we are near completion of the station. Now is the time that we 
should get in there and do that. We should do it exactly like 
Louis says. We should fund something. We should remain, if 
there is somebody who is independent to make sure that these 
initiatives are held forth, there is $100 billion asset up 
there. The taxpayers expect a return, and they are entitled to 
a return. And they need to be given that opportunity and that 
science needs to be taken care of.
    From a commercial standpoint I will take the low-hanging 
fruit of those efforts, and I will take, and whenever they are 
discovered to a point where they are commercial, and I will 
move them on through to the marketplace.
    Chairman Udall. I could follow on, what are your next steps 
in preparing for the utilization of station?
    Mr. Pickens. We are already moving, I mean, STS-123, 124, 
we are headed out for the, you know, duration of the Space 
Shuttle missions. We are concerned after that, because we don't 
have as easy access to space. It is nearing the completion of 
the manifest of the Shuttle. It is very, very tight to wedge 
our way in there. We are doing that successfully thus far, but 
we are very concerned about it, and we need that desperately 
because by the time we finish, we need to not have some gap in 
there, not to overemphasize the gap, but we don't want a gap 
sitting there on the science either. We still have to make a 
return as soon as possible to the American people and by 
getting on these Space Shuttle flights and sending up what we 
are sending up that goes a long way, and I commend NASA for 
allowing us to go on the Shuttle to date.
    And I hope for more of that.
    Chairman Udall. You are ready to go, you have got the 
capital lined up, you are confident what you need is----
    Mr. Pickens. Yes, sir. I am sending samples to space as we 
speak.
    Chairman Udall. Thank you very much. I am going to 
recognize Judge Hall for five minutes. Look forward to hearing 
his questions.
    Mr. Hall. I thank you, Mr. Chairman.
    And I guess I will use part of my time in thanking this 
very capable group of witnesses here. I have really got 
something from every one of you. And I thank, Mr. Rohrabacher 
for being here. I especially ask him, you can tell by my raspy 
voice that I have been a victim of the influenza, and Dr. 
Nickerson, if you will do some more work on that, we will all 
be----
    Dr. Nickerson. I will get right on that.
    Mr. Hall. And everybody around me would appreciate it.
    I want to say of course I enjoyed Dr. Knipling's work, and 
to Dr. Stodieck, I liked your use of all agency's cost covered 
and comparisons with other research, and NASA and Congress 
admonished to have access to ISS and planning together and 
producing together. Very good instructions.
    And Dr. Nickerson, our nation badly needs good news from 
space, not just tickertape, something over the television or 
just huge appropriations and exciting and delicate yes and 
still fragile missions. We need studies of cures from space, 
and you certainly reflect your intention is such, and I know I 
appreciate that and this group does.

         Differences Between Government and SPACEHAB Activities

    And to Tom Pickens, accelerating the need for microgravity 
and the many experiments of space and the comparisons were very 
helpful. And your salute to the Space Station by it being at a 
class of all strategies is very, and the suggestion also to be 
as sensible as possible as they can be with the funds.
    And along that line let me ask you, Mr. Pickens, do you see 
any distinction between the types of activity SPACEHAB seeks to 
conduct versus those that would be of interest to university 
and government researchers? Or commercial activities in 
competition with other university government research for ISS 
resources.
    I would like to hear your comments on that if we have time 
left. I would like to hear each of you.
    Mr. Pickens. I always look when doing due diligence on, you 
know, opportunities in the marketplace, I like to see paradigms 
that were successful in the past, and I think a paradigm, you 
could take most of them, but let us just take the railroads.
    You know, the United States Government built the railroads 
and then they proved out the technology and then today, you 
know, the, you know, all that evidence of success is certainly 
there. We built the International Space Station. We have built 
the access to space. What we haven't done and what is necessary 
here is that the government is the only one that is going to 
take these kind of risks, because commercial enterprise is not. 
They are not going to be sending up a whole lot of real basic 
science that we really haven't gone to the steps necessary in 
order to discover.
    Again, we weren't given, the science community was not 
given and nor should really, I mean, the amount of time that 
they were given was generous by NASA. They were building a 
skyscraper in space, and to be putting science in there was 
generous of them to do that. But now we are at the stage to 
where we need to go and promote that and move forward with it, 
and government needs to go with the university level like Louis 
suggests and do a lot of basic science work. When it gets to 
the point to where it is commercial, people like me and myself, 
we will see that. We will identify that, and then we will move 
forward with how you end up taking that to a commercial 
setting.
    So I think that there is a differentiation between the 
commercial interests and from the more basic science university 
interest, and I think they should be treated differently as 
well, sir.
    Dr. Nickerson. Thank you for the opportunity to answer that 
question. From researchers and scientific individuals' 
perspective and maybe I was fortunate to have been trained in a 
very multi-disciplinary background which thinks outside of the 
box, but I have been trained, and I have always believed in a 
diversified research portfolio that is funded on multiple 
fronts, both by a government, traditional federal funding 
agencies, but also by corporate and private funding as well.
    In that capacity, therefore, a lot of times some of your 
higher-risk research which has real tremendous potential to 
lead to major advances in public health, but it is higher risk, 
and sometimes some of the traditional funding venues in terms 
of our federal funding agencies like in NIH, tend to steer away 
from that a little bit and go for a more safer paradigm in 
terms of funding.
    And sometimes those risks don't pay off, but holy cow, 
sometimes they do. And we have got to make that translational 
leap of not phenomenology. This isn't would be, could be, 
wishing kind of stuff. This is going to happen. It already is 
happening, and it will continue to happen. And for us to 
continue to maintain our nation's leap in technological and 
biomedical innovations to translate in terms of these types of 
advances, in terms of my end of public health, we have got to 
be able to successfully balance these types of funding and get 
away from them being normally separate but merge them together.
    So absolutely. All three of those types of funding levels 
can exist together nicely and do.
    Mr. Hall. My time is up, and I hope Dr. Stodieck and Dr. 
Knipling will answer my questions in some other people's five 
minutes here in a little bit.
    But I would say to you, Mr. Pickens, that your comparison 
of railroads to space really goes from the bottom to the top, 
and it is a good comparison. You know, I vote for Amtrak and 
all that, and the dang thing goes to New York about 35 times a 
day and goes to Philadelphia about 40 times, 38 times a day, 
but, hell, they don't even whistle going through my district a 
lot of times, but I vote for railroads because we relied on 
rail during national emergency and war times and things like 
that. Thanks for that good comparison.
    I yield back my time.
    Chairman Udall. Everybody here understands why Judge Hall 
is known as a statesman, although in some quarters, well, 
statesmen are dead politicians. We are glad to have a living 
statesman here among us today, and infrastructure is so 
important to our----
    Mr. Hall. Maybe you will give me another five minutes.
    Chairman Udall. That is going too far.
    The Chair recognizes the great Member, the Chairman of the 
Energy and Environment Subcommittee from Texas, Mr. Lampson. He 
is also known, although there would be others that might want 
to wrestle him for the title, as the man from NASA. He looks 
after NASA with the passion and consistency. Mr. Lampson, five 
minutes.
    Mr. Lampson. Thank you, Mr. Chairman, and I have to agree 
with some of the words that have been said. This is something 
that can drive a great deal of the enthusiasm of this country 
when we make our commitment to it and consider the return that 
we are going to, that we have always gotten from our investment 
in space and in science.
    I have had a number of conversations of late with Mr. 
Pickens, and one of the things that has impressed me 
specifically that you said was about how we seem to have gotten 
away from our concentration on science and relied more on the 
idea of if we build a craft, we can figure out what we do with 
it. We sort of get the cart before the horse. Really and truly 
our use of space should be about what we can learn from it, 
what we can get from the science. And then whatever craft we 
have to put together, then so be it. We go and do it.
    And I know that you have done some specific work, Mr. 
Pickens, and I will pick on you because you do have SPACEHAB, 
which is in the 22nd Congressional District of Texas, and we 
are proud of the work that you do there and----
    Mr. Pickens. We are proud to be there.
    Mr. Lampson.--the many employees that you have there. But 
let me start with you and ask you to continue your comment that 
you made a minute ago about due diligence. You have done 
something I think that is out of the ordinary with regard to 
how you looked at what potential there was for commercial 
activity.

                     Commercial Activity at the ISS

    Can you discuss that a little bit? What did you do that may 
have been different in your findings as related to the 
potential for scientific research at the International Space 
Station?
    Mr. Pickens. As CEO of SPACEHAB, there, I am in a very 
unique situation. I am on a platform where I can access all of 
the thousands of people, billions of dollars, research, white 
papers, scientists, all those people will always end up 
responding to me. I have access to those people, they are 
excited about having the discussion with somebody, especially 
in the commercial sector, and as a CEO of SPACEHAB, I think I 
am the only guy that has the kind of access and that kind of 
position probably oddly enough in this country and maybe even 
in the world.
    Most of the other aerospace engineering companies are 
aerospace engineering companies. SPACEHAB sent 1,500 
experiments to space over a 23-year period of time. We had 
intimate knowledge of how to do that, and I use that platform 
and trained in New York, I consider myself quite a professional 
in due diligence, and I don't stop until I hear glass break as 
my granddad used to say.
    And I just keep going and going and going, and these guys, 
some of them on this panel right here, they are sick of me, and 
that is usually when I start to slow down is about the time 
they do get sick of me.
    But I have found that there is a lot of value up there. 
There is billions of dollars worth of value in terms of 
commercial value. In this, you know, environment that we are in 
that seems so appropriate where we should also be cognizant as 
commercial enterprise leaders of commercial companies, we also 
need to take care of things like environment and people and 
whatnot. It is just such a great added benefit to also be able 
to have the opportunity to save millions of lives with what we 
see as opportunities in microgravity.
    This thing is for real. I think just in summary to you, 
Congressman, is this is for real. This is the real deal, is 
that there is a huge amount of value in microgravity. It wasn't 
given all the attention that it was, that we would have hoped, 
but we were, again, constructing a skyscraper in space.
    So I think that, you know, what needs to happen now is that 
I think Louis is very, is being very conservative in terms of 
the amount of investment that should go up there. We end up in 
our barter arrangement that we ended up by taking and 
transferring the Columbus Module, which is the ESA Module, the 
European Space Agency Module, and the Kibox Module, with the 
Japanese Space Agency Module. We get half of their space 
because we transported that on our Space Shuttle. That is the 
deal. It was a barter agreement.
    We have so much laboratory space up there it is 
unbelievable. With ours, with theirs there is lots of space 
available. I would like to see billions of dollars go into the 
basic science of this, and I think that it deserves it, and 
with aging of America and with health being such a big issue 
right now, there isn't any excuse not to. We should fund NASA 
more. We should give them more money, and we should put them on 
that focus to go get that done and exploit that $100 billion 
asset up there.

              Uncertainty Pertaining to Long-term Research

    Mr. Lampson. I have got less than a minute left, so let me 
just ask whoever would like to start on this question of the 
panel. What impact does, I am concerned that we are not going 
to fully use the ISS, especially after we retire the Shuttle. 
What impact does the uncertain status of the ISS past 2016, 
have on potential users being able to plan long-term research 
using the Station?
    Dr. Nickerson. Well, I think there are two questions there, 
but first I would focus on what we can get done before 2016, 
which if we get the kind of appropriations and funding in here 
we need to, we can learn an enormous amount up until that point 
in time. So let us not underestimate the tremendous impact that 
that can make up until then.
    After that point in time it is going to depend on access 
and access to space through other venues and how we can 
continue to use the microgravity environment after that. But up 
to that point in time I am more focused on what we can do on a 
consistent basis to maximize that space and utilize our 
potential to lead to these new technology advances.
    Mr. Lampson. If it, Mr. Chairman, can anyone else comment 
before I yield my time back?
    Dr. Stodieck. And I just want to add that I think, you 
know, in fact, that 2016, is frankly much too close a horizon 
for us to be planning it. It seems ridiculous to even be 
thinking about the decommissioning of Space Station before it 
has even been completed. But in reality, of course, that is 
what you are really asking, and I think that we need to already 
begin the planning, and I think, of course, appropriations 
looks at, you know, five-year timeframes. It is not too soon to 
really be thinking about extending the service life of the 
Space Station, and I think we need to go out to at least 2020, 
and frankly, I think, you know, when we start to get the kind 
of productivity and the results that I expect to see, then I 
think there will be a lot of interest and extended beyond that.
    But I think we need to recognize that without the Space 
Shuttle that the, you know, the clock really starts ticking for 
Space Station because it will become more and more difficult to 
maintain it and service it. So starting that productivity as 
soon as possible and using it for as long as we can.
    Mr. Lampson. Thanks. Dr. Knipling, anything?
    Dr. Knipling. I believe my comments will reinforce what has 
been said. I think much can be accomplished in the near term to 
validate these concepts that we have talked about. And we are 
very confident that they will be validated one way or the 
other. We can adapt to what we learned, but I think that the 
promise of what we learn will actually provide testimony for 
further extension in the further of the Space Station in one 
way or another.
    Mr. Lampson. Thank you all. Thank you, Mr. Chairman.
    Chairman Udall. Thank the gentleman.
    The Chair recognizes the gentleman from California, Mr. 
Rohrabacher, who is one of the most dedicated and consistent 
supporters of this, and he always has his back peering over the 
horizon and bringing some really creative thinking to NASA and 
how we promote our space program both in the private and public 
sectors.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you. Let me note that I have 
supported Space Station. I see the Space Station as a success 
in the sense that we have learned how to build structures in 
space. Humankind is to advance, if we are going to conquer this 
frontier, we have learned how to cooperate with other countries 
in achieving that.
    I am not sure even from the testimony today, however, that 
the accomplishments that are being talked about have been 
accomplished in terms of medical research. All along we were 
told that there would be these great accomplishments. It has 
been a long time.
    Frankly, they have not been validated yet. I have heard a 
lot of rhetoric today, but I have been listening to that 
rhetoric for 20 years. I am satisfied with the fact that we now 
have the capabilities of building structures in space. I would 
hope they are not just pyramids. I hope this isn't just a 
pyramid that will be historic, a historic structure. I hope 
that there is something that comes out of it in terms of a cure 
for a disease. Believe me, I have been listening to that for 10 
years. I haven't seen it yet.

                         ISS Lab Compatability

    Your comment, Mr. Pickens, about that there is plenty of 
lab space up there and value to be made from that. I 
appreciated that. Are these, is the research facility that is 
in the Space Station, the various labs that you have talked 
about, are they outfitted for the type of research that is 
necessary to validate the things that we have heard today?
    Mr. Pickens. The way they have it set up is is that other 
than the fact that the Columbus Module has an X-ray 
crystallography machine that they have sent up with that so you 
don't, you can actually do the defracture from the crystals off 
the protein crystal growth from that piece of equipment. 
Basically what they did is they set up these things that they 
call express racks, which are really data feeds, power feeds. 
They are just set up for you, and what they do is they take it 
out of whatever the visiting, you know, vehicle is, and then 
they put it in, and they slide it in there, and they flip on a 
button, and then from that they control everything from the 
ground operations.
    And, yes, it is all there. I mean, they put that very 
modularly in place, and they have done that. So, yes.
    Mr. Rohrabacher. Is that the same answer I am getting from 
the other panelists, too? Is--are these labs properly 
outfitted?
    Dr. Nickerson, you have been very optimistic about these 
great achievements that are about to happen. Are we outfitted 
up there to make sure that we can actually achieve those 
things?
    Dr. Nickerson. There were, of course, a number of cuts that 
were made to important research infrastructure that was 
supposed to be installed on ISS, the centrifuge, things like 
that. It would be very nice if those things could be up there.
    Mr. Rohrabacher. Could you give me a couple of examples of 
that?
    Dr. Nickerson. In terms of how they could be used?
    Mr. Rohrabacher. No. In terms of what needs to be replaced 
so we can start thinking about financing it.
    Dr. Nickerson. So it would be nice to have the centrifuge 
facility up there.
    Mr. Rohrabacher. A what now?
    Dr. Nickerson. Centrifuge.
    Mr. Rohrabacher. Centrifuge. Okay.
    Dr. Nickerson. It would be nice to have some very nice 
imaging capabilities on-board in terms of abilities to image 
very small cells like microscopic imaging. It would be very 
nice to have that up there so we can see in real time exactly 
how these cells are manifesting their changes.
    Mr. Rohrabacher. Are there any plans to put microscopic 
imaging, I know about the centrifuge.
    Dr. Nickerson. There were, but those plans were scrapped, 
and it was being, those plans were in place, but I know those 
funds were cut. For a long time I know with the MELFI there was 
a question, and we need to be able to have for long-term work 
on ISS, you know, capabilities to store at minus 80, and I know 
after much time the MELFI, I think, is finally fully 
operational up there in terms of the freezer capabilities.
    But when we are going to be on terms of long-term research 
on ISS, we need those kinds of capabilities, some samples we 
want to store, some we want to keep viable. And when we store 
them, we need to make sure that they are stored viably, and 
their integrity is preserved.
    Mr. Rohrabacher. Okay. So we need storage and something to 
do microscopic imaging, and I know that the centrifuge debate 
was a big debate early on.
    Dr. Nickerson. Right.
    Mr. Rohrabacher. And an imager, it is not just a small 
investment----
    Dr. Nickerson. Right.
    Mr. Rohrabacher.--there. It is huge. But----
    Dr. Nickerson. That is one reason, though, that leads to, 
and your question was well founded, is that you have heard 
about this rhetoric for a long period of time. It is going to 
lead to these advances, it is going to lead to these advances, 
but in all honesty, the reason you haven't seen that is some of 
those capabilities are now being able to be put in place and be 
done. And with our study it was a biological first. It was the 
first time that space flight had ever been looked at as ability 
to affect disease-causing potential. It was the first time that 
a pathogen had ever been looked at in terms of a complete 
molecular global profiling and look at changing its virulence.
    So those kinds of things, you know, until you can translate 
that, and we just, by the way, repeated that so we do have 
biological validation on the STS-123.
    Mr. Rohrabacher. Oh. As I say, I think we learned a lot on 
how to build structures.
    Dr. Nickerson. Right.
    Mr. Rohrabacher. I think that in and of itself is for 
humankind and how to cooperate internationally----
    Dr. Nickerson. But to have those additional capabilities 
would be helpful.
    Mr. Rohrabacher. That is good. But I would sure hope that 
we see some of the things that you have been talking about. I 
have heard this before, and I hope it is validated like we say, 
and if we, Mr. Chairman, if we need a couple of things to add 
to the Space Station to see that it actually accomplishes the 
$100 billion that we have spent, if we are talking about tens 
of millions of dollars to get some of these things up there--
thank you very much.
    Chairman Udall. I thank the gentleman from California for 
his insightful questions and commentary.
    Unfortunately, we need to move to the second panel. I know 
everybody on the dais here could spend another hour directing 
questions to the panel, and we hope to bring you back. We also 
will direct some additional questions to you all for the 
record.
    I did want to take an additional moment, Dr. Nickerson had 
mentioned that in the town of Alamosa, which is in the St. 
Louis valley, South Central portion of our state, important 
agricultural area. It is also an area in which we are planning 
to develop a lot of alternative energy technologies. They had 
to shut down their water supply system recently. You may have 
read the story. It made the national news because of Salmonella 
somehow infiltrating the system, and it, over 300 people were 
taken ill in a town of about 15,000 people.
    So your work is an area in which there may be real 
applicability. So I look forward to watching and learning from 
what you discover about Salmonella.
    Dr. Nickerson. Thank you. I look forward to giving you 
updates.
    Chairman Udall. At this time we will excuse the panel. 
Again, thank you for being here and providing us with such 
informative testimony.
    We will ask the second panel to take their seats as quickly 
as we can, and we will move to the second round.
    Let us move to our second panel of witnesses. I would like 
to introduce each of them in turn.
    Dr. William Gerstenmaier, who is the Associate 
Administrator of the Space Operations Mission Directorate at 
NASA. Next to Mr. Gerstenmaier is Cristina Chaplain, who has 
been a visitor to our committee before, and she is the Director 
of Acquisition and Sourcing Management at the GAO, has a great 
rooting in NASA and many aspects of the NASA world. And then 
finally we have Dr. Jeffrey Sutton, who is the President and 
Director of the National Space Biomedical Research Institute. 
Welcome to the three of you.
    As you know, our spoken testimony is limited to five 
minutes, after which Members of the Subcommittee will have five 
minutes each to ask questions.
    We will start with Mr. Gerstenmaier and his five minutes. 
Welcome.

                                Panel 2:

      STATEMENT OF MR. WILLIAM H. GERSTENMAIER, ASSOCIATE 
 ADMINISTRATOR FOR SPACE OPERATIONS, NATIONAL AERONAUTICS AND 
                  SPACE ADMINISTRATION (NASA)

    Mr. Gerstenmaier. Thank you. I have addressed your 
questions specifically in my written testimony, and I won't 
spend much time with my verbal discussion.
    I would just say there is a couple of areas I think are 
really important to stress here, and first of all, they were 
discussed earlier a little bit. The international achievement 
of the Space Station is really unprecedented in my mind. The 
fact that we are actually operating internationally today with 
the laboratories on-board Space Station is a huge testimony to 
this team that has worked internationally to continue to build 
Space Station and has guided it to this point.
    And we have also done a lot of engineering evaluations and 
tests and evaluation of Space Station. It fits well as we move 
into exploration of the components, the hardware, the systems, 
the engineering analysis that we are working and developing on 
Space Station today that we used to assemble it. Those are 
directly applicable to what we are going to be doing as we go 
to the Moon and Mars, running pumps for long time, doing fluid 
circulation, operating computers, working internationally, all 
those things have direct application to what we are going to do 
as we go, move beyond low-Earth orbit and move to the Moon and 
Mars. And that is a first step in the engineering sense.
    I would also say Space Station provides a commercial 
opportunity as Mr. Pickens talked about a little bit earlier. 
It clearly does for transportation. As we look to 
transportation in the future as the Shuttle retires, we are 
looking to commercial transportation for Space Station. We have 
recently put out a request for a proposal to commercial 
industry to provide transportation for Space Station. We think 
that provides a tremendous opportunity for the commercial 
sector to step up and provide transportation of the materials 
needed for the research, for the investigations, as well as for 
the basic supplies of Space Station.
    We recently had the Automated Transfer Vehicle from the 
European Space Agency dock to Space Station. That shows that we 
are able to do the rendezvous docking. We are able to take a 
brand new spacecraft, take it through developmental test 
program, and actually dock it to Space Station so that gives 
credibility and shows proof to the commercial sector that this 
can be done and is very achievable and they are ready to move 
forward.
    We have also looked at a new thing, a new way of acquiring 
hardware on Space Station. We are using a Sabatier reaction, 
which takes waste carbon dioxide and waste hydrogen, combines 
those, makes water, and generates methane that gets dumped 
overboard. We will save about 2,000 pounds of water with that 
system. We acquired that commercially for the first time. We 
didn't pay the typical development way we do. It is not a cost-
plus contract. It is a fixed-price contract, and we get paid 
for the water or the contractor gets paid for the water that is 
generated. So they take the risk, and NASA is not involved in 
the development. We are not attending their design reviews. 
They show us the hardware is safe to fly in orbit. If it 
generates water, they receive revenue from that. If it doesn't 
generate water, they have lost their investment. So it is a new 
creative way of utilizing the commercial sector to provide 
services that we need. And that is another evidence of what the 
Station can do.
    And lastly, the previous panel talked a lot about the 
research avenues. There was a lot of discussion on the 
biological aspects. I think there is a lot of other areas of 
Space Station that can be used. There is a combustion research 
rack that is going up, there is material science activities, 
there is fluid physics, and low temperature physics.
    The unique thing about Space Station is it gives us a 
different lens to look at all these phenomena, be it 
biological, physical, or materials processes. It gives us a 
chance to learn about things that we experience here on the 
Earth in a different way. Some of the Apollo astronauts talked 
about that we went to the Moon to learn about the Earth. I 
think in the same sense we are going to Space Station and with 
the different lens of microgravity, we are going to learn more 
about processes on the Earth and directly impact what is going 
on in the very physical sense.
    [The prepared statement of Mr. Gerstenmaier follows:]
             Prepared Statement of William H. Gerstenmaier
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the status of the 
International Space Station (ISS) Program. It is a pleasure to report 
to you the good year we have had in the human space flight program, and 
the progress we are making in support of the Nation's exploration 
goals. I would like to give you an update on the ISS, discuss the 
challenges over the next five years, and report to you some of our 
success stories. First, I would like to share with you how the ISS is 
helping to prepare us for our next steps in exploration.

International Space Station--Experience in Exploration

    The Space Station is a place to learn how to live and work in 
space, which we need to do, and over a long period of time. It is also 
a place to conduct the research we would like to do in a better way 
than was possible in the more confined places we have flown in before.
    Through the years of ISS design, development, test, assembly and 
operations, NASA has acquired the experience necessary for operating 
complex, multinational space vehicles. In areas ranging from 
international collaboration to research and technology development, 
crew operations, spacecraft system operations, and crew-system 
interfaces, the knowledge gained from the ISS can be applied directly 
to future long-duration exploration missions.

International Collaboration
    Since 1988, the ISS international partnership has established an 
unprecedented level of global cooperation among the U.S., Canada, 
Europe, and Japan, and in 1998, Russia formally joined in this 
worldwide endeavor. During the 17 Expedition missions to date, for nine 
and a half years on-orbit, and over seven years of continuous human 
presence, we have together assembled a research facility designed and 
produced around the world that now resides some 250 miles above the 
Earth. It is the largest spacecraft ever built; it will be 925,627 
pounds at completion and measure 361 feet end-to-end. It is the length 
of a football field with pressurized volume greater than a five-bedroom 
house. By 2010, the international partnership will have managed over 80 
assembly and logistics missions (including 26 Space Shuttle missions to 
date through STS-123), with crew rotations and cargo transfer flights 
on five different vehicles that will have included over 50 crew members 
from around the globe. Over 650 hours of assembly and maintenance 
activity have been performed during extra-vehicular activity outside 
the ISS. Today, the ISS is approximately 70 percent complete and has a 
mass of 261 metric tons.
    The technical challenges of assembly, operations, and logistical 
re-supply have been met through the coordination of more than 100,000 
workers in the U.S., Canada, Europe, Japan, and Russia, including 
numerous contractor facilities in the U.S. and over a dozen other 
countries. The globally distributed control centers supporting ISS 
operations will ultimately coordinate daily operations among Russia, 
Germany, France, Japan, Canada, and three locations in the United 
States--Alabama, Florida, and Texas. In addition, Kazakhstan and French 
Guiana support launch and landing operations. The structural, 
electrical power, thermal control, data and voice communications, and 
environmental and life support systems have been designed and produced 
across international boundaries. We continually monitor ongoing 
challenges to safe and successful systems inter-operability due to 
different industry and safety standards; varying life cycle development 
philosophies; the need for common standards during development; 
conversions between English versus metric units for production tooling; 
development of common terminology; unique engineering and management 
practices; export control constraints; and cultural and language 
differences.
    The ISS international partnership has risen to all challenges thus 
far and forged the strong, positive relationships necessary for the 
next great steps in human space exploration.

Research and Technology Development
    The ISS is NASA's only long-duration flight analog for future human 
lunar missions and Mars transit. It provides an invaluable laboratory 
for research with direct application to the exploration requirements 
that address human risks associated with missions to the Moon and 
beyond. It is the only space-based multinational research and 
technology testbed available to identify and quantify risks to human 
health and performance, identify and validate potential risk mitigation 
techniques, and develop countermeasures for future human exploration.
    The ISS research portfolio includes human research and 
countermeasure development for exploration. The ISS crew is conducting 
human medical research to develop knowledge in the areas of clinical 
medicine, human physiology, cardiovascular research, bone and muscle 
health, neurovestibular medicine, diagnostic instruments and sensors, 
advanced ultrasound, exercise and pharmacological countermeasures, food 
and nutrition, immunology and infection, exercise systems, and human 
behavior and performance.
    The ISS also provides a testbed for studying, developing, and 
testing new technologies for use in future exploration missions, 
including advanced life support systems, environmental monitoring, 
energy storage batteries, strain gauges on the truss structure to 
measure structural loads, light-emitting diode (LED) lighting, 
materials exposure experiments, cabin air monitoring and environmental 
monitoring, robotic construction systems, and photographic inspections 
surveys of external surfaces and components. In the physical and 
biological sciences arena, the ISS is using microgravity conditions to 
understand the effect of the space environment on the physical 
processes of fluid physics, combustion and materials research, as well 
as environmental control and fire safety. Finally, the Station is an 
ideal platform for observing the Earth and performing educational 
activities, including activities and investigations which allow 
students and the public to connect with the ISS mission and inspire 
students to excel in science, technology, engineering, and math.

Crew Operations
    High performing crews are critical to successful long-duration 
missions. The development of specialized skills and training for 
international crew members, as well as advanced protocols, procedures, 
and tools, will reduce the risks to future exploration missions. 
Maintaining crew health will be critical to long-duration flights, and 
the ISS provides a demonstration platform through the continuous 
operation of life support and medical systems. While much has been 
learned about crew health systems, crew medical care, environmental 
monitoring, and exercise systems critical to maintaining crew fitness, 
more must be learned before we undertake long-duration missions to the 
Moon or to Mars. Next Spring, we will have on-board the ISS all of the 
life support, habitability and crew health maintenance hardware (water/
urine processing, treadmill, galley, toilet, crew quarters, backup 
carbon dioxide removal) required to support six-crew operations--a 
continuous human presence in space that exceeds all prior human space 
flight programs.
    Effective on-board training is another key to future long-duration 
exploration missions. The ISS provides a platform to develop efficient 
methods for conveying new information to crew members and influence the 
volume and types of preflight crew training. Computer-based training 
can be utilized to supplement ground training and provide refresher 
training for the on-orbit crew.
    Exploration missions will also require advances in Extra Vehicular 
Activity (EVA) suits, technologies, capabilities and procedures. To 
date, Station and Shuttle crews have performed 109 U.S. and Russian 
assembly and maintenance EVAs, totaling more than 650 hours. Our 
evolving EVA procedures enable us to set the standard for in-space 
assembly, repair, and maintenance.
    The interaction of the crew with Mission Control is another element 
critical to mission success. The ISS provides an environment to improve 
the interaction between crew and ground to make missions safer and more 
effective through planning and communication. The evolving operations 
protocols and support tools are increasing crew autonomy and reducing 
ground support infrastructure. The coordination of the Station support 
facilities is all the more remarkable because the launch, operations, 
training, engineering, and development facilities are dispersed around 
the globe.

Spacecraft Systems Operations
    The ISS provides a unique opportunity to flight test components and 
systems in the space environment and to optimize subsystem performance. 
Station is the only space-based testbed available for critical 
exploration spacecraft systems such as closed-loop life support, EVA 
suit components and assemblies, advanced batteries and energy storage, 
and automated rendezvous and docking. Efficient, reliable spacecraft 
systems are critical to reducing crew and mission risks. Characterizing 
and optimizing system performance in space reduces mission risks and 
yields next-generation capabilities for long distance and autonomous 
vehicle and systems management.
    As a direct result of the ISS Program, the inventory of space-
qualified materials, piece-parts, components, assemblies, subsystems, 
and systems has expanded rapidly to serve future exploration needs. 
These include:

        <bullet>  The ISS environmental control and life support 
        systems include water electrolysis for oxygen generation and 
        carbon dioxide removal.

        <bullet>  The thermal control systems include heat rejection 
        and management using multi-layer insulation, heat exchangers, 
        strip heaters and radiators.

        <bullet>  The electrical power system includes energy collected 
        by solar arrays and stored in nickel hydrogen batteries.

        <bullet>  The command and data systems include computer systems 
        using standard 1553B data buses and networks using the 802.4 
        Ethernet protocol.

        <bullet>  The U.S. Control Moment Gyroscopes (CMGs) and Russian 
        motion control systems provide guidance and propulsion.

        <bullet>  Station communication and tracking systems use S 
        Band, Ku Band, UHF, global positioning satellite system (GPS), 
        and Russian capabilities.

        <bullet>  The robotics capabilities include a seven-degree-of-
        freedom robot arm.

        <bullet>  The EVA systems include U.S. and Russian airlocks and 
        suits, tools, translation aids, and training facilities.

    Demonstrating and developing confidence in systems for water and 
waste recovery, oxygen generation, and environmental monitoring 
technologies is important as the distance and time away from Earth is 
extended. U.S. and Russian life support systems represent dissimilar 
yet redundant capabilities for carbon dioxide removal, oxygen 
generation, and waste management. The ISS is currently recycling 
approximately 14 pounds of crew-expelled air each day and using the 
processed water for technical and drinking purposes. The ISS is well on 
the way to demonstrating closed-loop life support for oxygen generation 
and water recovery systems following the oxygen generation system 
activation in July 2007, in conjunction with the water recovery system 
demonstration targeted for October 2009. In 2010, the ISS plans to 
incorporate a Sabatier system that will combine carbon dioxide and 
excess hydrogen from the oxygen generation system to produce water for 
the generation of oxygen. When the closed-loop life support system is 
operational, it will reduce the amount of consumables needed by about 
80 percent. This demonstration is critical for future exploration 
missions.
    To generate power, the ISS has the largest solar arrays ever 
deployed on a spacecraft. Understanding how these arrays and other 
power system components perform is important to moving toward longer 
stays on the Moon and transiting to Mars. The solar arrays cover an 
area of 27,000 square feet (an acre of solar panels, and arrays with 
240-foot wingspans) and are generating approximately 76 kW of 
electrical power, or 708,000 kW hours per year--enough to power 50 
homes. Forty-eight nickel hydrogen rechargeable batteries are used for 
energy storage, and gimbal mechanisms allow solar tracking and thermal 
radiators to maintain battery temperature. The operating experience 
being accrued on the ISS in solar arrays, mechanical gimbal, and rotary 
joint technologies will be directly applicable to future power systems 
in space.

Crew-System Interfaces
    Demonstration and validation of the human-machine interfaces enable 
sustained spacecraft operations over long periods of time. Advances in 
crew and robotic operations, on-orbit maintenance and repair, in-space 
assembly, and demonstrations of new crew and cargo transportation 
vehicles are essential to expand human activity beyond low-Earth orbit. 
Many of the techniques used to assemble hundreds of ISS components in 
space are applicable to the assembly of components on the Moon, or at 
other locations in space.
    Assembling six major truss segments, eight solar array wings, and 
four laboratory modules with interconnecting nodes demonstrates the 
precision and coordination necessary for in-space assembly of large 
structures. Autonomous rendezvous and docking capabilities, essential 
to complex future space missions, are demonstrated routinely in the 
global evolution of launch vehicles that transport crew and cargo to 
ISS. These vehicles currently include the Space Shuttle, Russian Soyuz 
and Progress spacecraft, and the new European Automated Transfer 
Vehicle (ATV). In the future, other transportation systems currently in 
development will also support the ISS. They will include the Japanese 
H-II Transfer Vehicle (HTV), U.S. Commercial Orbital Transportation 
Services (COTS), and the U.S. Orion Crew Exploration Vehicle.
    The ISS robotic arms provide the ability to assemble large elements 
in flight, while ground control of certain robotic activities enables 
the more efficient use of valuable crew time. The Station's 55-foot-
long robotic arm can move 220,000 lbs.--the mass of the Space Shuttle. 
Canadian, Japanese, and European robotic arms work on different 
portions of the ISS and can be commanded via the ground or by the crew 
on-orbit. These multi-national robotic operations are carefully 
choreographed between the ISS crew and the global operations teams.
    Development of displays and controls is important for future 
spacecraft system designs. Software tools play a role in helping crews 
virtually practice EVA or robotic tasks before they ever don spacesuits 
or power up the robotic arms. The ISS has more than 50 computers to 
control on-board systems, and uses some 2.5 million lines of ground 
software code to support 1.5 million lines of flight software code. 
Standardized communication protocols control crew displays and software 
tools, while common and standardized flight software products, tools, 
interfaces, and protocols enhance operational practices.
    ISS provides a real-world laboratory for logistics management and 
in-flight maintenance and repair concepts for future spacecraft. These 
techniques demonstrate an ability to evolve and adapt through daily 
operations. We have designed and implemented systems to manage limited 
re-supply capabilities, stowage, and consumables for long exploration 
journeys. Common component designs simplify sparing systems and are 
used to minimize the number of spares to be stored on-orbit (e.g., 
common valve design). Our inter-operable hardware systems include the 
common berthing mechanism, utility operations panel, international-
standard payload racks, common equipment and orbital replacement units, 
crew equipment, and robotic grapple fixtures.
    Through thousands of days of operating experience, the ISS is 
demonstrating the maintainability and reliability of hardware 
components. Models used to predict this reliability and maintainability 
are enhanced by measuring the mean-time-between-failure performance on 
hundreds of components, including pumps, valves, sensors, actuators, 
solar arrays, and ammonia loops.
    ISS crews have had to demonstrate repair capabilities on internal 
systems and external systems and components, as well as hardware not 
originally designed for on-orbit repair. The on-orbit crews have 
repaired malfunctioning space suits and Russian computers; replaced 
CMGs, treadmill bearings, Russian Elektron oxygen generator and Vozdukh 
carbon dioxide removal system subassemblies, solar array system 
components, beta gimbal assemblies (BGAs), and remote power control 
mechanism (RPCM) circuit breakers. The Expedition crews and their 
ground maintenance counterparts have devised unique solutions that have 
kept the ISS functioning, including remote maintenance and 
sustainability procedures, and inspection and repair techniques. This 
experience has helped identify design flaws and re-deploy systems and 
hardware to orbit.
    The ISS provides valuable lessons for current and future engineers 
and managers--real-world examples of what works and what does not work 
in space, creating valuable lessons for current and future programs. 
The ISS gives us a glimpse of how our international partners approach 
building spacecraft, and NASA is learning many lessons from our partner 
countries in building, operating, and maintaining spacecraft as 
cooperative endeavors. Working for months with crew members from other 
countries and cultures is an important aspect of the ISS program. 
Developing methods to work with our partners on the ground and in space 
is critical to providing additional capabilities and solutions to 
design challenges.

National Laboratory Opportunities
    While the ISS continues to meet NASA's mission objective to prepare 
for the next steps in human space exploration, it will also offer 
extraordinary opportunities for advancing science and technology to 
other U.S. Government agencies, non-profit research foundations, and 
private firms. The National Institutes of Health entered into an MOU 
with NASA in October of 2007 and plans to issue a formal research 
announcement in 2008 for use of the ISS in the post-assembly period. 
The U.S. Department of Agriculture, Agricultural Research Service, is 
evaluating a similar arrangement and may enter into an MOU in the near 
future for plant- and animal-related research. In the private sector, 
two Space Act Agreements are currently under development for pursuing 
proprietary research in biotechnologies, and another agreement is 
pending with the University of Colorado's Bioserve Center for ISS-based 
research.

International Space Station Assembly and Resupply Operations

    At this point, ISS is approximately 70 percent complete, and the 
only major structural elements left to be flown are the remaining two 
components of the Japanese Kibo laboratory; the final truss segment, 
Node 3; and the cupola, which will provide observation capabilities for 
operations such as docking/undocking, space walks, robotic activities, 
and Earth/celestial observations. In addition to flying these 
components, the Shuttle will also provide important logistics support 
to the Station, delivering EXPRESS Logistics Carriers and spares.
    NASA's Station and Shuttle teams have proven resourceful and 
effective at addressing challenges that have arisen in both programs, 
from using new solder points to resolve the Shuttle's recent Engine 
Cut-Off (ECO) sensor issue, to performing a space walk to free the 
snagged Space Station solar array last November. In endeavors which are 
complex both in terms of engineering and organization, there will 
always be the potential for events that could impact planned schedules. 
Currently, the Shuttle Program is addressing challenges connected to 
the manufacture of External Tanks (ETs). This series of tanks includes 
the first set of entirely new ETs that have been built since Hurricane 
Katrina, and we are experiencing some delays in the processing flow, 
though this issue now has been largely resolved. NASA has a history of 
successfully dealing with such eventualities, and the Agency has built 
margin into the Shuttle manifest to minimize impacts from these events. 
NASA is on track to complete assembly of the ISS and retire the Space 
Shuttle by the end of FY 2010.
    Over the past year, there have been 12 flights to the ISS, 
including two crewed Soyuz flights, four Progress cargo flights, five 
Space Shuttle assembly flights, and the initial flight of the European 
ATV, which successfully docked to the ISS on April 3, 2008, in its 
initial attempt. Over the past year, including the launch of the 
Expedition 17 crew aboard the Soyuz 16 on April 8, there have been 44 
people aboard ISS from 9 countries, including the U.S., Russia, Canada, 
Germany, Italy, Japan, France, Malaysia, and South Korea (the latter 
two countries represented by Space Flight Participants flying under 
contract with Russia).
    The June 2007 flight of Atlantis on STS-117 added a truss segment 
and new solar arrays to the starboard side of the Station to provide 
increased power. In August, Endeavour brought up another truss segment 
and supplies, and became the first Orbiter to use a new power transfer 
system that enables the Space Shuttle to draw power from the Station's 
solar arrays, extending the duration of the Shuttle's visits to Space 
Station. On the same mission, STS-118, teacher-turned astronaut Barbara 
Morgan conducted a number of education-related activities aboard the 
Space Station, inspiring students back on Earth and realizing the dream 
of the Teacher In Space Project for which she and Christa McAuliffe 
trained more than two decades ago. In October 2007, Discovery flew the 
STS-120 mission, which added the Harmony node to the Station and 
featured a space walk to disentangle a snagged solar array.
    The STS-120 mission paved the way for Station astronauts to conduct 
a series of ambitious space walks and operations using the Station's 
robotic arm to move the Pressurized Mating Adapter-2 and Harmony node 
in preparation for the addition of the European Columbus laboratory and 
the Japanese Kibo laboratory in 2008. These space walks were 
particularly challenging and impressive, as they were carried out 
entirely by the three-person Expedition crews, without benefit of 
having a Shuttle Orbiter, with its additional personnel and resources, 
docked to the Station.
    NASA continues to expand the scientific potential of the Space 
Station in 2008, a year in which we are delivering and activating key 
research assets from two of our International Partners. In February, 
Shuttle Atlantis delivered the European Columbus laboratory during STS-
122; while the recently completed STS-123 mission featured the delivery 
by Shuttle Endeavour of the experiment logistics module portion of the 
Japanese Kibo laboratory, along with the Canadian Special Purpose 
Dextrous Manipulator, or Dextre. Dextre is a small, two-armed robot 
that can be attached to the Station's robotic arm to handle smaller 
components typically requiring a space-walking astronaut. At the tip of 
each arm is a ``hand'' that consists of retractable jaws used to grip 
objects. This will allow astronauts to conduct operations and 
maintenance activities from inside the Space Station, rather than via 
space walks. In May, STS-124 will deliver the pressurized module 
component of the Kibo lab.
    The European ATV vehicle, which is currently docked to the ISS, is 
a welcome and vital addition to the ISS cargo transportation system. On 
its maiden voyage, the ATV rendezvoused and docked to the ISS nearly 
flawlessly. It is carrying crew supplies, fuel, water, and air that are 
required to sustain the crew and on-orbit operations of the ISS. The 
ATV technologies and capabilities that were flight-demonstrated 
represent a significant accomplishment for the European government and 
industry aerospace community. It is also a testament to the level of 
trust and cooperation between multiple international partners.
    NASA is planning to address the issue of Space Station crew 
transportation and cargo resupply after the retirement of the Space 
Shuttle in FY 2010 through a variety of methods. On April 11, 2008, 
NASA submitted a proposed amendment to Congress to extend the exception 
under the Iran, North Korea and Syria Nonproliferation Act (INKSNA) 
that allows the Agency to pay Russia for Soyuz crew transportation and 
rescue services. Under the proposed amendment, this relief would be 
extended until the Orion Crew Exploration Vehicle reaches Full 
Operational Capability (planned for 2016) or a U.S. commercial provider 
of crew transportation and rescue services demonstrates the capability 
to meet ISS mission requirements. The proposal would also continue to 
allow payments, in cash and in kind, for Russian-unique equipment and 
capabilities through the life of the Station; these would include 
sustaining engineering and spares (for example, acquiring Russian 
equipment for use in training in the U.S., and hardware, such as 
spares, to outfit the Russian-built, but U.S.-owned, Zarya module).
    NASA is not seeking INKSNA relief to purchase Progress cargo 
capability beyond 2011, however. The Agency is encouraging the 
development of U.S. commercial cargo resupply capabilities through the 
Commercial Orbital Transportation Services (COTS) effort, and released 
a Request For Proposals (RFP) for commercial resupply services on April 
14, 2008. We also have agreements for use of the European ATV and the 
Japanese HTV. In using multiple service providers, NASA hopes to 
minimize the risk to continued Station viability and promote the 
development of a competitive, low-Earth orbit space economy, which will 
grow as both government and non-government users increase the demand 
for on-orbit services. If U.S. commercial cargo capabilities are not 
available as early as desired, the Agency will depend solely on the 
cargo up-mass capability of the ATV and HTV and rely on pre-positioned 
important spares, delivered by the Shuttle before its retirement in 
2010, until U.S. commercial cargo capabilities are available.
    The ISS Program continues to evaluate the up-mass requirements and 
spares procurement strategy to sustain nominal system and research 
operations. Evaluations are based on actual flight performance of on-
board systems as well as estimates of component lifetimes. Internal and 
external system performance continues to perform better than expected 
except for a few notable components, including the CMGs, Beta Gimbal 
Assembly and the Solar Array Rotary Joint. Further reductions in up-
mass requirements and crew time allocations required to maintain safe 
on-board operations continue to be aggressively pursued.

Conclusion

    Recent ISS assembly accomplishments are the direct result of years 
of careful planning, diligence through tragedy and challenges, and the 
efforts of a worldwide human space flight community dedicated to the 
completion of a goal--to build and operate a world-class research 
facility in low-Earth orbit. The ISS Program has been successful 
because of the flexibility and resourcefulness of the Partnership in 
adapting to changing environments, including challenges such as the 
retirement of the Space Shuttle in FY 2010, elimination of habitation 
and centrifuge facilities, and schedule delays with Space Shuttle 
flights and the deployment of new transportation capabilities.
    The efforts of thousands of people around the world over the past 
two decades are about to pay off. The ISS Program is entering its 
intensive research phase. The same careful planning, diligence, stable 
goals, and dedicated efforts that have resulted in the accomplishments 
to date are now required to be employed in the development of a robust 
U.S. research program. The Agency will continue its exploration-related 
research at the same time that we are progressing to expand the use of 
the ISS to other Government agencies as well as commercial users. 
NASA's National Laboratory effort is key to this expansion of U.S. 
research utilization aboard the ISS. Yet, the U.S. is not alone in 
utilizing the ISS for research; Station partners Japan and Europe have 
maintained a broad-based research program in basic physics, material 
sciences, pharmaceuticals, biology, technology, and other areas. The 
groundwork for the U.S. utilization of the ISS is being laid today. The 
continued stability of the Program is important to both the realization 
of the research potential of the Station and to the development of 
commercial transportation services that can serve Government and non-
government users in the new space economy.
    NASA's leadership has been instrumental in developing and 
maintaining a truly remarkable worldwide partnership in human space 
flight. The ISS is currently being operated from the ground from six 
countries: Russia, Japan, Canada, Germany, France, and the United 
States. This partnership has demonstrated its ability to be flexible 
and take on challenges when required to do so by unforeseen 
circumstances. As the ISS is completed later this decade, not only will 
the Partnership have completed its goal to build a world-class orbiting 
research platform, but it will also have built an unprecedented global 
community committed to human space flight exploration. The ISS has 
played a key role in advancing U.S. leadership in space operations and 
has the potential to provide an even larger role in the 
commercialization of space transportation and research. ISS is an 
invaluable training ground for the next generation of space explorers 
and researchers.
    I would be happy to respond to any question you or the other 
Members of the Subcommittee may have.

    Chairman Udall. Thank you.
    Ms. Chaplain.

 STATEMENT OF MS. CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION 
 AND SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Thank you for asking me to discuss our work 
on challenges related to completing and sustaining the 
International Space Station. This program has clearly achieved 
significant successes in engineering, technology development, 
as well as in building effective international partnerships. 
The logistical and technical problems that have been overcome 
in just the last year are a testament to the program's agility 
and ingenuity under extreme pressures.
    However, the ISS has also struggled with significant cost 
growth, scheduled delays, redesigns, as well as changes in 
requirements and content. Such challenges, in fact, have forced 
cutbacks and planned capabilities and scientific research.
    A recent change with wide-ranging impacts on the program 
is, of course, the decision to retire the Space Shuttle in 
2010. This was considered necessary to enable NASA to develop 
new launch and transportation vehicles needed to support the 
President's vision for space. But it leaves NASA with little 
flexibility in the Shuttle schedule more at risk for not 
completing the Station as planned, more at risk for not being 
able to effectively support the Station, and more dependent on 
other countries.
    The schedule for completing the Station, for example, is 
only slightly less demanding than it was prior to the Columbia 
disaster when the agency launched a Shuttle every other month 
with a larger fleet. Though there is some reserve, the schedule 
leaves little room for the kinds of weather-related technical 
and logistical problems that have delayed flights in the past.
    NASA remains confident that the current manifest can be 
accomplished within the given time, and there are tradeoffs 
NASA can make in terms of what it can take up to the Station 
should unanticipated delays occur. However, failure to complete 
assembly as currently planned could further reduce the 
Station's ability to fulfill its research objectives and short 
the Station of critical spare parts that only the Shuttle can 
deliver.
    In the event that NASA completes assembly of the Station on 
schedule and pre-positions an adequate number of spares, the 
agency still faces a host of challenges in sustaining the 
station until its retirement.
    Simply put, there is no other vehicle available with the 
capacity of the Shuttle to deliver supplies. Instead, the 
program will rely on vehicles developed by its international 
partners, the commercial sector, and NASA under the Ares and 
Orion Programs.
    While it seems that NASA has an array of options, there are 
substantial limitations. One, only the Russian vehicles have 
proven capability, though the recent operational tests of the 
European vehicle is a good indication that this will not 
continue to be the case.
    Two, all vehicles currently or nearly available have mass 
capacities far below the Shuttles.
    Three, only the Soyuz vehicle can carry crew.
    Four, neither the European, Japanese, or Russian progress 
vehicle can take experiments or other materials back down to 
Earth. They are expendable vehicles.
    Five, more capability is planned for the COTS vehicles, but 
their schedules are considered by many to be highly optimistic 
and schedule slips have already occurred.
    Six, NASA's Orion vehicle is not expected to come on line 
until 2015, and we have found that it is not certain that this 
date will be met due to inherent technical complexities and 
production challenges.
    Within this context it is our understanding that NASA would 
like to rely solely on commercial vehicles to take cargo to the 
Station beginning in 2013. The aim is to fully incentivize the 
commercial industry to develop capabilities that are needed to 
support the Vision in the long-term. There is merit to this 
objective as commercial suppliers are being counted on to 
reduce the costs of access to space and to introduce new 
concepts and capabilities needed to sustain our country's 
technical edge.
    But there are also risks with this approach, particularly 
if the commercial efforts are unsuccessful and more established 
vehicles cannot be brought back into production quickly. NASA 
is well aware of the predicament it faces both in completing 
and sustaining the Station, and it has weighted options and 
tradeoffs. It is important in going forward that flexibility 
continue to be maintained as events impacting schedule occur 
and that contingencies be well thought out and planned so that 
results can be maximized.
    Mr. Chairman, this concludes my statement, and I am happy 
to answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement of Cristina T. Chaplain

 NASA: Challenges in Completing and Sustaining the International Space 
                                Station

Mr. Chairman and Members of the Committee:

    I am pleased to be here to discuss challenges that the National 
Aeronautics and Space Administration (NASA) faces in completing and 
sustaining the International Space Station (ISS). After delays and 
redesigns, efforts are under way for a long-envisioned expansion of the 
station so it can support a larger crew and more scientific research. 
NASA officials estimate the entire cost to complete the station will 
total $31 billion, and another $11 billion will be needed to sustain it 
through its planned decommissioning in fiscal year 2016.
    The Space Shuttle has been and is critical to completion of the 
space station and re-supplying the station. The Shuttle remains the 
only vehicle capable of transporting large segments of the station into 
orbit for assembly. NASA plans to complete ISS assembly duties and 
retire the Shuttle fleet in 2010 in order to pursue a new generation of 
space flight vehicles for exploration. To that end, NASA has begun the 
process of making key decisions on suppliers that will no longer be 
needed. NASA officials told us that in many cases, restarting suppliers 
after these decisions are made would be cost prohibitive and time 
consuming. However, a new NASA vehicle will not be available until 2015 
at the earliest, when the Crew Launch Vehicle (Aces 1) and Crew 
Exploration Vehicle (Orion) are expected to fly. To fill the gap 
following retirement of the Shuttle and provide crew rotation and 
logistical support, NASA plans to rely on a variety of spacecraft 
developed by the commercial sector and other countries.
    In July 2007, we testified on a number of challenges NASA was 
facing with regard to completing the ISS within the time constraints 
created by the Shuttle's retirement. Those challenges are still 
relevant. In light of these issues, we examined the risks and 
challenges NASA faces in (1) completing assembly of the ISS by 2010, 
and (2) providing logistics and maintenance support to the ISS after 
2010.
    In short, our work continued to find that NASA's plans to complete 
assembly of the International Space Station prior to the scheduled 
retirement of the Space Shuttle at end of fiscal year 2010 require much 
to happen and very little to go wrong. While NASA believes the schedule 
is still achievable, the flight rate that NASA is projecting is only 
slightly less aggressive than it was prior to the Columbia disaster\1\ 
when, from 1992 to 2003, the agency launched a Shuttle every other 
month. At that time, NASA used four vehicles to maintain its flight 
schedule. To complete the station by 2010, NASA will need to maintain a 
similar flight rate with fewer Shuttles and with a Shuttle fleet that 
is aging and continuing to face fuel sensor challenges. NASA remains 
confident that the current manifest can be accomplished within the 
given time, and in fact, it has several months of reserve time in its 
manifest. However, agency officials readily admit that the schedule is 
aggressive. If delays continue, NASA may need to reduce the number of 
flights to the station, which could prevent delivery of items currently 
scheduled for assembly and the pre-positioning of critical spares. 
Further, while NASA still expects to be able to increase crew capacity 
from three to six persons, changes it may need to make to the space 
station's configuration could limit the extent of scientific research 
that can be conducted on-board the ISS or quality of life for the crew.
---------------------------------------------------------------------------
    \1\ In 2003, the Space Shuttle Columbia broke up as it returned to 
Earth after 16 days in orbit. After the accident of Columbia, the 
Shuttle fleet was grounded for approximately two and one-half years. 
During that the time, U.S. crew and supplies were launched in the 
Russian Soyuz and Progress.
---------------------------------------------------------------------------
    After assembly is completed and the Shuttle is retired, NASA's 
ability to rotate crew and supply the ISS will be impaired because of 
the absence of a vehicle capable of carrying the 114,199 pounds (or 
51.8 metric tons) of additional supplies needed to sustain the station 
until its planned retirement in fiscal year 2016. NASA plans to rely on 
Russian, European and Japanese vehicles to service the station. Even 
with these vehicles, this shortfall remains. While the Russian vehicles 
are already in service, the European vehicle just completed its first 
operational test flight, and development efforts are still under way on 
the Japanese vehicle. In addition, these vehicles were designed to 
augment the capabilities of the Shuttle, not replace them. Both the 
European and Japanese vehicles were designed to deliver supplies to the 
station but their capacities are not equal to the Shuttle's 37,864 
pounds of capacity. Furthermore, aside from a single Russian vehicle 
that can bring back 132 pounds of cargo and rotate crew, no vehicle can 
return cargo from the International Space Station after the Shuttle is 
retired. NASA plans to rely on commercially developed vehicles to 
address some of these shortfalls and has pledged approximately $500 
million for their development. NASA expects one of these vehicles will 
be ready for cargo use in 2010 and crew use in 2012. However, no 
vehicle has successfully been launched into orbit and their development 
schedules may leave little room for the unexpected. If these vehicles 
cannot be delivered according to NASA's current expectations, NASA will 
have to rely on Russian vehicles to maintain U.S. crew on the 
International Space Station until the new generation of U.S. spacecraft 
becomes available.
    To conduct our work, we reviewed documents and testimonies by NASA 
officials relating to the challenges associated with ISS completion, 
the delivery schedule for ISS assembly and replacement units, and the 
Space Shuttle manifest. We reviewed key ISS budget and strategic 
maintenance plans, the ISS Independent Safety Task Force Report, and 
previous GAO reports relating to the ISS. We visited and interviewed 
officials responsible for ISS operations at NASA Headquarters, 
Washington, D.C., and the Johnson Space Center in Houston, Texas. At 
NASA Headquarters, we met with officials from the Exploration Systems 
Mission Directorate and the Space Operations Mission Directorate, 
including representatives from the International Space Station and 
Space Shuttle programs. We met with ISS and Space Shuttle officials at 
the Johnson Space Center. We also talked to a commercial developer of 
space vehicles and met with representatives of foreign space efforts. 
Complete details of our scope and methodology can be found in Appendix 
I. We conducted this performance audit from July 2007 to April 2008, in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Background

    The International Space Station program began in 1993 with several 
partner countries: Canada, the 11 member nations of the European Space 
Agency (ESA), Japan, and Russia. The ISS has served and is intended to 
expand its service as a laboratory for exploring basic questions in a 
variety of fields, including commercial, scientific, and engineering 
research. The first assembly flight of the station, in which the Space 
Shuttle Endeavor attached the U.S. laboratory module to the Russian 
laboratory module, occurred in early December of 1998. However, since 
the program's inception, NASA has struggled with cost growth, schedule 
delays and redesigns of the station. As we reported in the past, these 
challenges were largely due to poorly defined requirements, changes in 
program content and inadequate program oversight. Due to these 
challenges, the configuration of the station has devolved over time. In 
the spring of 2001, NASA announced that it would make major changes in 
the final configuration of the ISS to address cost overruns. In 2003, 
the National Academies reported that this reconfiguration greatly 
affected the overall ability of the ISS to support science. NASA 
estimates that assembly and operating costs of the ISS will be between 
$2.1 billion to $2.4 billion annually for FY 2009-FY 2012. The ISS as 
of February 19, 2008, is approximately 65 percent complete.
    The Shuttle program and the ISS program are inherently intertwined. 
The Shuttle has unique capabilities in that it can lift and return more 
cargo to and from orbit than any other current or planned space 
vehicle. Figure 1 shows the capabilities of the Shuttle in various 
configurations. Most segments of ISS cannot be delivered by any other 
vehicle. For example, the Columbia disaster in 2003 put ISS assembly on 
hiatus as NASA ceased Shuttle launches for two and one-half years while 
it investigated the safety of the fleet. During this period, the 
Russian Soyuz became the means of transportation for crew members 
traveling to and returning from the ISS.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In a major space policy address on January 14, 2004, President Bush 
announced his ``Vision for U.S. Space Exploration'' (Vision) and 
directed NASA to focus its future human space exploration activities on 
a return to the Moon as prelude to future human missions to Mars and 
beyond. As part of the Vision, NASA is developing new crew and cargo 
vehicles, with the first crew vehicle currently scheduled to be 
available in 2015. The President also directed NASA to retire the Space 
Shuttle after completion of the ISS, which is planned for the end of 
the decade. Based on that directive, NASA officials told us that they 
developed a manifest consisting of 17 Shuttle launches to support ISS 
assembly and supply between 2005 and 2010.\2\ Nine of these have taken 
place. In response to the President's Vision, NASA formally set 
September 30, 2010, as the date that the Shuttle program will cease 
because agency officials believe that continuing the program beyond 
that date will slow development of the agency's new vehicles--
specifically, the agency budget cannot support both programs at costs 
of $2.5 billion to $4 billion above current budget. As shown in Table 
1, the Shuttle program costs NASA several billion dollars annually and 
projected funding is phased out in fiscal year 2011. NASA officials 
stated that the majority of Shuttle program cost is fixed at roughly $3 
billion a year whether it flies or not. NASA officials stated that the 
average cost per flight is $150 million to $200 million.\3\
---------------------------------------------------------------------------
    \2\ The manifest includes 18 total flights, but one of the launches 
is reserved for repairs to the Hubble Space Telescope.
    \3\ This cost is based on hardware, such as the booster rocket, 
used for the Shuttles.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The 2005 NASA Authorization Act designated the U.S. segment of the 
ISS as a national laboratory and directed NASA to develop a plan to 
increase the utilization of the ISS by other federal entities and the 
private sector. In response, NASA has been pursuing relationships with 
these entities. NASA expects that as the Nation's newest national 
laboratory, the ISS will strengthen NASA's relationships with other 
federal entities and private sector leaders in the pursuit of national 
priorities for the advancement of science, technology, engineering, and 
mathematics. The ISS National Laboratory is also intended to open new 
---------------------------------------------------------------------------
paths for the exploration and economic development of space.

The Retirement of the Shuttle Poses Challenges to NASA's Ability to 
                    Complete the International Space Station

    It will be a challenge for NASA to complete the space station by 
2010 given the compressed nature of the schedule, maintenance and 
safety concerns, as well as events beyond its control such as weather. 
Any of these factors can cause delays that may require NASA to re-
evaluate and reconstitute the assembly sequence. NASA remains confident 
that the current manifest can be accomplished within the given time and 
there are tradeoffs NASA can make in terms of what it can take up to 
support and sustain the station should unanticipated delays occur. 
However, failure to complete assembly as currently planned would 
further reduce the station's ability to fulfill its research objectives 
and short the station of critical spare parts that only the Shuttle can 
currently deliver.

Shuttle Flight Schedule Is Aggressive
    In our July 2007 testimony, we reported that NASA planned to launch 
a Shuttle once every 2.7 months. The plan for launches remains 
aggressive, partly because NASA plans on completing the ISS with the 
last assembly mission in April 2010, with two contingency flights in 
February and July 2010 to deliver key replacement units. The five 
months between the last assembly launch and Shuttle retirement in 
September 2010 act as a schedule reserve, which can be used to address 
delays. There are eight Shuttle flights left to complete the station 
and two contingency flights left to deliver key components necessary to 
sustain the ISS after the retirement of the Shuttle. There is an 
average of two and one-half months between each Shuttle launch.\4\ 
Table 2 shows the current Shuttle manifest.
---------------------------------------------------------------------------
    \4\ This includes one mission to repair the Hubble Space Telescope 
and two contingency flights.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NASA has launched Shuttles at this rate in the past. In fact, the 
agency launched a Shuttle, on average, every two months from 1992 
through the Columbia disaster in 2003. However, at that time the agency 
was launching a fleet of four Shuttles.\5\ The Shuttles require 
maintenance and refurbishing that can last four to five months before 
they can be re-launched. Launching at such a rate means that the 
rotation schedule can handle few significant delays, such as those 
previously experienced due to weather and fuel sensor difficulties. 
Lastly, NASA officials said that Shuttle Atlantis, which was to go out 
of service after the Hubble mission, will return to servicing the ISS 
for two more flights, which NASA believes will add more schedule 
flexibility.
---------------------------------------------------------------------------
    \5\ The remaining three Shuttles are the Atlantis, Discovery, and 
Endeavor.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Potential Launch Delays Remain
    NASA officials stated repeatedly that NASA is committed to safely 
flying the Shuttle until its retirement and will not succumb to 
schedule pressure. However, the compressed nature of the manifest will 
continue to test that commitment. Fuel sensor challenges continue to 
surface in the Shuttle fleet. For example, the recent Shuttle Atlantis 
launch was delayed two months while NASA addressed a fuel sensor 
problem associated with the Shuttle's liquid hydrogen tank. This is the 
same system that caused a two-week delay in the launch of the Shuttle 
Discovery in 2005.
    There are also challenges associated with the Shuttle launch 
window. NASA officials told us that the duration of that window is 
dependent on a number of factors, which include changes in the position 
of the Earth and spacecraft traffic restrictions. NASA must consider 
its traffic model constraints for vehicles docking at the space 
station. According to the traffic model for ISS, no other vehicle can 
dock while the Shuttle is docked, and each vehicle has constraints on 
how long it can stay docked. For example, the Shuttle can dock for a 
maximum of 10 days, while the Soyuz can dock a maximum of 200 days. The 
docking of these two vehicles must be coordinated and meet other 
technical restrictions.
    In addition, the Shuttle has experienced delays due to severe 
weather, such as when Atlantis's external tank was damaged by a 
hailstorm in 2007. In this case the delay was about three months. 
Figure 3 shows the delays in recent Shuttle launches related to weather 
and other causes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Completion of ISS Needed to Expand Scientific Research
    The ISS is scheduled to support a six-person crew as early as 2009 
and maintain that capability through 2016. NASA officials said that 
equipment essential to support a six-person crew, such as systems for 
oxygen recycling, removal of carbon dioxide and transforming urine into 
water as well as an exercise machine will be delivered to the station 
this fall. In addition, there are two components that have been planned 
to hold this and other equipment needed for the six-person crew, which 
are scheduled to go up in April 2010. If unanticipated delays occur, 
NASA may need to hold back these two components--known as the Node 3 
and the Cupola--which could constrain the ability to conduct research 
and the quality of life on the station for the crew.
    NASA officials emphasized that NASA's intent was to have most 
science conducted on ISS only after the assembly of the ISS was 
completed. The ISS currently supports three crew members. NASA stated 
that the majority of the crew's time is spent maintaining the station, 
rather than conducting scientific study. According to NASA, the crew 
spends no more than three hours per week on science. Completion of the 
ISS would allow NASA to expand to a six-person crew who could conduct 
more research.
    Since the ISS is designated as a national laboratory, the 
expectation is that it will support scientific experimentation. NASA is 
in the process of negotiating agreements with scientific organizations 
to support scientific research on the ISS. NASA officials told us that 
they are negotiating a Memorandum of Understanding with the National 
Institutes of Health to explore the possibility of scientific 
experimentation on-board the ISS. These officials also told us that 
NASA is in the process of negotiating with at least two other agencies.

The Need to Pre-position Replacement Units to Sustain the ISS May Also 
        Affect Assembly
    NASA's efforts to complete the ISS are further complicated by the 
need to put replacement units--the spare parts that are essential to 
sustaining the ISS--into position before the Shuttle retires. The two 
contingency flights of the Shuttle have been designated to deliver 
these key replacement units, which only the Shuttle is capable of 
carrying. According to NASA, the original approach to deal with these 
key components (also known as orbital replacement units--ORU\6\ ) was 
to take the ones that failed or reached the end of their lifetime back 
to Earth on the Shuttle, refurbish them and launch them back to ISS for 
use. As a result of the Shuttle retirement, NASA will no longer be 
bringing down ORUs to fix. Instead, NASA officials stated they have 
adopted a ``build and burn'' philosophy, which means that after the 
Shuttle retires, instead of being brought down to be refurbished, ORUs 
will be discarded and disintegrate upon re-entry into the atmosphere. 
To determine how many replacement units need to be positioned at the 
station, NASA officials told us they are using data modeling that has 
been very effective in determining how long ORUs will last. Table 3 
illustrates the Shuttle manifest. This includes elements needed for the 
planned configuration to complete the station and delivery of critical 
spares.
---------------------------------------------------------------------------
    \6\ Orbital Replacement Units (ORU), according to NASA officials, 
are critical spares are necessary to sustain the ISS.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NASA currently plans to use two contingency flights for these 
replacements because all other flights are planned with assembly cargo. 
Recently, the NASA Administrator publicly stated that these flights are 
considered necessary to sustain the ISS and have been scheduled to 
---------------------------------------------------------------------------
carry key spare units.

Alternative Vehicle Options to Service the International Space Station 
                    Pose Challenges

    In the event that NASA completes assembly of the ISS on schedule 
and prepositions an adequate number of critical spares, the agency 
still faces a myriad of challenges in sustaining the research facility 
until its retirement, currently planned for fiscal year 2016. Without 
the Shuttle, NASA officials told us that they face a significant cargo 
supply shortfall and very limited crew rotation capabilities. NASA will 
rely on an assortment of vehicles in order to provide the necessary 
logistical support and crew rotation capabilities required by the 
station. Some of these vehicles axe already supporting the station. 
Others are being developed by international partners, the commercial 
sector, and NASA. (See Figure 4) Furthermore, some of these 
transportation services may face legal restrictions, and still others 
face cost, schedule, and performance issues that raise serious 
questions about their development and utilization. These issues will 
challenge NASA's ability to close the sustainment gap between the 
retirement of the Shuttle in 2010 and the availability of the Crew 
Exploration Vehicle (CEV) in 2015. Failure of any or some of these 
efforts would also seriously restrict NASA's options to sustain and 
maintain a viable space station.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Russian Vehicles
    With the exception of the Shuttle and the recently completed 
demonstration flight of the ATV, the only vehicles currently capable of 
supporting the space station are the Russian Progress and Soyuz 
vehicles. NASA officials stated that both of these vehicles have 
provided reliable service to the ISS. From the Columbia disaster in 
2003 until return to flight in 2005, the Russian vehicles were the sole 
source of logistical support and crew rotation capability for the 
station. The Progress provides atmospheric gas, propellant, water, and 
pressurized cargo. It also has the capability to use its thrusters to 
change the Station's altitude and orientation. The Soyuz provides crew 
delivery and rescue capability for three crew members. Progress 
vehicles are expendable and offer no recoverable return capability, but 
provide important trash removal capabilities. Soyuz vehicles have a 
limited recoverable cargo capacity. However, some NASA officials have 
suggested that their limited capabilities restrict the capacity of the 
station to move to a six-member crew and significantly limit the 
scientific research because the vehicles cannot bring experiments to 
Earth for assessment. NASA currently purchases crew and cargo transport 
services from Russia through a contract with the Russian Federal Space 
Agency (Roscosmos).
    NASA officials told us that after the initial ISS contract between 
Roscosmos and NASA expired, NASA entered into another contract that 
runs through 2011. However, according to NASA, the Iran 
Nonproliferation Act of 2000 restricted certain payments in connection 
to the ISS that may be made to the Russian government. In 2005, NASA 
requested relief from the restrictions of the Act, and Congress amended 
the Act.\7\ Through this amendment, NASA and Roscosmos have negotiated 
quantities and prices for services through January 1, 2012.
---------------------------------------------------------------------------
    \7\ The 2005 Amendment to the Iran Nonproliferation Act of 2000 
altered the Acts definition of ``extraordinary payments in connection 
with the International Space Station.'' NASA refers to this amendment 
as its ``exemption.''
---------------------------------------------------------------------------
    NASA officials anticipate the use of four Soyuz flights per year 
and approximately six Progress flights beginning in approximately 2010. 
While NASA officials stated that they are making every effort to limit 
amount of fees they pay for usage of Russian vehicles, to date, NASA 
officials told us that they anticipate that from fiscal year 2009 to 
fiscal year 2012, NASA will spend $589 million on cargo and crew 
services from the Russians.\8\ NASA officials also told us that the 
Roscosmos has suggested that it will charge NASA higher fees for usage 
of its vehicles.
---------------------------------------------------------------------------
    \8\ NASA and Roscosmos have negotiated quantities and prices for 
services through calendar year 2011. According to NASA it will require 
additional relief from the restrictions of the Act, currently entitled 
the Iran, North Korea and Syria Nonproliferation Act.

European and Japanese Vehicles
    NASA has stated it will use its international partners' vehicles to 
conduct some supply activities. Specifically, Japan's Aerospace 
Exploration Agency (JAXA) H-II Transfer Vehicle (HTV) and the European 
Space Agency's (ESA) Automated Transfer Vehicle (ATV) vehicles will be 
used for bringing up cargo. NASA's reliance on the ATV and HTV assumes 
that these vehicles will be ready to service the ISS by the time the 
Shuttle stops flying in 2010.
    The new vehicles being developed by the European and Japanese space 
agencies are very complex. The ATV had a development timeline of 20 
years. Its first operational test flight to the ISS was in March 2008. 
NASA has stated that both the European and Japanese vehicle development 
programs experienced technical hurdles and budgetary constraints, but 
are committed to fulfilling their roles as partners in the ISS program. 
NASA officials told us they have confidence the European vehicle will 
be available for ISS operations before retirement of the Shuttle, but 
they are not as confident about the Japanese vehicle's being ready by 
that time. The Japanese vehicle is still under development and has 
faced some setbacks. NASA officials told us that the HTV's first test 
launch is planned for July 2009.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


International Partner Vehicles Have Constraints in Ability to Ferry 
        Crew and Cargo to and from the ISS in Comparison to the Shuttle
    In addition to potential development challenges, the international 
partner vehicles have constraints in terms of what they can take to and 
from the ISS in comparison to the Shuttle. NASA's current plans to 
manage the gap after the Shuttle retirement do not take into account 
the possibility of delays in the development of these vehicles, and 
even if they do come on line on time, NASA officials estimate that 
there will be a significant shortfall to the ISS of at least 114,199 
pounds (or 51.8 metric tons) in cargo re-supply capability. These 
vehicles were designed to augment the capabilities of the Shuttle and 
have significantly less capability to deliver cargo to the ISS. The 
Shuttle can carry a maximum cargo of close to 38,000 pounds (17,175 
kg.). In comparison, the European ATV's maximum capability is 16,535 
pounds (7,500 kg.) and the Japanese HTV's average capability is 13,228 
pounds (6,000 kg.). The HTV and ATV are expendable vehicles. NASA can 
use them for trash removal, but cannot carry cargo or scientific 
experiments back to Earth because the vehicles disintegrate when re-
entering the atmosphere.
    The Russian Progress and Soyuz vehicles also have very limited 
cargo capacity. For example, the Progress has an average capability of 
5,732 pounds (2,600 kg.)--roughly one-seventh the Shuttle's capability. 
The Progress, like the ATV and HTV, is an expendable vehicle. The Soyuz 
can transport three crew persons to the ISS and can serve as a rescue 
vehicle capable of taking three crew members back to Earth. Unlike the 
ATV and HTV, the Soyuz does have the capacity to bring down cargo--
roughly 132 pounds (60 kg.). NASA officials have stated that until NASA 
deploys its new crew exploration vehicles or commercial vehicles become 
available, NASA will be dependent on the Russian vehicles for crew 
transportation services and on the Japanese and European vehicles for 
limited cargo services whenever they become available.
    Figure 7 compares the up mass capabilities of the various vehicles.
    
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

Commercial Vehicles
    NASA is working with the commercial space sector through its 
Commercial Orbital Transportation Services (COTS) program to develop 
and produce vehicles that can take equipment and crew to and from the 
space station. NASA expects that these vehicles will be ready for cargo 
use in 2010 and crew use in 2012. However, these vehicles have yet to 
be successfully launched into orbit, and some NASA officials have 
acknowledged that their development schedules leave little room for the 
unexpected.
    Under the COTS program, NASA has pledged $500 million to promote 
commercial opportunities for space transportation vehicles. Using Space 
Act agreements\9\ instead of traditional contracting mechanisms, NASA 
will make payments to companies based on the achievement of key 
milestones during the development of their vehicles. These agreements 
are both funded and unfunded, For the two funded agreements that have 
been reached, NASA stated that the commercial suppliers for space 
transportation services will have customers outside of ISS, including 
NASA's Constellation program, which plans to send humans back to the 
Moon and eventually Mars. The COTS program will occur in phases. In the 
first phase companies will demonstrate the vehicle launch and docking 
capabilities with the ISS. The second phase is the procurement of 
services for transportation of cargo and crew to the ISS, which is 
scheduled to begin sometime in the 2010 timeframe.
---------------------------------------------------------------------------
    \9\ COTS agreements are Space Act agreements issued pursuant to 
NASA's other transactions authority. These types of agreements are not 
contracts, and are therefore generally not subject to those federal 
laws and regulations that apply to government contracts. NASA has 
budgeted $500 million in fiscal year 2006 to fiscal year 2010 as an 
investment for the demonstration of commercial orbital capabilities and 
will be executed in two phases. The first phase consists of technical 
development/demonstration funded by the Space Act agreements. The 
second phase may include the competitive procurement of orbital 
transportation services.
---------------------------------------------------------------------------
    NASA had seven COTS agreements through the Space Act. NASA signed 
five unfunded Space Act agreements, which facilitate the sharing of 
technical and ISS integration information between commercial companies 
and NASA. NASA has funded two companies, Rocketplane Kistler (RpK) and 
Space Exploration Technologies (SpaceX). NASA officials stated that 
through the funded Space Act agreements, SpaceX has received $139 
million for its project and is still working on successfully launching 
a vehicle that can reach low-Earth orbit. The company successfully 
completed a critical design review in August 2007 and told us that it 
is planning its first orbital demonstration test flight for June 2009. 
NASA officials told us that RpK received $37 million in funding, but 
then forfeited the remainder of its share because it did not meet 
certain financial development milestones. When NASA began to 
redistribute these forfeited funds, RpK filed a bid protest with GAO, 
which GAO denied. NASA officials then moved forward and awarded $170 
million to Orbital Sciences Corporation in February 2008.
    NASA officials acted quickly to award the forfeited money and 
expect that SpaceX will have cargo capability available in 2010 (by the 
time the Shuttle is retired) and crew capability 112012. While SpaceX 
has been meeting key milestones in the development of its vehicle, some 
officials at the Johnson Space Center were skeptical that COTS would be 
available on the current projected schedule. Additionally, the 
International Space Station Independent Safety Task Force (IISTF) 
reported that design, development and certification of the new COTS 
program was just beginning and that ``if similar to other new program 
development activities, it most likely will take much longer than 
expected and will cost more than anticipated.'' In our opinion, the 
schedule is optimistic when compared to other government and commercial 
space programs we have studied. We will be studying the COTS program 
and schedules in more detail in response to a request of Members of 
Congress.

Ares I and Orion
    NASA is under pressure to develop its own vehicles quickly as the 
Space Shuttle's retirement in 2010 means that there could be at least a 
five-year gap in our nation's ability to send humans to space. Among 
the first major items of NASA's development efforts to implement the 
Vision program are the development of new space flight systems--
including the Ares I Crew Launch Vehicle and the Orion Crew Exploration 
Vehicle. Ares I and Orion are currently targeted for operation no later 
than 2015. NASA plans to use these vehicles as they become available to 
service the space station.
    However, we recently testified that there are considerable unknowns 
as to whether NASA's plans for the Ares I and Orion vehicles can be 
executed within schedule goals, as well as what these efforts will 
ultimately cost. This is primarily because NASA is still in the process 
of defining many of the project's performance requirements and some of 
these uncertainties could affect the mass, loads, and weight 
requirements for the vehicles. Such uncertainty has created knowledge 
gaps that are affecting many aspects of both projects. For example, a 
design analysis cycle completed in May 2007 revealed an unexpected 
increase in ascent loads (the physical strain on the spacecraft during 
launch) that could result in increases to the weight of the Orion 
vehicle and both stages of the Ares I.
    NASA recognizes the risks involved with its approach and it is 
taking steps to mitigate those risks. However, given the complexity of 
the Orion and Ares I efforts and their interdependencies, any 
significant requirements changes can have reverberating effects and 
make it extremely difficult to establish firm cost estimates and 
schedule baselines. If knowledge gaps persist, programs will cost more, 
fail to meet their schedules, or deliver less than originally 
envisioned. Ultimately, NASA's aggressive schedule leaves little room 
for the unexpected. If something goes wrong with the development of the 
Crew Launch Vehicle or the Crew Exploration Vehicle, the entire 
Constellation Program could be thrown off course and the return to 
human space flight further delayed.

Concluding Observations

    The decision to retire the Space Shuttle in 2010 has had profound 
effects on the ISS program. It leaves little flexibility in the Shuttle 
schedule. Any delays could require NASA to choose between completing 
the station as planned and the pre-positioning of needed critical 
spares, The decision also leaves NASA dependent on Russia for crew 
rotation services until other vehicles are developed and demonstrated. 
And even with the development of these vehicles, NASA still faces a 
significant capacity shortfall in its ability to provide logistical 
support to the station. The shortfall may well impact support for a six 
person crew and the quality of research that can be conducted on the 
ISS. At the same time, it also provides opportunities to commercial 
suppliers to demonstrate capabilities that could have long-term 
benefits for future U.S. space exploration and development. We are not 
making recommendations as a result of our review as NASA is well aware 
of the predicament it faces with the station and has weighed options 
and trade-offs for the remainder of the schedule manifest. However, it 
is important that flexibility continue to be maintained as events 
impacting schedule occur and that decisions be made with the goal of 
maximizing safety and results.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or the other Members may have at this 
time.
    Individuals making key contributions to this statement include 
James L. Morrison, Greg Campbell, Brendan S. Culley, Masha P. Pastuhav-
Purdie, Kea Vongvanith, and Alyssa B. Weir.

Appendix I:

                         Scope and Methodology

    To identify the risks and challenges NASA faces in completing 
assembly of the International Space Station by 2010, we

        <bullet>  analyzed key documents and testimonies by NASA 
        officials relating to the challenges associated with ISS 
        completion. This included: the delivery schedule for ISS parts 
        for assembly and the delivery schedule for replacement units, 
        the Space Shuttle manifest, budget documents and the strategic 
        maintenance plan, the ISS Independent Safety Task Force Report, 
        and previous GAO reports relating to the ISS.

        <bullet>  interviewed NASA mission officials to obtain 
        information on the status of the ISS. We also discussed these 
        issues with the International Partners (Canadian Space Agency, 
        European Space Agency and Japan Aerospace Exploration Agency) 
        to get their perspectives.

    To determine the risks and challenges NASA faces in providing 
logistics and maintenance support to the International Space Station 
after 2010, we

        <bullet>  analyzed documents related to the up-mass and down-
        mass capabilities of the International Partners and SpaceX 
        vehicles, the shortfall in ISS up-mass for re-supply and 
        sustainment, the new vehicles that will support ISS NASA's 
        plans for using Russian vehicles to support ISS through what 
        NASA refers to as its ``exemption,'' and the impacts to the 
        utilization of the ISS.

        <bullet>  We interviewed key NASA officials from NASA 
        Headquarters, the Space Operations Mission Directorate, NASA's 
        Commercial Orbital Transportation Services program, and the ISS 
        program officials, and interviewed officials representing the 
        International Partners.

    To accomplish our work, we visited and interviewed officials 
responsible for the ISS operations at NASA Headquarters, Washington, 
D.C., and the Johnson Space Center in Houston, Texas. At NASA 
Headquarters, we met with officials from the Exploration Systems 
Mission Directorate and the Space Operations Mission Directorate, 
including representatives from the International Space Station and 
Space Shuttle programs. We also met with ISS and Space Shuttle mission 
officials at the Johnson Space Center.
    We conducted this performance audit from July 2007 to April 2008, 
in accordance with generally accepted government auditing standards. 
Those standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

                   Biography for Cristina T. Chaplain
    Ms. Chaplain currently serves as a Director, Acquisition and 
Sourcing Management, at the U.S. Government Accountability Office. She 
has responsibility for GAO assessments of military and civilian space 
acquisitions. Ms. Chaplain has also led a variety of DOD-wide 
contracting-related and best practice evaluations for the GAO. Before 
her current position, Ms. Chaplain worked with GAO's financial 
management and information technology teams. Ms. Chaplain has been with 
GAO for 17 years. She received a Bachelor's degree, magna cum laude, in 
International Relations from Boston University and a Master's degree in 
Journalism from Columbia University.

    Chairman Udall. Thank you.
    Dr. Sutton.

 STATEMENT OF DR. JEFFREY P. SUTTON, DIRECTOR, NATIONAL SPACE 
                 BIOMEDICAL RESEARCH INSTITUTE

    Dr. Sutton. Mr. Chairman, Judge Hall, and distinguished 
Members of the Subcommittee, I thank you for the opportunity to 
testify here this morning.
    I have the distinct honor of serving as the Director of the 
National Space Biomedical Research Institute or NSBRI. And NASA 
established NSBRI in 1997, and was charged to lead a national 
effort for accomplishing the integrated biomedical research 
necessary to support a long-term human presence development and 
exploration of space. That mission has not changed since 
inception.
    And over the past decade NSBRI has brought unprecedented 
intellectual and institutional resources to help NASA address 
and reduce high-priority biomedical risks. And the focus has 
been on the team approach to develop counter measures or 
solutions to health-related problems in the physical and 
psychological challenges that men and women face on long 
duration space flights.
    NSBRI is a success story for NASA. The Institute attracts 
outstanding scientists, physicians, and engineers across the 
country and coordinates them to advance in a cost-effective way 
biomedical science and technology for space and to apply 
results to enhance life on Earth.
    We are excited by a number of things. We are excited by the 
scientific and technological achievements, by the growing 
number of young people who are participating in the science and 
education programs, and also by the accomplishments of the 
talented people in this endeavor. And we are particularly proud 
at this moment, Dr. Michael DeBakey, from Baylor College of 
Medicine in Houston, and Dr. DeBakey is a world-renowned heart 
surgeon, innovator, military veteran, leader, and humanitarian, 
and we are privileged that he is a dedicated and active member 
of the NSBRI Board of Directors. And yesterday in a magnificent 
ceremony in the Rotunda, the President and Congressional 
leadership presented Dr. DeBakey with the Congressional gold 
medal, the most distinguished award bestowed by the United 
States Congress, and on behalf of NSBRI, I thank you for your 
support of the award to Dr. DeBakey.
    In my written testimony there are responses to a series of 
thoughtful questions posed by the Subcommittee concerning 
biomedical research and the ISS. What I would like to do here 
is to talk about three points that cut across the questions and 
the responses.
    Now, the first is that ISS is critical to biomedical 
research needed to prepare for exploration beyond low-Earth 
orbit.
    The second point is that there is a vibrant portfolio that 
exist right now in ground base biomedical research that is 
maturing toward flight studies for ISS.
    And the third is that biomedical research for exploration 
leads to advances that enhances life on Earth. Let me talk 
about these three points in turn.
    There is a broad range of human health risks associated 
with extended operations in the microgravity environment of 
space, and I know that Members are familiar with these examples 
being accelerated bone loss, muscle atrophy, changes in 
cardiovascular function, altered immune responses, sensory 
motor adaptations, issues concerning habitability, and a 
variety of other issues. And also how to deliver medical care, 
to provide medical capabilities in this environment.
    We are familiar with how imaging has impacted medicine on 
Earth, the ability to make accurate diagnoses, to provide 
treatment. During missions in remote harsh environments, 
whether on Earth or in space, it is important to make the best 
possible assessment in the event of a medical contingency.
    Since treatment decisions pertain not only to the affected 
crew member but also to the other crew members, the consumables 
and possibly the mission itself, in a collaboration involving 
academia, government, and industry, ultrasound training for 
non-physician crew members aboard the ISS has led to several 
scientific publications demonstrating the utility of ultrasound 
for health monitoring and medical imaging in space.
    The findings and subsequent lessons learned unquestionably 
required ISS crew and resources could not have been done 
without ISS, and this project exemplifies how the ISS provides 
unique and invaluable capabilities. Their applications to Earth 
in military medicine, in the ability to make diagnoses in 
remote settings, air ambulances, and also applications to 
sports medicine, and in fact, the technologies were used during 
the last Olympic games.
    The second point that I wish to make pertains to the way in 
which the NASA's human research program and NSBRI are working 
together. There is a significant portfolio of projects 
involving 70 universities in 26 states that are moving the way 
through a pipeline of counter-measure and technology 
development from research to development, to testing, to 
evaluation, and eventual operational integradation. There is a 
user panel of astronauts, current and former and flight 
surgeons, who are working together. I agree with Mr. 
Rohrabacher's statement that there is a need to conduct 
research on Station. This is why NSBRI was created, from the 
standpoint of NASA leveraging off the Nation's investment and 
biomedical research and being able to move projects to testing 
in the Space Station.
    The third point that I wanted to make concerns the spin-
offs, the first panel eloquently addressed this issue in the 
context of unique conditions of space, leading to novel 
insights and discoveries and also to spin-offs. And I want to 
echo the comments of the other witnesses and thanking NASA and 
the engineers for their ingenuity, hard work, and expertise in 
making ISS a reality. There is really an unprecedented 
opportunity here from the perspective of biomedical research, 
and that this endeavor will be collaborative international and 
would advance our nation as we build upon our legacy of 
innovation, discovery, and leadership.
    Thank you very much for your time.
    [The prepared statement of Dr. Sutton follows:]
                Prepared Statement of Jeffrey P. Sutton

Mr. Chairman, Ranking Member and Distinguished Members of the 
Subcommittee:

    Thank you for the opportunity to testify on the subject of ``NASA's 
International Space Station Program: Status and Issues.'' Since 2001, I 
have had the privilege to serve as the Director of the National Space 
Biomedical Research Institute (NSBRI), a non-profit consortium 
competitively selected and supported by NASA to address and develop 
countermeasures for high-priority biomedical risks associated with 
long-duration human exploration of space.
    The International Space Station (ISS) provides a unique, invaluable 
resource for the U.S. and its international partners to conduct 
scientific research, develop and demonstrate innovative technologies, 
test and evaluate procedures, protocols and products, and operationally 
integrate hardware, software and other components to advance space 
exploration goals. Designation of the U.S. segment of the ISS as a 
National Laboratory, as specified in Section 507 of the NASA 
Authorization Act of 2005 (Public Law 109-155), underscores the 
importance of ISS as a facility for research and a means to enable 
exploration.
    In the ``Vision for Space Exploration,'' presented by President 
Bush on January 14, 2004, the use of ISS to support space exploration 
goals is highlighted, with one focus being to understand how the space 
environment affects astronaut health and capabilities and to develop 
countermeasures. The potential of ISS as an essential platform for 
biomedical and technology research to support long-term human 
exploration of space has been described in several recent reports, 
including but not limited to (1) ``Review of NASA Plans for the 
International Space Station,'' prepared by the National Research 
Council in 2006, and (2) ``NASA Report to Congress Regarding a Plan for 
the International Space Station National Laboratory,'' submitted in May 
2007.
    It is prudent for the U.S. to foster scientific and technological 
achievements utilizing the unique attributes of the ISS. Innovation and 
discovery contribute to American leadership and economic growth. 
Accomplishments in space help inspire the next generation of 
scientists, physicians and engineers, support U.S. competitiveness, 
facilitate partnerships and international cooperation, and lead to 
advances that enhance life on Earth. NASA and the Nation face many 
challenges. As construction of the ISS nears completion and three 
scientific laboratories become operational, the time is ripe to 
capitalize on our country's investment in the ISS and all that it has 
to offer.
    The present hearing examines the status of the ISS and issues 
related to its operation and utilization, including the planned and 
potential uses of the ISS to meet both NASA and non-NASA research 
needs. This testimony concerns itself with responses to a series of 
biomedical questions posed in the Subcommittee's invitation letter.

What biomedical research is needed to prepare for exploration beyond 
low-Earth orbit?

    In the 47 years since the first human flew in space, a significant 
amount of knowledge and experience has been acquired relating to the 
inherent risks associated with human space travel. Missions in low-
Earth orbit, especially long-duration flights aboard Skylab, Mir and 
ISS, have given insights into a broad range of human health risks 
associated with extended operations in the microgravity environment of 
space. Accelerated bone loss, muscle atrophy, changes in cardiovascular 
function, altered immune responses and sensorimotor adaptations occur. 
There are issues concerning proper nutrition, human-machine interfaces 
and habitability, neuro-behavioral and psycho-social factors, 
performance, sleep and chronobiology, radiation and medical care 
capabilities, including ineffectiveness of medication. Some risks, such 
as dust from the lunar or Mars surfaces, are unique to missions beyond 
low-Earth orbit. Not all astronauts are affected equally by the same 
risk or countermeasure, and individual differences need to be taken 
into account.
    An understanding of the risks and issues is critical to determining 
what biomedical research is needed. The Institute of Medicine (IOM) 
report, ``Safe Passage: Astronaut Care for Exploration Missions,'' 
released in 2001, recommended that all relevant epidemiological data on 
astronauts be captured, and that a long-term, focused health care 
research strategy be pursued concerning health risks and their 
amelioration.
    The Bioastronautics Roadmap (http://bioastroroadmap.nasa.gov), 
developed over the past decade by NASA in collaboration with the 
external biomedical research community, is consistent with this 
perspective. The Roadmap provides a framework for identifying, 
assessing and reducing the risks of crew exposure to the hazardous 
environments of space. It identifies 45 risks and assigns priorities to 
these for three reference missions: a one-year mission to the ISS; a 
month-long stay on the lunar surface; and a 30-month round-trip journey 
to Mars.
    NASA and its non-government organization partner, NSBRI, have used 
the Bioastronautics Roadmap as a framework to build a biomedical 
research portfolio focused on high-priority areas, such as accelerated 
bone loss, radiation, neuro-behavioral and psycho-social factors, and 
exploration medical care. More recently, the partnership has been 
elucidating a level of detail necessary to prioritize risks across 
physiological disciplines and to compare strategies for how to manage a 
given risk across mission operational architectures.
    Research on the ground and in space is needed to elucidate 
processes but the importance of accelerating countermeasure and 
technology development is also critical, as emphasized in an IOM report 
released in 2005 entitled ``A Risk Reduction Strategy for Human 
Exploration of Space.'' To prepare for exploration beyond low-Earth 
orbit, the report stresses the need to establish safe radiation 
exposure levels for all relevant risks. This sentiment is echoed in a 
2008 report from the National Research Council entitled ``Managing 
Space Radiation Risk in the New Era of Space Exploration.''
    By its nature, research needs are dynamic as knowledge about risks 
matures and countermeasures and other risk-reduction strategies are 
implemented. ISS as a research platform provides an unparalleled 
resource to define requirements for exploration needs and to support 
research, development, testing, evaluation and operational integration 
of deliverables to support crew health and well-being.

What progress has been made to date?

    Progress in biomedical research and development has been made in 
space and in ground-based investigations. Skylab, Space Shuttle 
(including dedicated life science missions such as STS-90 Neurolab), 
free flyers and the ISS have all pushed the frontier of biomedical 
knowledge and technology. Beginning with the arrival of Expedition 1 to 
the ISS in November 2000, and extending through the current Expedition 
17 (launched April 8, 2008 with an expected return to Earth in October 
2008) and Expedition 18 (expected launch and return in October 2008 and 
April 2009, respectively) missions, NASA reports a series of 
experiments devoted to human research and countermeasure development 
for exploration.\2\
---------------------------------------------------------------------------
    \2\ (http://www.nasa.gov/mission<INF> -</INF>pages/station/science/
experiments/Human<INF>-</INF>Research.html)
---------------------------------------------------------------------------
    A summary of these experiments with Earth applications follows:

        <bullet>  Bone and Muscle Physiology in Space Experiments 
        include research seeking to understand the effects space flight 
        on bone loss and muscle fatigue, kidney stone prevention, and 
        developing countermeasures, such as the use of medicines and 
        exercise. Potential Earth benefits include treatments and/or 
        cures for diseases such as osteoporosis and spinal cord 
        injuries.

        <bullet>  Cardiovascular and Respiratory Systems in Space 
        Experiments include research to understand orthostatic 
        intolerance, decompression sickness, and blood delivery to the 
        brain. Earth applications include improved treatment of low 
        blood pressure and prevention of cardiac deconditioning.

        <bullet>  Human Behavior and Performance Experiments include 
        research on crew interaction, understanding behavioral issues 
        and sleep cycles. Earth applications include improved treatment 
        of insomnia and improved behavioral performance of people in 
        high-stress situations.

        <bullet>  Immune System in Space Experiments include research 
        on developing new wound healing technologies, understanding and 
        monitoring immune system functions, and studying stress-induced 
        reactivation of viruses. Earth applications include wound and 
        tissue repair techniques that could prevent limb loss for 
        military and civilian populations and rapid detection of 
        stress-induced viruses, such as herpes, and improved treatment.

        <bullet>  Integrated Physiology Studies Experiments include 
        research on development of telemedicine strategies, nutrition, 
        and archiving of biosamples that will provide future research 
        opportunities. Earth applications include remote medical 
        diagnosis and treatment capabilities for rural health care and 
        greater understanding of nutrition on health.

        <bullet>  Microbiology in the Space Environment Experiments 
        include research on development of hand-held technology to 
        detect biological and chemical substances, understanding the 
        threat of pathogens inside spacecraft, and studying the effect 
        of reduced gravity on pathogens. Earth applications include 
        advances in vaccine development, new treatments of drug-
        resistant virus strains, and diagnosis for potential sources of 
        microbial contamination.

        <bullet>  Neurological and Vestibular Systems in Space 
        Experiments include research on facilitating recovery of 
        functional mobility after long-duration space flight, 
        understanding hand-eye coordination difficulties in space, and 
        studying medications to treat motion sickness. Earth 
        applications included improved treatment of neurological 
        diseases, more effective motion sickness treatment, and reduced 
        risk of falling in the elderly.

        <bullet>  Radiation Studies Experiments include research on the 
        radiation environment, effects of radiation on the brain, and 
        assessing the risk of genetic damage caused by radiation. Earth 
        applications include benefits for brain tumor treatment, 
        insight on the origin of specific gene mutations, and improved 
        radiation protection on military and civilian aircraft crews.

    A significant step forward by NASA in implementing an integrated 
biomedical research program to support the long-term human presence, 
development and exploration of space occurred slightly more that a 
decade ago. In 1997, NASA competitively awarded, and has funded in 
increments based on performance, a cooperative agreement (NCC 9-58) to 
the National Space Biomedical Research Institute (www.nsbri.org). NSBRI 
works in partnership with NASA's Human Research Program, that is part 
of Advanced Capabilities within the Exploration Mission Systems 
Directorate. NSBRI leverages the Nation's substantial investment in 
biomedical research and brings unprecedented intellectual and 
institutional resources to solve problems for NASA. The focus is on a 
team approach to developing countermeasures and deliverables in close 
collaboration with NASA (see Attachments A and B).
    NSBRI is a virtual institute that currently supports approximately 
65 coordinated and openly competed science, technology and education 
projects at 70 universities in 26 states. There is a well established 
pipeline of products, maturing through countermeasure and technology 
readiness levels, in preparation for flight testing, evaluation and, if 
appropriate, operational integration. Some projects have matured to 
flight, while the bulk of the effort is ground-based and serves as a 
source of biomedical research for the ISS National Laboratory.
    As a nationally acclaimed translational research institute, NSBRI 
adds unique value to NASA's Human Research Program. NSBRI is governed 
by 12 consortium members, with combined annual biomedical funding in 
excess of $3B from the National Institutes of Health (NIH). There are 
strong productive collaborations not only with institutes within the 
NIH, in the spirit of the recent NASA-NIH Memorandum of Understanding, 
but also with programs within the Department of Defense, Department of 
Energy, U.S. Naval Academy, and other entities. More than one-third of 
NSBRI projects actively engage industry, and there is an excellent 
education and outreach program spanning elementary through high school, 
undergraduate, graduate, and post-doctoral education, and continuing 
medical education efforts related to space. There is an eminent Board 
of Directors (Attachment C) and active involvement of current and 
former astronauts and flight surgeons (Attachment D).
    Examples of NSBRI supported science and technology projects 
include:\3\
---------------------------------------------------------------------------
    \3\ See http://www.nsbri.org/Research/index.html for a complete 
listing of projects.

        <bullet>  Understanding the harmful effects of space radiation 
        in exacerbating bone loss caused by microgravity, with 
---------------------------------------------------------------------------
        implications on Earth for patients receiving radiotherapy;

        <bullet>  Investigation of pharmacological countermeasures to 
        limit hand and muscle fatigue in space, with applications on 
        Earth to lessening muscle weakness following injury or surgery;

        <bullet>  Development and testing of a needle-free blood and 
        tissue monitoring device for health assessment, science and 
        medical care in space, with applications on Earth for use in 
        ambulances, intensive care units, battlefield settings and 
        monitoring of vascular function in diabetics;

        <bullet>  Research and applications of blue light to affect the 
        human circadian pacemaker, performance and adaptation to shifts 
        in work schedule, with applications on Earth to shift work;

        <bullet>  Delivery of a miniaturized time-of-flight mass 
        spectrometer for environmental monitoring and medical 
        assessment in space, with applications for homeland security;

        <bullet>  Research, development, testing and evaluation (aboard 
        the NASA Extreme Mission Operations underwater habitat) of a 
        psychomotor vigilance test for the objective assessment of 
        fatigue and stress in mission-critical activities (Principal 
        investigator awarded a NASA Distinguished Public Service Medal 
        in 2007);

        <bullet>  Development of a microdosimeter instrument, tested 
        aboard the MidSTAR-1 satellite, for real-time personal 
        radiation monitoring, with applications to radiation assessment 
        on Earth;

        <bullet>  Ultrasound training for non-physicians aboard the ISS 
        for health monitoring and medical imaging resulted in a NSBRI/
        NASA/contractor collaboration leading to the first scientific 
        publication from space,\4\ with applications on Earth for 
        remote-guided medical evaluation and sports medicine;
---------------------------------------------------------------------------
    \4\ Radiology 2005; 234(2):319-322.

        <bullet>  Development and testing of a high-intensity, focused 
        ultrasound technique for non-invasive, bloodless surgery, with 
---------------------------------------------------------------------------
        applications in space, emergency rooms and on the battlefield;

        <bullet>  Studies to determine oxygen requirements and means to 
        concentrate oxygen in hypoxic, harsh environments, with 
        applications on Earth to emergency and military medicine.

What role will the International Space Station play in addressing those 
questions?

    While short-duration flights and ground-based research, including 
the use of analog environments, contribute to biomedical research for 
space exploration, the ISS provides the only resource with the 
capabilities to conduct certain types of research and to advance 
countermeasures and technologies. There are two immediate strategic 
goals the ISS can fulfill in the area of biomedical research to address 
exploration needs. It will serve as a proving ground for scientific and 
technological product development of deliverables currently in the 
pipeline. These deliverables may address specific standards and 
requirements. Secondly, access to the ISS would foster new project 
opportunities that leverage off the portfolio of projects currently 
addressing exploration needs.

What is needed to maximize the utility of the International Space 
Station for conducting the necessary biomedical research?

    Affordable and reliable access to and from the ISS is key to the 
success of conducting the necessary biomedical research. Critical to 
this access is the availability of cost-effective transportation 
services.
    Given adequate access to and from ISS, it is essential to have a 
robust management structure and leadership for conducting and 
integrating science. Research aboard the ISS should be of the highest 
merit, with ample preliminary work to ensure success. There should be 
clear justification as to why the ISS is the best, or perhaps only, 
laboratory to conduct the research. Some biomedical research is 
fundamental and can only be performed in a microgravity environment. 
However, much of the necessary biomedical investigations for space are 
translational. They mature through a pipeline from research, to 
development, to testing, to evaluation, to operational integration. To 
maximize the utility of the ISS in this context, it is wise to link the 
ISS National Laboratory to the full spectrum of space-related research 
being conducted throughout academia, industry and government.
    Lastly, a countermeasure advancement process, developed 
specifically for utilization of the ISS National Laboratory, would be 
helpful to facilitate key research moving through the pipeline of 
development to advance to validation in space. Such a process will 
require strong program oversight and management rigor to assess the 
operational need and feasibility of the research, thereby maximizing 
the return on investment.

What, if any, critical enabling biomedical research for exploration 
cannot be done on the International Space Station and will have to be 
addressed by other means?

    While many areas of biomedical research for exploration would 
benefit from access to the ISS, some research is not suitable for ISS 
and needs to be addressed by other means. Four examples follow:

Radiation Studies--Studies toward countermeasure development against 
the acute and chronic effects of radiation cannot be fully conducted in 
low-Earth orbit, given the presence of the Van Allen belts. The 
radiation spectrum beyond low-Earth orbit can be emulated utilizing 
beams of high-energy heavy ions, such as those found at Brookhaven 
National Laboratory.

Long-duration Exposure to Reduced Gravity--The effects of microgravity 
on the body during long-duration missions are well documented (e.g., 
approximately one percent bone loss per month). However, the effects of 
long-term exposure to reduced gravity are not known. Gravity on the 
Moon is one-sixth of Earth's gravity and on Mars it is three-eighths of 
Earth's gravity. There are many open questions, such as whether extra-
vehicular activities in these gravitational environments obviate the 
need for supplemental exercise countermeasures.

Lunar Dust--Dust, such as on the Moon, poses an environmental risk that 
could result in mechanical failures in spacesuits and airlocks. Lunar 
dust is exceedingly small, making it easy to get deep into the lungs. 
The dust is littered with bonded shards of glass and minerals known as 
agglutinates, which have not been found on Earth. It is not known 
whether they can be expelled efficiently if inhaled.

Medical Emergency Management--Through the use of a high-fidelity 
patient simulator, astronauts and ground personnel involved in mission 
operations can practice management of medical emergencies. Ground-based 
simulation of medical contingencies complements activities to advance 
medical care capabilities that could be tested and evaluated aboard the 
ISS.

    In closing, as ISS construction nears completion, there is an 
unprecedented opportunity to conduct biomedical and other research, and 
to test and validate critical technologies for human exploration of 
space. This endeavor will be collaborative, international and will 
advance our nation as we build upon our legacy of innovation, discovery 
and leadership.

Attachment A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Jeffrey P. Sutton
    Jeffrey P. Sutton, M.D., Ph.D., is President and Institute Director 
of the National Space Biomedical Research Institute (NSBRI). He was 
unanimously appointed to this position in 2001 by the NSBRI Board of 
Directors. NSBRI partners with NASA to support science, technology and 
education at more than 70 universities across the U.S., with a focus on 
developing solutions to health-related problems associated with human 
space exploration. NSBRI also has extensive partnerships with industry, 
U.S. Government programs and international collaborators.
    Dr. Sutton guided the maturation of NSBRI into a premier, 
internationally acclaimed institute of excellence in translational 
biomedical research. Under his leadership, NSBRI has developed and 
continues to generate important and operationally-relevant 
countermeasures and deliverables to enhance health in space and on 
Earth. Partnerships with government and industry have tripled, and 
NSBRI is now a main portal to the extramural community for NASA-
sponsored human research. NSBRI's portfolio of projects is team-based 
and addresses high-priority areas, innovation and successful product 
development.
    Dr. Sutton has been at the forefront of several award-winning 
education and outreach initiatives in science, medicine and 
engineering. These programs inspire and support the next generation of 
space explorers, within the U.S. and abroad. He has streamlined 
business practices, and enhanced efficiencies and entrepreneurship.
    Dr. Sutton was born in New York City and holds an M.D. degree 
(1982), an M.Sc. in medical science (neuroscience, 1985) and a Ph.D. in 
theoretical physics (1988), all from the University of Toronto. His 
residency training was at Harvard Medical School. He is a Diplomat of 
the American Board of Psychiatry and Neurology, and a Fellow of the 
Royal College of Physicians and Surgeons of Canada. He practiced 
medicine for 19 years.
    Prior to his present position, Dr. Sutton was NSBRI Smart Medical 
Systems Team Leader from 1999-2001, and also served as interim Team 
Leader for the NSBRI Technology Development Team. He established and 
from 1995-2002 was Director of the Neural Systems Group at the 
Massachusetts General Hospital and the Harvard-MIT Division of Health 
Sciences and Technology. Dr. Sutton was on the faculty of Harvard 
Medical School from 1991-2002. He is currently on the faculty of Baylor 
College of Medicine and has been an affiliate faculty member in the 
Harvard-MIT Division of Health Science and Technology, Massachusetts 
Institute of Technology, since 1995. During his career, he has taught 
and mentored many students and physicians at various levels of 
training.
    Dr. Sutton's research expertise is in smart medical systems, 
computational neuroscience and neuroimaging. He has made significant 
contributions to these fields, is the author of numerous scientific 
articles and holds several patents. He has received many accolades, 
including a National Institutes of Health Scientist Development Award, 
a President's Citation from the Society of NASA Flight Surgeons, and a 
Harvard-MIT Division of Health Science and Technology Award for 
Clinical Medical Education Excellence. He has been a founder of several 
start-up informatics companies and holds a variety of advisory 
positions with academia, government and industry.

                               Discussion

    Chairman Udall. I thank the panel for that very important 
set of presentations.
    We are going to move right now to the first round of 
questions. I am going to recognize myself for five minutes.

                         Cost of ISS Operations

    I want to start with Mr. Gerstenmaier. In the interest of 
clarification, I wanted to ask you how much will the taxpayer, 
our taxpayers invest in the Station, including Shuttle flights? 
There were some comments made in the previous panels about the 
numbers. I want to make sure we had the correct number for the 
record.
    Mr. Gerstenmaier. Are you talking about the basic Space 
Station sustaining an operations budget on an annual----
    Chairman Udall. I am talking about all, I think the capital 
costs, the operational costs. There was a number of $100 
billion mentioned in the last panel. I am not sure that is 
correct, and I wanted to at least----
    Mr. Gerstenmaier. I would like to take that question for 
the record so we can get the details of what goes into that. 
There is a range of numbers that sits out there, and I would 
like to get a common basis and provide a detail.
    Chairman Udall. That would be helpful to the Committee, and 
if you would include the Shuttle flights, I think, in total. 
You could break those out, it would be useful.
    Mr. Gerstenmaier. And we can include that with 
transportation, with all the various pieces in there so then 
you could see what the investment is. But it would be, it is 
much better to do written than----
    Chairman Udall. I would agree.

                           Logistics Flights

    Let me continue questioning Mr. Gerstenmaier. I wanted to 
follow up on your statement that the approach will, to the 
Shuttle will, to the Station, I should say, will require living 
off spares flown up by the Shuttle and taking some limited 
degradation and ISS capabilities if there is a delay in the 
commercial services.
    In your engineering judgment, how do you pinpoint to 
analyze the contingency of logistics flights to bring critical 
spares to the ISS? Are they needed? If so, why?
    Mr. Gerstenmaier. Again, we have two contingency flights 
that sits in our manifest. Those flights deliver critical 
spares as you described, and the purpose of those spares are 
essentially to give us some margin if the commercial re-supply 
services are delayed a little bit, those spares are in place, 
so if a component fails, that critical component has a ready 
spare available on station to go ahead and replace it.
    It allows the commercial re-supply sector to be a little 
bit later in their delivery. So I consider those flights to be 
critical to us, very important for us.
    We also are monitoring actively what components are 
failing, and we are going to change kind of in real time 
exactly what components we put on those flights. So we have a 
candidate list of things we would like to fly today, but we 
reserve the right to change that around a little bit after we 
see how the actual hardware operates.
    And we have just activated a lot of our systems on the 
outside of Space Station. We are getting more runtime on the 
equipment, learning how to balance that, and we will position 
the proper spares that will give us the most longevity of Space 
Station to allow research to occur.
    Chairman Udall. Could you speak further to the risk, the 
level of risk that we incur if we didn't fly those two Shuttle 
flights?
    Mr. Gerstenmaier. It is difficult to quantify exactly. It 
is a function of how this, the current equipment operates and 
how well it performs. We see some components do very well, 
actually operate much longer than we have anticipated. We have 
seen some not work quite as well. The beta gimble, a large 
motor that rotates that tracks the sun with the outboard rays, 
and then there is a large alpha joint, a big joint about 10 
foot diameter, a steel ring that rotates that has some 
degradation in it. We are probably going to have to make some 
changes there. The control moment gyros that provide attitude 
to station, it was supposed to last about eight years. We have 
lost two of those in two or three years.
    So there is significant degradation in some components but 
then other components have run much longer than we have 
anticipated. Our judgment has to be how do you anticipate what 
those failures are, place them on the Shuttle, and then that 
gives us the robustness to continue.
    Chairman Udall. Are those flights a part of the manifest?
    Mr. Gerstenmaier. Those flights are, we treat them as part 
of the manifest. They are shown there. We don't have approval 
to fly those yet. We still need to seek approval to do that. 
They are budgeted, and we are planning those actively to be in 
the manifest, but they need to occur. We need to justify that 
they need to occur. Then they need to occur before the----
    Chairman Udall. Any back-up plan if we weren't to fly those 
two logistic flights?
    Mr. Gerstenmaier. Again, if for some reason those flights 
had to be dropped for some reason or they didn't occur for some 
reason or we weren't approved, given approval to fly those, we 
would anticipate what hardware we lose and then we would, 
again, provide back to the community the risks associated with 
not having those, that hardware based on the latest data at 
that time, and we would make an informed judgment about what we 
should do.
    Chairman Udall. Ms. Chaplain, do you care to comment?
    Ms. Chaplain. I agree with what has been said. I would also 
comment that if this does get pushed off to when the COTS 
vehicles are available, they might not necessarily have that 
kind of capability to take up some of these larger spares, and 
that would also constrain their ability to carry other things 
up to the Station, and that is already a tight area right now.
    Chairman Udall. Thank you for that insight.
    I see my time is expired. I want to recognize Congressman 
Hall for five minutes.
    Mr. Hall. Thank you, Mr. Chairman.
    Mr. Chairman, you mentioned the risks if we didn't fly 
those two flights, and I am sure you are talking about the 
flights that they have said they intend to fly. We just don't 
know their status. I think you pretty well straightened that 
out.

                          Soyuz Safety Issues

    I guess my question is what if we do fly some flights, and 
Mr. Gerstenmaier, with NASA's reliance on Soyuz during the 
five-year gap and could you provide us with the details of the 
two previous re-entry problems? And I think I was one of the, 
among the first to insist on some escape module money for the 
four birds, and I was always told it was either too heavy or 
too expensive. I couldn't accept too expensive, but too heavy I 
had to accept it.
    But we have that in the new bird that is coming along, and 
so I think reliability and safety are as much as what if we 
don't fly them that I am interested in. I guess if you give us 
the details of the two previous re-entry problems and what 
actions are being taken by the Russians to ensure the continued 
safety and reliability of Soyuz and is Soyuz a safe vehicle, 
and what insight does NASA have into the Soyuz Program?
    In five minutes.
    Mr. Gerstenmaier. Okay. I have talked a little bit about 
both of those flights. Both of the flights had a ballistic 
entry on the Soyuz vehicle and by ballistic entry instead of 
the Soyuz actively flying and controlling the trajectory with 
the lift vector pointed in a specific direction, it essentially 
just spins the capsule much like a bullet coming out of a rifle 
shell, and then essentially provides stability for the Soyuz 
and ends up significantly shorter in location on the Earth 
where it lands on the trajectory, but it is stable in the sense 
that it is on track. It is just short by 400 kilometers, and 
that is what we saw in both of these cases.
    It also appears that on both of these Soyuz vehicles we saw 
a failure of the instrumentation module and propulsion module 
to separate from the Soyuz vehicle. When the Soyuz departs from 
Space Station, it does a de-orbit burn, removes velocity from 
the spacecraft. It starts to re-enter then goes into an 
attitude in the orbital section, comes off, and the propulsion 
and instrumentation section also comes off and then it is just 
a little return capsule that returns.
    It appears that that lower section did not properly 
release. We saw that, the Russians saw that, and they showed us 
the data that conclusively that that was still attached. We had 
telemetry going across a cable that should have severed when 
that came loose. So we know for sure on the previous Soyuz that 
that occurred.
    On the most recent one it is subjecture that that has 
occurred. We need to get the capsule back to Moscow to 
understand that. The Russians will do that. The Russians have 
given us very good insight into their program. They understand 
the risk of what is going on. They are as concerned as we are 
about this event. The fact that we have similar occurrences of 
something that we thought we understood on two vehicles calls 
into question some design problems or maybe a manufacturing 
change, something has changed in the vehicles. The Russians 
will work that. They performed an independent commission. They 
will provide us with the results of that. We will, before we 
use the Soyuz for any other critical activities, we will make 
sure we have looked at the safety, we have looked at what we 
understand from this event that occurred, and we will make sure 
that we understand the risks that is going forward to our 
crews.
    Mr. Hall. With that I thank you. I want to ask you one 
other quick question. You may have to answer it in writing if I 
don't have the time.

                          Exception to INKSNA

    As you well know, in order for NASA to continue buying 
Soyuz spacecraft from the Russians during the upcoming so-
called gap, Congress has to provide a new exception to the 
Iran, North Korea, Syria, Nonproliferation Act called INKSNA, 
and that is a place where your recommendations and of these two 
groups here and Congress have to come together, and we have to 
do something together.
    What would be the consequences if this Congress were to 
fail to provide that exception this year? And would NASA be 
able to place a timely order with the Russians if legislative 
relief were provided by say next spring?
    Mr. Gerstenmaier. We really need that relief now so we can 
complete the negotiations with the Russians. The time that we 
understand and the Russians have provided to us, which we agree 
with, is about three years to have those vehicles manufactured. 
We need to get those contracts in place. We need that relief 
this summer so we can complete those negotiations and have the 
vehicle there.
    They are mandatory for us to keep a U.S. crew presence on-
board Space Station. We need a U.S. crew presence on-board 
Space Station to operate the U.S. segments. The U.S. segment 
then provides power, cooling, water, air circulation for the 
other partner modules, including some of the Russian segments. 
So we need a U.S. presence there to maintain the Space Station 
so we need our crew members there. The only way to get them 
there when the Shuttle retires, initially is the Soyuz vehicle. 
So we need that relief. It is, and it is mandatory this summer.
    Mr. Hall. And another alternative is that we might have to 
abandon the ISS. We don't want to do that. And the affect it 
has on our international partners. It is very, very important.
    I thank and I yield back my time.
    Chairman Udall. Thank you, Congressman Hall.
    The Chair recognizes Congressman Lampson.

                      Alpha-Magnetic Spectrometer

    Mr. Lampson. Thank you, Mr. Chairman.
    I may sound like a broken record, Mr. Gerstenmaier, when I 
talk about the AMS, the Alpha-Magnetic Spectrometer, but that 
is one of the things that there has been a great deal of hope 
that would go to the International Space Station. And presently 
it does not have a location on the manifest for a Shuttle 
flight.
    So I hope, first of all, that the two so-called contingency 
flights so, indeed, get funded and are made to happen. I think 
they are critically important.
    But is there a possibility first that the AMS can go up on 
a Shuttle before we end the use of the Shuttle Program? And I 
guess beyond that, what other experiment, either facilities or 
hardware that have been developed to support research 
investigations, have been completed but are not planned for a 
flight? And what, if any, plans does NASA have to fly that 
hardware to the ISS, free flyers or other microgravity 
platforms?
    Is there a lot? And who has participated in those things? 
Can you elaborate some on that for me?
    Mr. Gerstenmaier. Yes. In terms of the AMS, right now we 
don't see a spot in the current Shuttle manifest remaining ten 
flights to fly the AMS, and that is because of the discussion 
we just had on the criticality of the spares. The problem is if 
I took those spares off and replaced it with AMS, then I have 
hurt the basic infrastructure that is needed on-board Space 
Station to support the AMS.
    So in other words, AMS needs power, it needs data, it needs 
cooling. If I don't fly the spares that could provide power, 
data, and cooling and have to take those off for AMS, then AMS 
is on-orbit, but it may not be able to be supported by Space 
Station.
    So I need those flights to fly the spares.
    Mr. Lampson. But now those don't include the two 
contingency flights?
    Mr. Gerstenmaier. No. Those two contingency flights are for 
those spares I just described.
    Mr. Lampson. They are full. So even beyond the 
contingencies we don't have a place for the AMS.
    Mr. Gerstenmaier. Not in the existing manifest with those 
two contingencies.
    Mr. Lampson. What if----
    Mr. Gerstenmaier. There is not room.
    Mr. Lampson.--what about the other facilities and 
experiments and such?
    Mr. Gerstenmaier. The other facilities, I don't think there 
is any facility that is actually on the ground ready to be 
flown. There are ones that have been cancelled earlier like the 
large centrifuge module that was talked about earlier. That was 
cancelled very early in its development phase or not very early 
but in its development phase, and it is in nowhere ready 
condition to go fly.
    We do have many facilities scheduled on the remaining 
Shuttle flights on the multi-purpose logistics flights. There 
is a combustion rack that is going to go up. There is a window 
observation facility that will fly.
    So the basic research racks that were originally designed 
are still present on the manifest, and they are still there. 
Our goal is to outfit Space Station with the best racks we 
could to provide a wide variety of research capability for 
Space Station, and that is the goal we are still on, and we 
still have plans for those equipment.
    But I will take it for the record to go investigate a 
little bit deeper to see if there is anything that is completed 
that is not getting to fly. But my recollection is there is 
none.
    Mr. Lampson. But is it worth this Congress giving 
consideration to the additional money necessary to get those 
things, even if it is just down to the AMS, and I think there 
are some other things related and otherwise. Is it worth our 
country to look at the potential investment necessary for the 
hope of the return that would come from these things?
    Mr. Gerstenmaier. Again, that is tough for me to pass 
judgment on. I am an engineer who builds the basic laboratory. 
I think it would be better posed to the scientists and the 
researchers associated with AMS than to myself.
    Mr. Lampson. Thank you. Thank you for that. The candor. I 
appreciate it. I really think that we have set some unfortunate 
policy along the way, and we really have been shortsighted on a 
number of things that we have done. Perhaps if we would have 
finished the crew return vehicle when we did the X-38, if you 
all remember that, that we shut down prematurely, we were at 
the end of its development, and we actually spent more money to 
shut it down than we would have to fly it. And perhaps that 
could have been used today to have been the crew return, I 
mean, crew exchange vehicle.
    So I hope that we are getting our ducks lined up properly. 
I would sure like for us to give consideration as this panel 
and as a Congress to what we can do to identify other of those 
pieces of hardware, and I think we also have to consider what 
we have done as far as relationship is concerned of the nations 
that spend more than a billion dollars just on that one 
project, for us to renege on our promise to help put it up 
there to completion.
    Mr. Chairman, I wanted to editorialize there at the end.
    Mr. Hall. Would the gentleman yield just one moment?
    Mr. Lampson. I would indeed.
    Mr. Hall. Part of the problem is the expectations of a lot 
of universities that have put considerable work and requests in 
and were promised certain things on certain flights----
    Mr. Lampson. Yeah.
    Mr. Hall.--that have not been flown. Where it is important 
to go with our international allies, it is also important to 
keep the word with the universities. That is the reason we need 
these two flights if we can get them. Texas A & M being one in 
particular that you are very interested in protecting.
    Mr. Lampson. Absolutely.
    Mr. Hall. And I yield back my time.
    Mr. Lampson. And reclaiming my time. Thank you very much. I 
think it is critically important for our reputation among other 
nations of the world and if we are going to entice countries to 
want to work with us on other science-related activities, that 
if we say we are going to do something, we ought to keep our 
word. We ought to do it. And I guarantee you that when we make 
that commitment, the return to us is going to be no different 
than what it was during the Apollo years. We will get so much 
back, more or beyond the investment that we make to make those 
things happen. It will be extremely worth our while.
    I hope and pray that we don't lose our position to other 
nations in this space race.
    I yield back my time. Thank you, Mr. Chairman.
    Chairman Udall. Thank you, Mr. Lampson. It has been said 
you give two Texans a lever, you can move the world. We are 
going to continue to try to find you all a lever, so you can do 
so.
    The Chair recognizes Congressman Rohrabacher for five 
minutes.

                  Russian Cooperation and Capabilities

    Mr. Rohrabacher. Maybe you could tell us about the 
willingness now of the Russians and their cooperation to meet 
the challenges that the Space Station, or excuse me, the 
retirement of the Shuttle, are going to present? Is there a 
willingness on the part of the Russians or a lack of 
willingness on the part of the Russians to expand our 
cooperation to make up for that loss?
    Mr. Gerstenmaier. I think we have really come to work 
together as an international partnership. When we had the 
Columbia tragedy and the Shuttle was lost, and we lost our 
transportation capability to Space Station for a temporary 
period of time, the Russians rose to that challenge and 
provided us with Soyuz vehicles and Progress vehicles that 
essentially kept Space Station viable during that period. So 
during those two years when we were not flying the Shuttle, if 
it were not for the Russians and their support to us, we would 
not have had a Space Station.
    As we go to the future, they need our crew on-board Space 
Station as much as anyone does because I described, you know, 
we provide power to their segment, and we provide attitude 
control for the entire Space Station, which saves them 
propellant. We have many synergistic things that we share with 
them back and forth, so they need our U.S. crew presence there. 
They recognize they can't maintain the U.S. segment on their 
own.
    So they will help us in that venture, but, again, they are 
going to want compensation in terms of financial contract with 
us, and we will work with them to work out the details.
    Mr. Rohrabacher. Are they capable of delivering spare parts 
and the other type of things that are necessary to maintain the 
Station?
    Mr. Gerstenmaier. They are capable of delivering the spares 
needed for their segment and to keep it operating. For our 
segment we will use the commercial re-supply services to 
deliver those components to Space Station for our equipment 
that needs to be----
    Mr. Rohrabacher. If it is, we don't have that capability 
now.
    Mr. Gerstenmaier. We do not have that capability now. We 
can also use the Automated Transfer Vehicle that the Europeans 
are building and the Japanese are building an----
    Mr. Rohrabacher. Which they don't have the capability now. 
The only people now who have got the capability are the 
Russians. Is that correct?
    Mr. Gerstenmaier. No. The ATV recently docked to Space 
Station. We brought it up so we have proven at least one time 
that that is a good capacity. It performed exactly the way it 
should. We flew it in within 10 meters, backed it back out, 
flew it back and successfully docked, and it is viable.
    The Japanese have a full up test, propulsion test article 
they are test firing in Japan. Their vehicle is scheduled to 
fly next year.
    Mr. Rohrabacher. But this is, I am talking about something 
that is online, not something that we have done once.
    Mr. Gerstenmaier. The thing that is online is the ATV.
    Mr. Rohrabacher. Okay. And so that will, that capability 
will permit us then once the Shuttle is retired, to deliver 
these spares that we need?
    Mr. Gerstenmaier. We are going to need a combination of 
services when the Shuttle is retired. We are going to need the 
ATV, the HTV, and commercial re-supply.
    Mr. Rohrabacher. Okay. Let me note that to the degree that 
we are not, that we have been shortsighted, and to the degree 
that we have been shortsighted in some of the decisions that we 
have been making, number one, we, of course, it was hard to 
project that we would lose Shuttles as we have. And also let me 
just note that Congress, this body here, this committee no 
differently, and others have been unwilling to prioritize. It 
is not that there is not enough money being spent. It is just 
we have not prioritized what spending would be, so whatever it 
is that we are lacking, I think that we could trace it back to 
the fact that there are things that we are unable to say no to 
that should have less priority than, for example, the 
successful completion of this space station mission, this 
project that we endeavored to move forward on 20 years ago.

                          Additions to the ISS

    We heard about today microscopic imaging and storage would 
be two things that would be added that would help us be, 
utilize this great asset to a way that we could actually 
achieve more.
    Are there any thoughts of what it would cost to provide 
that to the Station?
    Mr. Gerstenmaier. We have a micro, we have a minus 80 
degree freezer that is currently on-board Space Station that 
can provide I believe the cold storage. We need to talk to Dr. 
Nickerson and understand exactly what her needs are.
    We also have some small centrifuges, not large, but small, 
that may provide some other information that she could use. So 
we have some dialogue I think we need to have with her and her 
needs to see what is already available. They may not be our 
equipment. They may be European equipment or maybe Japanese 
equipment that we have access to. We need to work with the 
Committee to make sure we understand what their needs are and 
see what is available.
    Mr. Rohrabacher. And indeed, if these things will, if there 
are additions to the Space Station, that will have great value 
as we heard from Mr. Pickens today. There is a great value to 
be achieved from what we have constructed. Now, if by adding a 
couple million dollars of a piece of equipment here or there to 
achieve billions of dollars worth of return, it would seem to 
me that we need to codify that and to go down and understand it 
and perhaps even the private sector might be interested in 
investing a $10 million piece of equipment or something like 
that that cost a certain amount to put it on the Station. If 
there is going to be a return from the private sector, maybe 
these private sector entities might even be willing to invest 
in that.
    We should be thinking creatively out of the box and 
especially we should be thinking about how we can work with the 
Russians.
    Oh, we have another round of questions, so that is, but we 
should be thinking of a way we could work with the Russians 
constructively.
    Mr. Chairman, I will be visiting Russia at the end of May, 
and I am meeting with their space people, also meeting with the 
space people in Berlin, and any type of guidance that NASA 
would like to throw in my direction as to what we can do to try 
to further the cooperative spirit that would be mutually 
beneficial, I am open to suggestions.
    So thank you very much.
    Chairman Udall. I thank the gentleman. I would note that we 
have about 10 minutes left. We have to vacate the hearing room 
around 12:30 to prepare for another hearing at 1:00. That will 
leave us 10 minutes of a round of questions from the Chair and 
from the Ranking Member if he so desires.
    Let me turn--so the Chair does recognize himself for five 
minutes.

                            INKSNA Amendment

    Let me go back to what Chairman Hall mentioned. Mr. 
Gerstenmaier, NASA's amendment would remain in effect until the 
end of the International Space Station's life. What would be 
the impact if a shorter time period were written into the 
statute, for example, January, 2016?
    Mr. Gerstenmaier. We have two aspects we need. We need the 
crew transportation, and we need that until either a commercial 
capability comes on line or our CRV comes on line, and we could 
no longer need that exception after those vehicles are 
available.
    For other small things such as docking mechanisms, some of 
our toilet activities, those kind of things that we purchased 
from the Russians, we need some small sustaining stuff. We do 
some small engineering studies with the Russians. Those kind of 
activities need to be around for the life of Space Station.
    So they are small. They are very low-dollar value, but 
there are some engineering analysis, studies sustaining 
engineering kind of thing that need to be there throughout the 
life of Station. So we have tried to structure our language 
such that it meets those two requirements. It ends when we no 
longer need the capability, but the exception continues for 
those other small items that are needed for the life of 
Station.
    Chairman Udall. I need to pursue this line of questioning 
further. The proposed amendment would exclude from the 
exception any payments for crew transportation or rescue 
services provided by Soyuz vehicle once, number one, the U.S. 
Orion crew exploration vehicle reaches full operational 
capability, or a U.S. commercial provider of crew 
transportation rescue service demonstrates the capability to 
meet ISS requirements.
    When do you envision full operational capability for the 
CEV vehicle?
    Mr. Gerstenmaier. I think our current planning shows it 
being in 2016, or so. The first flights are in 2015, and then 
about one year of other things until we get to full operational 
capability. I know that is at the end of the Space Station 
life, but we would see how that comes about.
    We are looking at some things to see if there is some 
things that we can do to advance. We have some internal 
schedules that are looking--we will see how that plays out. And 
commercial, it is really probably better asked to the 
commercial sector what they think their schedules are for this.
    Chairman Udall. Regarding the possibility of U.S. 
commercial crew transportation and rescue services, what 
specifically would those providers need to demonstrate to meet 
the provision? I know you have spoken to that, but I want to 
make sure we are as clear as possible for the record.
    Mr. Gerstenmaier. Again, I think the recent Soyuz 
experience has shown us how difficult this environment is we 
are flying in. This return was, you know, the Shuttle, the 
Soyuz vehicle has been around for 30 years or so. This is a 
tough environment going from 17,000 miles an hour down to zero 
landing on the Earth. And it is not trivial. They need to show 
us that there is robustness in their systems designed to take 
and accomplish that re-entry, that it is safe to return. They 
need to show us that they can stay docked on-board Space 
Station for a six-month period, and then perform that re-entry 
exercise.
    So there is many engineering assessments and evaluations 
that we need to see, as we would for our own vehicle to make 
sure that the vehicle is really viable in performing the design 
it wants, and it can safely transport our crew to and from 
Station.
    Chairman Udall. Amendment would also allow NASA to obtain 
ancillary goods and services from Russia in addition to crew 
transport and rescue. Just how important is it for NASA to be 
able to purchase unique tools from Russia, and would the safe 
operation of the Station be in jeopardy if those services were 
not available?
    Mr. Gerstenmaier. Those services are extremely important to 
us or are mandatory for us. There are in a whole variety of 
areas. We use an air-safe pump that actually pumps down the 
atmosphere of our air lock to go do space walks. That is a 
Russian-provided pump. We need to keep that up and operating so 
we can continue to use the air lock to go out and do space 
walks.
    So and there is a variety of components I can give you that 
are small but are Russian provided that need to be there for 
the life of the Station. So I would say that that is critical 
to the long-term viability of Space Station.
    Chairman Udall. NASA has indicated that relief through the 
life of the ISS may be necessary even after a U.S. commercial 
capability is available because some potential providers have 
Russian contractors, Russian-supplied hardware, or other 
relationships with the Russian entities that could trigger 
INKSA's extraordinary payment prohibition.
    Would you provide any specifics?
    Mr. Gerstenmaier. Some of the potential bidders for the 
commercial re-supply services, they use Russian components, 
they use Russian engines, and they would, I think be subject to 
the INKSA legislation, so they are going to need relief in that 
same manner. So some of these things, even Atlas V uses an RD-
180 engine underneath it. If that becomes one of the options 
for the commercial re-supply that gets bid back to us in this 
request for proposal, then that would potentially fall under 
this INKSA restriction, and they would require relief as well.

                         Soyuz Landing Problems

    Chairman Udall. I have completed this line of questions. I 
would, I just have a few second. I wanted to, kind of a 
personal interest. You talked about the Soyuz landing 400 
kilometers short of the designated landing area. This is on the 
plains of Cossack, the high steppes. I couldn't help but think 
about Colorado. If you landed 400 miles, 400 kilometers short 
of the landing zone, you have 1,400 foot peaks on the western 
side of Colorado, about 400 kilometers from where I think you 
would try and land. That could cause an additional problem, but 
in the high steppes you have a lot of open terrain I assume.
    Could you identify the situation for me a bit more?
    Mr. Gerstenmaier. There is a lot of land that is open.
    Chairman Udall. And I know you were just there, so you can 
speak from personal experience.
    Mr. Gerstenmaier. It is not nearly as pretty as the 
mountains of Colorado, but it is nice for landing. It is nice 
and flat, and there is not much out there. I think there is one 
power line. They did land near some farmers that were burning 
some grass off the steppes, which added a little more interest.
    Chairman Udall. Yes. The story was the astronaut team 
opened the hatch, peered out, and immediately closed the hatch 
again as this fire moved toward them. Is that right?
    Mr. Gerstenmaier. That is true. They saw the burning, and 
we are still not sure exactly what caused the burning. The 
parachute itself was consumed. It appears that it blew down 
into an area where the grass had been previously burned, and 
the parachute caught on fire. The crew saw the fire, closed the 
hatch, waited until the fire extinguished itself, and then 
opened the hatch. And by that time the Cossack farmers in the 
area were there to help the crew and assist them----
    Chairman Udall. Thank you for that----
    Mr. Gerstenmaier.--exiting the spacecraft.
    Chairman Udall.--narrative. We have about five minutes 
left. I want to recognize the Ranking Member for five minutes 
to wrap things up from his point of view, and then we will 
conclude the hearing.
    Mr. Hall. Thank you, sir, and I will take the five minutes. 
I just want to compliment this group here. Thank you very much.
    You know, I have counted one, two, three, four, five, six, 
seven, eight, nine past Chairman of this committee, and I have 
worked with seven of them. I think the one I didn't work with 
was Olin Tiger Teague, who first started really the NASA 
thrust. And my kids think I was here with Overton Brooks, but I 
wasn't here in the teens.
    But I want to recognize Mr. Gerstenmaier. You have carried 
out the book on you. You are the best doggone NASA program 
manager we have ever had, and I want to thank you and thank for 
your, for the gifts of all three of you and the other members.
    I yield back my time. Thank you, sir.
    Chairman Udall. I thank the Ranking Member.
    The previous panel, Judge Hall talked about longevity of 
the human lifespan and the health challenges we face, but I 
think they ought to put you in the program to find out why you 
are so robust and so engaged and so energetic. We may not need 
to know more from outer space if we can study you.
    Mr. Hall. You know, if the dean of the United States House 
of Representatives is the oldest, I am the dean.
    Chairman Udall. You are the dean in my book.
    Mr. Hall. And I run three miles every morning, do about 50 
sit-ups, and I can outwork any of the rest of those guys over 
there.
    Chairman Udall. I should probably leave it there. I think 
Judge Hall, though, probably meets the requirement. My father-
in-law lived to be 90, and I asked him for his secret. He used 
to like to drink a little wine, eat a little chocolate, but he 
got up every morning and walked two or three miles and worked 
out, and he said, my secret is everything in moderation, 
including moderation, and I think maybe that fits what I know 
of Judge Hall.
    Again, on a less serious note, I want to thank all the 
witnesses for being here today. This is very, very important 
testimony, helpful to the Committee as we move forward.
    If there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Subcommittee may ask of the witnesses.
    Without objection, so ordered.
    In addition, I would also like to include a statement for 
the record that the American Society for Gravitational and 
Space Biology is submitting for today's hearing. Without 
objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Edward B. Knipling, Administrator, Agricultural Research 
        Service, U.S. Department of Agriculture

Questions submitted by Chairman Mark Udall

Q1.  What do you see as the most significant challenges with respect to 
the Department of Agriculture's involvement in the ISS National 
Laboratory and how should those challenges be addressed?

A1. The two major challenges to USDA's participation in research on the 
ISS are funding and relevancy. Although the program is designed to 
provide free access to the ISS, considerable funds must be expended by 
the USDA to develop the experiment intellectually and physically. 
Technical expertise for working in microgravity would have to be 
developed by USDA scientists. This work is not currently programmed; 
therefore, any additional funds would have to be obtained from other 
programs or industrial partners. Relevancy of many possible experiments 
is difficult to assess because of the unfamiliar potential of work in 
microgravity.

Q2.  How can the use of the ISS National Laboratory help improve 
American agriculture?

        <bullet>  Is the research that USDA intends to conduct on the 
        ISS at the level of basic research, applied research or both?

        <bullet>  What type of outcome would the USDA require in order 
        to characterize its ISS utilization as successful?

A2. The level of work discussed by USDA is at both basic and applied 
levels. Successful ISS utilization would ultimately be characterized by 
USDA as having solved a problem for American agriculture. Interim 
success would be characterized by USDA as having developed new 
scientific knowledge that demonstrates significant promise for solving 
a problem of American agriculture.

Q3.  How significant is the need to be able to return cargo from the 
Space Station--for example, research samples or lab equipment--for the 
type of research initiatives you expect to pursue on the ISS? What are 
the implications if this return cargo capability is not available?

A3. Some experiments would benefit from the return of cargo to the 
Earth. For example, one hypothesis proposes that cells induced to grow 
into a functioning organ in microgravity would transform to cells 
capable of doing the same at Earth gravity. Returning the cells to 
Earth would be the only way of evaluation. On the other hand, 
behavioral tests of insects or documentation of plant growth would not 
require the return of any material to Earth.

Q4.  There has been no commitment by the current Administration as to 
how long the U.S. will participate in the International Space Station 
program, although the Administration's budget plan for NASA would end 
funding for the program after 2016. On the other hand, NASA has 
indicated in previous testimony that it sees no technical or 
operational barriers to continuing ISS operations until 2020. What 
service life do you think would be optimal or required for the types of 
research activities that you envision the Station being utilized for?

A4. The longer service life of the ISS (until 2020) would be better for 
agricultural research. Very little agricultural research has been done 
in microgravity, therefore more study will be required to move from 
elementary to advanced studies.

Q5.  Dr. Stodieck indicated in his prepared statement that three 
actions are required for the ISS National Laboratory to be successful:

        1)  creation of an independent management organization;

        2)  provision of modest funding to support utilization; and

        3)  assurance of reliable and frequent transportation to and 
        from the ISS.

        <bullet>  Do you agree that these are required actions 
        necessary to ensure the Laboratory's success?

        <bullet>  If not, could you please discuss the priority steps 
        that you believe need to be taken?

        <bullet>  What, in your view, would be an effective mechanism 
        for coordinating and managing the use of the ISS National 
        Laboratory?

A5. The creation of an independent management organization might be 
useful to promote the best research on the ISS; however, other 
organizational models (e.g., a department within NASA) would probably 
also function well. ARS generally does not have sufficient unobligated 
funding to pay for the development of experiments for the ISS, and thus 
provisions for funding augmentation to support ISS utilization would be 
helpful. Those experiments will require payload costs ($20K per 
kilogram) and engineering costs to develop automated, self-contained 
experimental systems (likely at least $200K per experiment). Regular 
and frequent transportation to the ISS would be necessary for 
continuous experiments, but not for the single-use experiments 
discussed so far.
    The priority steps for developing agricultural experiments on the 
ISS are:

        1)  Define the technical parameters of work on the ISS; 
        specifically, the space available, the potential time frames of 
        experiments, and the possibility of manual participation by 
        astronauts.

        2)  Identify experiments and strategic research directions that 
        are considered mutually valuable.

        3)  Find funding for priority experiments.

        4)  Integrate the experiments into the program requirements of 
        ARS.

    The ARS portion of research on the ISS could be effectively managed 
by a committee formed from ARS National Program Staff with 
representatives from NASA.

Questions submitted by Representative Tom Feeney

Q1.  During the upcoming five-year gap, it appears there will be no--or 
very limited--ability to bring back research samples, experiments, and 
other materials from station. What are your thoughts about the 
usefulness of ISS as a laboratory if there is no down-mass capability? 
Will the inability to return research samples to Earth seriously 
jeopardize the attractiveness of using ISS to carry out research? What 
steps can research take to compensate?

A1. The lack of a down-mass capability will not inhibit many kinds of 
experiments that are more oriented toward basic science rather than 
product development. Experiments that gather data in place and that do 
not involve returning samples to Earth could have good relevance.

Q2.  Several witnesses recommended. that NASA identify an organization 
to manage research conducted on ISS. How does NASA manage ISS research 
today, and how would a newly established research management 
organization differ from the current model?

A2. ARS is unable to answer this question, since it concerns NASA 
management. From an ARS perspective, the current National Program Staff 
would be the logical administrative mechanism for coordinating 
research.
                   Answers to Post-Hearing Questions
Responses by Louis S. Stodieck, Director, BioServe Space Technologies; 
        Associate Research Professor, Aerospace Engineering Sciences, 
        University of Colorado at Boulder

Questions submitted by Chairman Mark Udall

Q1.  Your prepared statement notes that the success of the ISS National 
Laboratory will require ``regular, reliable and frequent transportation 
access to and from the ISS.''

Q1a.  What level of frequency and reliability in access to the ISS do 
you anticipate will be needed and why?

A1a. As the ISS is nearing completion, it is important to consider how 
to utilize this world-class facility in ways analogous to that of 
ground-based facilities. On the ground, research investigations can be 
designed, carried out and data analyses completed with a comparatively 
short turnaround. This allows results from each investigation to be 
fully incorporated into the next so that progress to a final result or 
product can occur within a reasonable timeframe. It also allows for 
investigation failures to occur, whether due to human error, flawed 
experiment designs, equipment problems and so forth, such that an 
investigation can be promptly repeated. To be most productive, 
transport of research equipment, supplies and samples to the ISS should 
occur at a minimum frequency of four times per year. A greater 
frequency would be even better.
    In the biotechnology, pharmaceutical and biomedical fields, the 
ability to analyze samples on board the ISS remains very limited. As 
such, return of materials processed on orbit will be essential for the 
foreseeable future. Ideally, the frequency and quantity of 
transportation return from the ISS (down-mass) should be 75-90 percent 
of the transportation to the ISS (up-mass).
    It is also important to try and provide a certain degree of 
reliability in transportation access capabilities. Reliable 
transportation refers to a number of important aspects including 
reliably meeting a launch schedule (launching on time), reliably 
delivering utilization cargo to the ISS (successful rendezvous and 
docking) and reliably returning materials to Earth. Ideally, reliable 
transportation should include late stowage and early retrieval access 
for time sensitive biological materials. Finally, the process for 
approving samples and equipment for transport to the ISS should be 
streamlined so that the transportation manifest can be kept flexible as 
late in the timeline as possible. This will accommodate late-breaking 
research results and optimized equipment and samples. In essence, the 
reliability goals and services for transportation access to and from 
the ISS should be viewed in a similar manner to commercial carriers 
such as Federal Express and the UPS.

Q1b.  What are the implications if this return cargo capability is not 
available?

A1b. Productivity on the ISS will be highly dependent on the frequency, 
range of services and reliability of available space transportation 
carriers. Without return capability, research studies will be limited 
to those that produce electronic data on the ISS that can be down-
linked to investigators on the ground.
    To give an example in the life sciences, modern sample analysis 
methods have become substantially based upon molecular analyses of 
messenger ribonucleic acid or mRNA expression. So called gene 
expression data or closely aligned protein analysis data have become a 
mainstay of modern biology. In theory, these data could be generated on 
board the ISS. However, to do so, samples must be processed using 
hazardous chemicals, multiple fluid addition and removal steps, 
centrifugation and heating and cooling steps to produce the final 
preparation that can then be analyzed. The analysis might be done using 
a spectrophotometer, plate reader, gene chip reader or another piece of 
similar equipment. Because of the use of hazardous chemicals, all steps 
must be done with redundant levels of containment in place to protect 
the crew member carrying out the process. Crew members will require 
extensive training on the sample processing and analysis protocols or 
will need to be trained life scientists. Some work has been done by 
NASA to develop automated methods for relatively simple molecular 
analyses in space but these technologies are still too limited to be of 
much value for a productive ISS laboratory. Without a significant 
investment in new sample processing hardware, the complexity of these 
analyses will dictate that the samples are processed on the ground by 
highly trained personnel.
    Conducting modern biotechnology and biomedical research and 
development on the ISS will be severely hampered without a sample 
return capability. If sample return after the retirement of the Shuttle 
is limited to the small down-mass capability of the Russian Soyuz 
vehicles, then the ISS will be unable to meet any significant 
commercial or academic R&D demand. The return sample requirements of 
NASA's exploration program alone will almost certainly exceed the Soyuz 
transportation capability. This will create a severe bottleneck for 
research and discourage potential users whether they are researchers 
from industry, universities, the NIH, the USDA or any other government 
agency. Effectively, the productivity of the ISS National Laboratory 
will be reduced to a fraction of what otherwise would be possible.
    In addition to trying to minimize this risk by fostering the 
development of commercial transportation capabilities, NASA could do 
more to support the development of flight certified equipment that 
could enable on orbit modern analytical methods.

Q1c.  Could you please elaborate on how you arrived at 20-25 percent as 
a potential figure for volume on ISS supply missions that is devoted to 
National Laboratory work?

A1c. Research investigations, samples and equipment are currently 
typically housed within mid-deck lockers on the Space Shuttle. 
Experiments are either stowed within a NASA--provided locker or the 
locker can be removed and replaced with a customer--provide payload. A 
mid-deck locker ``package'' is often referred to as a mid-deck locker 
equivalent or MLE. Each MLE can weigh or carry up to 32 kg in total 
mass. Based on the history of the Space Shuttle program during the 
1990's when it was used extensively for research and not being used to 
assemble the ISS, flight of research equipment and materials exceeded 
50 to 75 MLEs per year. This range of transportation need would enable 
productive use of the ISS National Lab and would equate to 1.6-2.4 
metric tons (MT) of research utilization supplies and equipment per 
year.
    NASA recently released a Request for Proposals for ISS Commercial 
Resupply Services (CRS). Within this solicitation, NASA included a 
model task order that estimated the requirement for pressurized cargo 
delivery to the ISS of 7.4 MT per year. Assuming that this figure does 
not include ISS National Lab requirements, the estimate for ISS 
National Lab users would need to be added to NASA's logistics and 
exploration research requirements. This equates to a range of 18-25 
percent of the total ISS transportation requirements. Again, to be most 
effective as a National Lab, delivery should be distributed across a 
minimum of four to five flights per year.

Q2.  There has been no commitment by the current Administration as to 
how long the U.S. will participate in the International Space Station 
program, although the Administration's budget plan for NASA would end 
funding for the program after 2016. On the other hand, NASA has 
indicated in previous testimony that it sees no technical or operation 
barriers to continuing ISS operation to 2020.

        <bullet>  What service life do you think would be optimal or 
        required for the types of research activities that you envision 
        the Station being utilized for?

A2. The answer to this question depends on a number of key assumptions:

        <bullet>  Transportation of research to and from the ISS will 
        not be overly constrained after the Space Shuttle is retired.

        <bullet>  Demand from multiple end users (commercial, 
        government and academic) will grow as the ISS assembly is 
        completed and the benefits of conducting research in space are 
        clearly recognized.

        <bullet>  Resources, including funding, to support productive 
        use of the ISS will be available.

        <bullet>  No major technical or operational problems will occur 
        to prevent continued use of the ISS.

        <bullet>  A six-member crew will be available to support a 
        robust research and development utilization program on the ISS.

    Based on these assumptions, then a 10-year operational life for the 
ISS after the assembly is complete should produce a high yield of 
products, technologies and scientific data. This would suggest that 
utilizing the ISS through 2020 would be appropriate. By 2020, the 
development of commercially viable alternatives to the ISS for space-
based R&D could reasonably be expected to be available. If so, and if 
the continued cost of maintaining and operating the ISS are high, then 
ending the ISS Program would seem appropriate. Of course, the ISS 
lifetime can be evaluated on an ongoing basis and adjusted as 
necessary.
    If one or more of the assumptions listed above do not come to 
fruition, then productivity of the ISS will be limited and the return 
on investment to the Nation will be reduced. In this case, 
consideration should be given to an operational lifetime beyond the 
2020 timeframe.

Q3.  Given your experience as director of a research center that deals 
with universities, federal agencies, and industry in conducting space 
life sciences research, what factors do you believe are essential for 
the management of the ISS National Laboratory? What should NASA 
consider as it explores options for managing the ISS National Lab?

A3. A key responsibility for the management organization will be to 
form partnerships and agreements with commercial, academic and 
government agency organizations that wish to access the ISS National 
Lab. A number of additional key responsibilities for the ISS National 
Lab management organization were outlined in written testimony. In 
brief, these additional responsibilities include:

        <bullet>  Performing outreach across multiple disciplines and 
        multiple organizations to educate scientists and managers on 
        the benefits of conducting research and development in space.

        <bullet>  Working to seamlessly integrate and fly research as a 
        turn-key process so the researchers can focus on the research 
        and not on the processes to get their research flown on board 
        the ISS.

        <bullet>  Working closely with the ISS Payloads Office to 
        streamline the process of integrating and certifying research 
        for flight.

        <bullet>  Maintaining a database with key specifications for 
        all available space flight research hardware that might be used 
        on the ISS.

        <bullet>  Assisting NASA to archive results from work performed 
        on the ISS and effectively communicating these results to the 
        public.

    To carry out these responsibilities, the ISS National Lab 
management organization would need to have a number of technical 
discipline experts who understand the type of research that can be done 
on the ISS, the processes that must be followed for the research to be 
successfully executed on orbit and the capabilities (and limitations) 
that exist in available flight hardware. In other words, this 
organization will need to consist of scientists and engineers working 
side by side to support the many university, government and commercial 
end users of the ISS. Thus, the most critical factor for success of an 
effective management organization will be in developing an organization 
consisting of scientists, engineers and managers with space flight 
research expertise.
    Currently, NASA has formed an ISS National Lab management office 
within the Space Operations Mission Directorate. This organization is 
effectively developing partnerships across the various academic, 
government and industry sectors. However, more could be done to grow 
the demand for ISS utilization and to support those organizations that 
are interested but do not know how to conduct research on the ISS. NASA 
should consider growing this organization within the agency or partner 
with outside organizations to assume more of the responsibilities and 
expertise described above.

Questions submitted by Representative Tom Feeney

Q1.  During the upcoming five-year gap, it appears there will be no--or 
very limited--ability to bring back research samples, experiments, and 
other materials from station. What are your thoughts about the 
usefulness of ISS as a laboratory if there is no down-mass capability? 
Will the inability to return research samples to Earth seriously 
jeopardize the attractiveness of using ISS to carry out research? What 
steps can researchers take to compensate?

A1. These questions have largely been addressed above. Indeed, having 
limited ability to return samples to Earth during the gap period will 
seriously jeopardize the ISS National Lab concept. Commercial users 
will be unable to pursue any reasonable business development 
activities. Non-NASA academic or government scientists will be unable 
to have any reasonable level of scientific productivity and will be 
discouraged from even trying to use this national asset.
    As mentioned above, if modern analytical techniques could be 
employed on the ISS, then data could be produced and down-linked to 
researchers on the ground. For this to work, investment by NASA and/or 
other agencies would be needed now so the required equipment could be 
developed and pressed into operation on the ISS. The protocols and 
equipment required to prepare and analyze samples on orbit would not be 
easily obtained but could be an effective alternative to inadequate 
sample return capacity.

Q2.  Several witnesses recommended that NASA identify an organization 
to manage research conducted on ISS. How does NASA manage ISS research 
today, and how would a newly established research management 
organization differ from the current model?

A2. As indicated above, NASA has formed an office within the Space 
Operations Mission Directorate that is focused on developing the ISS 
National Lab. This NASA office currently is working on identifying and 
forming agreements with prospective ISS National Lab end-users 
including those from industry, non-NASA government agencies and 
academic institutions. The goal of this office is to provide access to 
the ISS for research and development once the assembly of the station 
is complete. To date, NASA has Memoranda of Understanding and Space Act 
Agreements with a number of government agencies and companies and with 
our university.
    The ISS National Lab Management office at NASA Headquarters works 
closely with the ISS Payloads Office at NASA-Johnson Space Center. The 
JSC Payloads Office supports all NASA and non-NASA users of the ISS by 
prioritizing payloads, manifesting Shuttle transportation and 
integrating payload hardware and operations requirements across all 
NASA and non-NASA payloads. The Chief Scientist of the Payloads Office 
also supports scientific and public outreach.
    These NASA offices work well together and do an excellent job of 
supporting the full range of science being conducted on the ISS. 
However, these offices are limited in their ability to market the 
unique and outstanding R&D potential that the ISS represents. With the 
completion of the ISS only two years away, NASA must continue to 
develop a broad ISS user community that can take advantage of what the 
ISS has to offer.
    It is important to remember that a large research user community 
had been developed by NASA through the former Office of Biological and 
Physical Research. This office and the community that it supported was 
vastly reduced and reorganized under the current Exploration Systems 
Mission Directorate. As a result, the non-exploration user community of 
the ISS National Lab now has to be effectively reformed from sponsors 
outside of NASA. The potential certainly exists for the NIH, USDA, DOD, 
DOE, ED, NSF, universities, colleges, foundations and various industry 
sectors to benefit through R&D conducted on the ISS. Many of these 
organizations have already recognized this potential and have formed or 
are in the process of forming agreements with NASA to utilize the ISS. 
The ISS National Lab user community should be re-established through 
the sponsorship of these many organizations.
    As the demand for the ISS grows, one of the most critical issues in 
supporting a robust and productive set of R&D activities on the ISS 
will be funding. The organizations that are interested in benefiting 
from the ISS should not have to redirect funds from other high-
priority, ground-based research programs. Rather, new funds should be 
made available to support the translation of high-potential R&D to the 
ISS National Laboratory operating in orbit. This point cannot be overly 
stressed. The demand is now growing and should be grown even further. 
Congress should make strategic investments through NASA and the non-
NASA agency sponsors of the envisioned ISS R&D.
    By expanding the ISS National Lab office at NASA and/or through the 
development of appropriate partnerships, an ISS National Lab management 
organization could assume some of the additional responsibilities 
described above that are not currently being supported by any NASA 
office. As an example, our center continues to provide support for 
scientists who are conducting space-based research so that they can 
focus on their research and not on learning how to develop, flight 
qualify, integrate and operate a payload or experiment on the ISS. 
While our center is happy to provide this level of service to enable 
flight research, this set of services will need to be expanded if the 
ISS is to become even more productive after the assembly is complete. 
It will probably be inefficient for the NIH or the USDA or a commercial 
user to develop such in-house expertise. Establishing an organization 
that can support both science and engineering aspects of a broad space 
research program would help assure ultimate success of the ISS National 
Lab.
                   Answers to Post-Hearing Questions
Responses by Cheryl A. Nickerson, Associate Professor of Life Sciences, 
        School of Life Sciences, Center for Infectious Diseases and 
        Vaccinology, The Biodesign Institute, Arizona State University

Questions submitted by Chairman Mark Udall

Q1.  Up until now, your experiment return needs have been met by the 
Shuttle. With the retirement of the Shuttle in 2010, this will no 
longer be available to you. How significant is the need to be able to 
return cargo from the International Space Station--for example, 
research samples of lab equipment--for the type of research initiative 
you expect to pursue on the ISS? What are the implications if this 
return cargo capability is not available?

A1. The loss of down-mass resulting from the retirement of the Shuttle 
will have a dramatic impact on the types of analyses performed and the 
information gathered from ISS scientific research. Ground based 
analysis of samples has historically allowed more thorough analyses and 
``real time'' changes in procedures to optimize and maximize research 
findings. Loss of down-mass will especially affect research that 
requires equipment which cannot be easily miniaturized or multiple 
pieces of equipment to fully evaluate the sample. While not 
preventable, scientific losses can be mitigated, in part, by the 
provision of flight hardware that can be utilized by multiple 
investigators. Examples include laboratory basics, such as centrifuges 
and specialized microscopes that would prevent the need for repetitive 
up-mass for individual experiments. In addition, the development of 
specialized hardware for flight, such as miniaturized molecular genetic 
analysis equipment, will allow experimental samples to be analyzed 
during flight by the crew.

Q2.  There has been no commitment by the current Administration as to 
how long the U.S. will participate in the International Space Station 
program, although the Administration's budget plan for NASA would end 
funding for the program after 2016. On the other hand, NASA has 
indicated in previous testimony that it sees no technical or 
operational barriers to continuing ISS operations until 2020. What 
service life do you think would be optimal or required for the types of 
research activities that you envision the Station being utilized for?

A2. The International Space Station is a unique facility that will 
likely not be reproduced in our lifetimes. Accordingly, every effort 
should be made to extend the life and scientific use of this one-of-a-
kind laboratory as long as possible. The field of microgravity research 
has only begun to be investigated and holds enormous potential for 
ground-breaking biotechnology and biomedical innovations and 
discoveries to globally advance human health. ISS will be a critical 
platform for research (exploration and non-exploration) as long as it 
remains operational.

Q3.  Dr. Stodieck indicated in his prepared statement that three 
actions are required for the ISS National Laboratory to be successful:

        1)  creation of an independent management organization

        2)  provision of modest funding to support utilization

        3)  assurance of reliable and frequent transportation to and 
        from the ISS

Q3a.  Do you agree that these are required actions necessary to ensure 
the Laboratory's success?

A3a. I believe that key modifications are needed to the actions 
proposed by Dr. Stodieck.

Q3b.  If not, could you please discuss the priority steps that you 
believe need to be taken?

A3b. Dr. Stodieck's proposal for the creation of an independent 
management organization for the ISS National Laboratory would appear at 
first glance to be beneficial; however, the development and operation 
of such a board is not a trivial matter. Many complex issues would have 
to be addressed by such an organization in a clear, concise and non-
biased manner for such an approach to be even marginally effective. For 
example, how would they ``integrate'' with NASA, the European Space 
Agency, etc.? How would this board interact with and coordinate 
interdisciplinary research between multiple scientists--or between 
commercial investors/investigators? How would intellectual property and 
conflict of interest issues be handled? Who determines the merit of the 
research to fly and when it will be manifested on ISS? What are the 
research priorities? Both Exploration (mission applied) and non-
Exploration (non-mission/terrestrial-driven) research goals should be 
funded--how does the board make these decisions? What is the 
composition of the proposed management organization--NASA, other 
Federal Government agencies, academic, commercial? Regardless, this 
board would still have to interact closely with NASA flight operations, 
so the establishment of another level of complexity in the scientific 
process is not inherently an improvement over the current paradigm. 
Alternatively, could the current NASA management paradigm be modified 
to be more effective in operation--thus precluding the need for another 
complicated and perhaps detrimental level of management.
    Dr. Stodieck's second recommendation was for modest funding to 
support ISS utilization. This language is of serious concern to me, as 
``modest'' funding levels do not work well for robust life sciences 
research programs on Earth, much less for flight experiments. While 
this type of language may appear more palatable, the correct phrase is 
``appropriate funding.'' You get what you pay for--and hypothesis-
driven, innovative, cutting edge research requires investment. The goal 
is not to fly something simply to say that it has flown in space, but 
rather, to use the novel enabling research platform of space flight to 
translationally advance our understanding of biological and physical 
phenomenon that will provide long lasting return to the protection of 
humans as they explore space and for the general public here on Earth. 
Accordingly, experimental requirements and applications for space 
research should be clear and the funding adequate for successful 
completion. Running a space research program on a ``shoestring budget'' 
is not the way to conduct cutting edge science that is critical for 
exploration, nor is it the way to maintain US leadership in space 
exploration. Exploration drives science and science drives 
exploration--the two cannot be separated. Unfortunately, the currently 
adopted paradigm has negated the critical value of space research as an 
essential component of NASA. This has led to slashing the already 
minimal life support funding system for space research--and in so 
doing, has both decimated and alienated a large segment of the U.S. 
space life sciences research community and has seriously undermined the 
position of the U.S. as the world's leader in space exploration. Our 
nation's Vision for Space Exploration is dependent on the space life 
sciences community to generate knowledge leading to solutions to ensure 
safe passage for humans beyond Earth, to train the future workforce to 
maintain U.S. leadership in space exploration, and to translate 
findings from this work into human health benefits for the general 
public on Earth.

Q3c.  What, in your view, would be an effective mechanism for 
coordinating and managing the use of the ISS National Laboratory?

A3c. NASA's current structure provides an acceptable mechanism for the 
operation of the ISS National Laboratory; however, several changes at 
NASA would benefit the science that can be performed. First, the 
direction of the fundamental science that is performed should be guided 
by long-term, well coordinated goals to benefit general science. NASA 
has previously assembled ``blue ribbon'' panels that have made 
recommendations regarding the vision, direction and priority of 
research goals, (including commissioned Decadal Studies by the National 
Academy of Sciences). However, NASA's commitment to these collective 
expert recommendations over time has been inconsistent. Thus, in order 
to provide meaningful vision, direction and continuity of research over 
time, a standing science advisory board with members representing NASA, 
other federal agencies (e.g., NIH, USDA, etc.), and academia should be 
established. This board would guide fundamental research (both mission 
and non-mission-oriented) and should not be confused with NASA's own 
research goals to benefit the exploration of space. For example, the 
development of countermeasures to protect crew health during flight 
would remain under the purview of NASA. Second, scientific 
collaboration and resource sharing should be facilitated with the 
international partners of the station. While other factors do govern 
the exchange of funding and intellectual property, NASA should be 
provided some exception to these constraints to fully utilize this 
unique resource. Finally, it is critical to stress that consistency in 
both access to the ISS and funding for research is key for any 
successful utilization of the ISS as a National Laboratory.

Questions submitted by Representative Tom Feeney

Q1.  During the upcoming five-year gap, it appears there will be no--or 
very limited ability to bring back research samples, experiments, and 
other materials from station. What are your thoughts about the 
usefulness of ISS as a laboratory if there is no down-mass capability? 
Will the inability to return research samples to Earth seriously 
jeopardize the attractiveness of using ISS to carry out research? What 
steps can researchers take to compensate?

A1. Yes, lack of down-mass will limit use and jeopardize the usefulness 
of ISS as a laboratory. It will drive a need for improved and self 
sufficient analysis equipment and other resources needed to complete 
the work on orbit in the future (i.e., without the need to return 
payloads)--for example, microscope with greater imaging and functional 
capabilities, easy access to knowledge of available and functional 
hardware for research use (this is currently difficult information for 
researchers to obtain), molecular genetic tools, and available space. 
These self-sustaining in-flight research technologies will be critical 
to leave low-Earth orbit, when lack of resupply is a critical issue!
    *Also, please see response to Question #1 from Chairman Udall 
above.

Q2.  Several witnesses recommended that NASA identify an organization 
to manage research conducted on ISS. How does NASA manage research 
today, and how would a news established research management 
organization differ from the current model?

A2. * Please see response to Questions 3b and 3c from Chairman Udall 
above.
                   Answers to Post-Hearing Questions
Responses by Thomas Boone Pickens, III, Chairman and Chief Executive 
        Officer, SPACEHAB, Inc.

Questions submitted by Chairman Mark Udall

Q1.  What do you see as the most significant challenges with respect to 
SPACEHAB's involvement in the ISS National Laboratory and how should 
those challenges be addressed?

A1. SPACEHAB's announcement of a Space Act Agreement with the National 
Aeronautics and Space Administration (NASA) for use of the 
International Space Station (ISS), for research, development and 
industrial processing purposes removed one of our most significant 
challenges. This agreement will provide SPACEHAB with flight 
opportunities on the Space Shuttle for the remaining assembly phase of 
the ISS, as well as appropriate on-orbit ISS resources during both the 
pre- and post-assembly phases. The largest remaining challenge for 
SPACEHAB is the uncertainty of flight opportunities to the ISS 
following the final Shuttle flight, currently scheduled for 2010.

Q2.  How significant is the need to be able to return cargo from the 
Space Station--for example, research samples or lab equipment--for the 
type of commercial initiative you expect to pursue on the ISS? What are 
the implications if this return cargo capability is not available?

A2. The commercial initiatives we are pursuing, including vaccine 
development and protein crystal growth, require return cargo capability 
from the ISS National Laboratory. While research and development could 
occur on the ISS, the samples would need to be returned to Earth in 
order for this research to be commercially viable. If the return cargo 
capability is not available, it would change the direction of 
SPACEHAB's current commercial initiatives in space. Our research has 
indicated that most identified research and development would require 
return cargo capability.

Q3.  What types of results would SPACEHAB and the broader investment 
community need to see in order to gain confidence in the use of ISS for 
commercial drug development or other initiatives? On what timescale 
would they need to see these results?

A3. SPACEHAB is already seeing results of microgravity research with 
our recent discovery of a salmonella vaccine target giving us a great 
deal of confidence for further research and development through the use 
of the ISS. Our successful flights prove that scientists can continue 
to rely upon the development of microgravity products on the ISS for 
years to come.

Q4.  What are the implications for your business model if NASA decides 
not to operate the ISS past 2016?

A4. This would take away an incredibly valuable national resource that 
has already proven to save lives on earth with our salmonella vaccine 
discovery work however we have just begun and many more experiments 
need to be conducted. We reviewed over 2,000 experiments that have 
already been sent to microgravity and have chosen those that have 
showed the most commercial near-term value. We saw many experiments 
that had great promise but needed more work on-orbit before we could 
get comfortable with an acceptable level of risk/reward. Therefore, the 
longer the ISS is in service the more experiments will fly and the more 
commercially viable products will be discovered. It is simply a ratio 
between having access to microgravity and continuing to discover 
products that will enhance and save lives on earth. Having spent 15 
years and over $100 billion on this unique environment, it seems a 
shame to have it fully operational for only five or six years when 
mankind could benefit from its service for many decades.

Q5.  You discussed SPACEHAB's involvement in the Space Technology and 
Research Students (STARS) program. What do you believe has been the 
impact of the STARS program on STEM education?

A5. The STARS program gave students a heightened enthusiasm for STEM by 
giving them the opportunity for hands on participation in microgravity 
research. By utilizing the allure of space, STARS is able to attract 
students to STEM that might otherwise not show an interest in these 
areas.

Questions submitted by Representative Tom Feeney

Q1.  During the upcoming five-year gap, it appears there will be no--or 
very limited--ability to bring back research samples, experiments, and 
other materials from station. What are your thoughts about the 
usefulness of ISS as a laboratory if there is no down-mass capability? 
Will the inability to return research samples to Earth seriously 
jeopardize the attractiveness of using ISS to carry out research? What 
steps can researchers take to compensate?

A1. See response to question two from Chairman Udall.

Q2.  Several witnesses recommended that NASA identify an organization 
to manage research conducted on ISS. How does NASA manage ISS research 
today, and how would a newly established research management 
organization differ from the current model?

A2. Working with NASA to fly samples on the Shuttle is an add hock 
process that offers no assurances as to participating organizations and 
making it nearly impossible to convince the investment community that 
there is assured access to microgravity. While NASA has been very 
accommodating to date, there is a lack of confidence that we will make 
the next flight, even up to the final hours prior to lift-off. This 
makes it very difficult to attract and commit capital for the expensive 
pre-flight processing when all would be lost if we were told we would 
not be on the next flight due to cargo priorities.
    It would therefore be very helpful if there was a policy that 
required NASA to fly both pre-commercial experiments and commercial 
samples to microgravity. Previous attempts to promote commercial uses 
of space by NASA have been largely unsuccessful as we feel the more 
people that are involved slows down and complicates a process that is 
already very understood and streamlined. Therefore, in response to the 
question, we would recommend only a change in the NASA policy to be 
mandated to send these payloads without exception but use the existing 
structure of selection and flight safety review as this seems to be 
appropriate at this time.
                   Answers to Post-Hearing Questions
Responses by William H. Gerstenmaier, Associate Administrator for Space 
        Operations, National Aeronautics and Space Administration 
        (NASA)

Questions submitted by Chairman Mark Udall

Q1.  How much will NASA have spent in total developing, building, and 
operating the International Space Station when it is completed in 2010? 
Please provide the direct costs for development, operations and 
utilization, cargo and crew transport, Shuttle transportation costs, 
and other costs to NASA.

A1. The total direct cost of the International Space Station (ISS) from 
FY 1994 through assembly complete in FY 2010 is estimated to be $47.0B. 
This includes $14.0B for development, $16.0B for operations and 
utilization, $1.0B for cargo and crew transportation, $13.0B for Space 
Shuttle transportation costs, and $3.0B in other costs to NASA. These 
figures exclude costs for phases A, B, and C (i.e., the Freedom 
Program) and International Partner costs.

Q2.  What, if any, mechanisms exist for ISS users to communicate their 
transportation requirements to potential and future ISS commercial 
cargo providers, or do you expect individual researchers to be working 
directly with commercial companies?

A2. International Space Station (ISS) user transportation requirements 
for both NASA users and non-NASA, National Laboratory users must first 
be integrated into a cohesive, time-phased delivery plan before being 
passed on to future ISS commercial cargo providers. This ensures that 
user payloads are scheduled for deployment and operation on the ISS 
during a period when payload resources and accommodations are actually 
available. The ISS Payloads Division within NASA's ISS Program Office 
collects all U.S. domestic user transportation requirements in order to 
accomplish this function. This is done through the formal ISS Payload 
Integration Agreement process. The ISS Program Office then integrates 
U.S. user payload transportation requirements with requirements for 
payload and system operations and maintenance from Canada, Europe, 
Japan, Russia and the U.S. The result is a time-phased cargo 
transportation plan that is optimized across the international mixed 
fleet of transportation vehicles, in order to both maintain the ISS 
system successfully and operate payloads productively within the user 
resource allocations specified in the international agreements. This 
function is accomplished through regular, periodic Technical 
Interchange Meetings across the ISS partnership.
    Individual users may also work directly with commercial companies 
in order to ascertain possible future transportation costs and 
available physical accommodations during the transport phase. In the 
future, some portion of the available commercial transportation 
capacity may be set aside on commercial flights for the service 
provider to market directly to paying customers; however, user payloads 
bound for the ISS must first be assigned physical accommodations and 
operating resources before being manifested for flight. As this 
scenario evolves, it will be important that the ISS Program Office 
continues to work closely with the commercial service providers, so 
that all payloads arriving at the ISS can be physically integrated and 
productively operated.

Q3.  How does NASA plan to validate vendors' claims that they can meet 
the Agency's ISS cargo requirements in a credible and safe manner?

A3. NASA released an ISS Commercial Resupply Services (CRS) Request for 
Proposals (RFP) on April 14, 2008, for resupply and return of ISS and 
utilization cargo. Proposals were due back to NASA at the end of June 
2008, with an award expected at the end of calendar year 2008. The RFP 
identifies the specific criteria that NASA will utilize in evaluating 
industry proposals. The criteria that NASA will utilize includes 
evaluating such areas as: the offeror's capability to meet the 
statement of work based on the level of development maturity of those 
capabilities; the production and annual delivery capability, and 
processing lead times; how the offeror's schedule and planning for ISS 
integration will impact the delivery of services under this contract; 
the offeror's understanding of the risks of providing the ISS resupply 
services, completeness in identifying risks, and the appropriateness of 
their mitigation plans; and, the offeror's approach for safety (range, 
ground, flight, etc.), reliability, maintainability, supportability, 
quality, software assurance, and risk management for completeness and 
effectiveness at meeting the contract requirements.

Q4.  What effect will the increase to a six-person crew on ISS have on 
crew time to support research and other utilization activities? Will 
the time available for research double?

A4. In the early 2009 timeframe, when the ISS is still operating with 
three crew, there will be approximately 40 crew-hours per week 
available, on annual average, to operate, maintain and utilize the U.S. 
Operating Segment (USOS). This assumes that 1.5 of the three crew 
members is working on the USOS, and that each astronaut works 
approximately 32.5 hours per week. This is equivalent to approximately 
48.75 crew hours per week, and is reduced to approximately 40 crew-
hours per week after joint Shuttle-Station assembly period operations 
are subtracted out. Also during this timeframe, 37-40 crew hours per 
week will be needed for USOS systems operations and maintenance. Under 
these circumstances, up to three crew-hours per week are estimated to 
be available for USOS utilization.
    By late 2009, ISS crew complement will increase to six and, 
assuming three of the six astronauts are working on the USOS, will 
yield approximately 85 crew hours per week to operate, maintain and 
utilize the USOS. By this timeframe, the remaining assembly elements 
will have been integrated and it will then require approximately 65 
crew-hours per week to operate and maintain the USOS, and there will be 
approximately 20 crew-hours per week available to utilize the USOS. The 
time available for research in the USOS increases from up to three 
hours per week (three crew) to 20 hours per week (six crew).
    During the post-assembly period, the crew time capability for the 
USOS is estimated to further increase to approximately 100 hours per 
week because there is no longer the need for joint Shuttle-Station 
assembly operations, while the requirement to operate and maintain the 
USOS remains constant at 65 hours per week. At this stage, 
approximately 35 hours per week are projected to be available for USOS 
utilization.
    The table below summarizes this evolution in USOS crew time 
capability, reflected in hours per week.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4a.  How will crew time be allocated for ISS utilization activities?

A4a. Crew time will be allocated according to payload operating 
priorities as determined by the tactical level, multilateral Research 
Planning Working Group in accordance with strategic level NASA 
Headquarters policy direction and international Memorandum of 
Understanding provisions.

Q4b.  Do ISS crews need to be trained in advance to support research 
and other utilization activities occurring through the National 
Laboratory? If so, how much lead time is required for this crew 
preparation and when would NASA need to know what research would be 
flown?

A4b. Yes, virtually all utilization activities require some level of 
crew familiarization and training. These requirements vary widely 
depending on payload complexity. Nominally, a two-year planning horizon 
is desired so that specific utilization activities can be identified in 
the Increment Definition and Requirements Document; however, the Space 
Station Program is currently integrating relatively small (e.g., mid-
deck locker scale) experiments within six months of launch, 
particularly when re-flights of flight-certified apparatus are 
involved. Future utilization demand appears to be evolving largely in 
the direction of the life sciences and biotechnologies where 
experiments are being planned at the cellular and molecular levels. In 
these cases, locker-scales are common and integration is relatively 
straightforward.

Q5.  Regarding cargo transport to the ISS, your testimony notes that 
``The ISS Program continues to evaluate the up mass requirements and 
spares procurement strategy to sustain nominal system and research 
operations.''

Q5a.  When does NASA anticipate being able to provide firm up mass 
requirements to potential commercial providers?

A5a. NASA issued a Commercial Resupply Services Request for Proposals 
in mid-April of this year, and proposals were due by the end of June. 
Following proposal evaluation, NASA plans to enter into firm fixed-
price contracts for commercial transportation services by the end of 
calendar year 2008. These contracts will specify up-mass requirements.

Q5b.  Will those requirements include down-mass?

A5b. The contracts will also include down-mass requirements for those 
service providers that can deliver the capability.

Q5c.  How much additional up-mass and down-mass would be included in 
NASA's requirements to support ISS National Lab users?

A5c. The specific transportation requirements for National Laboratory 
users have not yet been defined in detail because the U.S. Government 
agencies and private firms that have entered into agreements with NASA 
to use the ISS are just beginning to plan their respective research 
programs. NASA has estimated that a throughput capacity of as much as 
three metric tons per year could be available on the International 
Space Station to support National Laboratory users.

Q5d.  When do potential commercial cargo suppliers need to know the 
full breadth of cargo requirements in order to assess the potential 
market and respond accordingly?

A5d. Commercial cargo suppliers have been informed of the full breadth 
of cargo requirements throughout the Request for Information and 
Request for Proposals processes over the last several years. The 
International Space Station cargo requirements have been well-defined 
and stable, and are highly representative of future needs.

Q6.  What is NASA's timeline for determining a management structure for 
the ISS National Lab?

A6. As outlined in the report NASA submitted to Congress in April 2007 
regarding International Space Station (ISS) National Laboratory 
Applications Development, the strategy to first identify credible and 
qualified end-users was emphasized. Since that report, NASA has entered 
into separate Memorandum of Understanding with the National Institutes 
of Health and the U.S. Department of Agriculture's Agricultural 
Research Service. In addition, two Space Act Agreements (SAAs) with 
private firms and one with a state university have been signed, while 
additional SAAs remain under development. Finally, a self-organizing 
Biotechnology Space Research Alliance has been formed in southern 
California that consists of university, industry and municipal 
government partners. As a result of these developments, NASA is well 
along in the process of identifying credible and qualified end-users.
    In FY 2010, efforts will turn to: (1) defining the respective 
research programs for each of the new partners and translating their 
strategic research objectives into an executable portfolio of specific 
payload plans with detailed specification of requirements for ISS 
resources and accommodations; and, (2) working with the new partners to 
determine the most effective and appropriate management structure(s) 
for the post-2010 real-time operations timeframe. In this latter 
activity, the ISS Program's Payload Office will perform a central role 
in physical, analytical and operations integration, while NASA's Space 
Operations Mission Directorate continues to manage policy aspects of 
ISS National Laboratory operations in concert with direction from the 
Executive and Legislative branches. Decisions regarding ISS operations 
post 2016 will be made by future Administrations and Congresses.

Q7.  Section 2006 of the America COMPETES Act directs NASA to ``develop 
a detailed plan for implementation of I or more education projects that 
utilize the resources offered by the International Space Station.'' 
What is the status of NASA's work on developing this plan?

A7. Working with the established interagency ISS National Laboratory 
Education Concept Development Task Force, NASA has completed a plan in 
response to the provisions of Section 2006 of the America COMPETES Act 
(P.L.110-69) and a report outlining the plan was submitted to Congress 
on June 20, 2008. The report identifies a series of specific education 
projects conceived by the cooperating agencies that could be conducted 
using the International Space Station.

Q8.  The America COMPETES Act also directs NASA to develop a plan for 
ISS research that will serve to increase U.S. science, technology, and 
engineering competitiveness and to consult with organizations that have 
agreements to use the ISS National Lab in developing the plan. What is 
the status of this planning effort?

A8. NASA has brought this provision of the America COMPETES Act (P.L. 
110-69) to the attention of each of the new ISS National Laboratory 
partners. In each case, we expect these partners to develop specific 
research and development (R&D) plans in the coming year that can be 
made available to the Congress in direct response to the Act. For 
instance, NASA is currently cooperating with the National Institutes of 
Health (NIH) on development of a Funding Opportunity Announcement to be 
issued by NIH by the end of FY 2008. The response to this announcement 
and the proposals selected by NIH will represent their initial R&D plan 
for the ISS. It is important to note that these plans may be 
constrained by the availability of appropriated funds at each partner 
Agency.

Q9.  I understand that you have recently met with the Russian company 
making the Soyuz.

Q9a.  Do you have any insight into their quality control processes?

A9a. The Soyuz has long track record of success. NASA's insight into 
their quality control process is part of the reporting in the contract 
and is handled through regular contract progress reviews and anomaly 
reporting. Additionally, the Russians have been responsive to specific 
requests for information concerning the April 2008 ballistic re-entry.

Q9b.  Since NASA will be relying on Soyuz during the gap, are you 
taking any additional precautions following the last ballistic Soyuz 
re-entry to ensure the safety of U.S. and partner astronauts using the 
Soyuz to return from the ISS?

A9b. The International Space Station is an interdependent partnership. 
NASA and the Russian Federal Space Agency share the goal of fully 
understanding mission anomalies to ensure the safety of all of crew 
members. NASA will continue to work closely with Russia on our 
respective anomaly reporting and correction processes, during both 
manufacturing and operations phases.
    On July 10, 2008, Cosmonauts Sergei Volkov and Oleg Kononenko 
performed RS EVA #20A. The primary task on EVA #20A was the inspection 
and retrieval of a pyrobolt from one of the five latches on the Soyuz. 
This was done to support the investigation of the ballistic descent of 
the last two Soyuz vehicles. Kononenko's Orlan suit was outfitted with 
a U.S. Wireless Video System to allow ground specialists to monitor 
real-time views from his helmet camera during the retrieval. While no 
anomalies were observed during the EVA, the pyrobolt will be returned 
for close inspection as part of the ongoing investigation process. NASA 
is working closely with Roscosmos to thoroughly evaluate all aspects of 
Soyuz design and operations, and assist in the performance thermal and 
structural analyses related to the re-entry conditions.

Q10.  It has been reported that the Russians will need additional 
funding to complete construction of its ISS research facilities.

Q10a.  Have the Russians informed NASA of delays to its planned Multi-
Purpose Laboratory Module and Research Module?

A10a. In the most recent review of Russian activities, the Russians 
reported that all their modules are on schedule.

Q10b.  How do these delays factor into the planning needed to complete 
ISS construction and begin full operations?

A10b. There is no impact to the U.S. program if the Russian modules are 
delayed.

Questions submitted by Representative Tom Feeney

Q1.  At the hearing, concern was raised about the future cost of 
carrying research experiments and samples to and from ISS on cargo 
flights. Specifically, the research community fears that the cost of 
integrating the experiment for launch to and from ISS, plus the cost of 
the operations and safety certification, and transportation on cargo 
flights, could prove to be too expensive for many researchers. What are 
NASA's plans with respect to managing and pricing experiments to be 
conducted on ISS?

A1. There are six categories of cost related to conducting research and 
development (R&D) projects within the utilization capacity of the 
International Space Station (ISS) USOS U.S. Operating Segment (USOS) in 
its role as a National Laboratory. The ``user community'' consists of 
other U.S. Government agencies (e.g., National Institutes of Health and 
Department of Agriculture), private firms (e.g., SPACEHAB and Zero 
Gravity, Inc.) and universities (e.g., Bioserve Space Technology Center 
at the University of Colorado) that have entered into formal Memoranda 
of Understanding and/or Space Act Agreements for use of the ISS for R&D 
purposes. Each of these categories is discussed below.

1. Cost of ISS USOS On-Orbit Resources and Accommodations: NASA does 
not intend to charge any user fees for U.S. use of ISS National 
Laboratory accommodations and resources. These costs are subsumed under 
the annual operations and maintenance cost of the ISS USOS.

2. Cost of Participating R&D Personnel: The research community that 
NASA has entered into agreements with for use of the ISS as a national 
laboratory recognizes that it is their responsibility to cover the cost 
of their own R&D personnel. In the case of government agencies, this 
includes the cost of external grant recipients and/or internal research 
staff. In the case of private firms and universities, this includes the 
cost of company personnel and/or university employees and students.

3. Cost of Space Certified Equipment and Facilities: In most cases, R&D 
plans will rely on the use of existing payload equipment and facilities 
that have been developed and flight-qualified previously in the ISS 
Program (e.g., Express racks & pallets, rack-scale special purpose 
research facilities, mid-deck lockers and drawers, refrigerators and 
freezers, etc.). A complete listing of flight equipment can be found 
at: http://www.nasa.gov/mission<INF>-</INF>pages/station/science/
experiments/Discipline.html

4. Cost of Payload Analytical and Operations Integration: These costs 
include: definition of payload characteristics, properties and 
requirements in a formal Payload Integration Agreement; training crew 
for on-orbit payload operations; and, final integration of the payload 
into the on-orbit operations timeline. The ISS Program Office is 
currently budgeted to perform these functions for full use of the ISS 
USOS utilization capacity.

5. Cost of Payload Physical Integration and Safety Certification: The 
build-up of specific payload configurations, document production, 
verification testing, and safety certification is a responsibility of 
the end-user. NASA has worked aggressively to minimize these costs 
within the safety and mission assurance environment. The key to cost 
containment is the re-flight of previously qualified flight equipment 
that can maximize the use of existing hardware/software systems and 
documentation products. Experienced end-users have developed a close 
familiarity with the rigors of NASA payload physical integration and 
safety certification practices, and are knowledgeable in minimizing the 
associated costs.

6. Cost of Space Transportation: NASA is currently in the midst of 
acquiring domestic, commercial space transportation services (Request 
for Proposals released in mid-April with plans for award of firm fixed-
price contracts by the end of 2008). At this time, the cost and 
availability of these services is not clear; however, these aspects 
will continue to mature in the coming years as U.S. commercial service 
providers evolve and demonstrate their capabilities and pricing 
strategies. A transition period can be anticipated during which end-
user payloads are initially transported in the marginal capacity of ISS 
re-supply missions purchased by NASA and later manifested directly by 
the commercial service provider. The specific prices, practices and 
procedures will become clearer as this capability emerges in the post-
assembly, post-Shuttle period.

Q2.  The Europeans, Russians, and soon the Japanese, have--or will 
have--their own research facilities on-board ISS. What steps are taken 
among the international partners to ensure there is no duplication of 
research activities on ISS, and that the science return is maximized?

A2. Each ISS partner is free to pursue research at its own discretion 
in accordance with provisions of the bilateral agreements. Some degree 
of duplication is anticipated and indeed encouraged, in order to foster 
unique approaches to solving common scientific issues and advancing the 
state-of-the-art. Nonetheless, cooperation is also encouraged where 
beneficial to both, or all, partners. For example, we establish 
arrangements for research from one partner to be conducted in the 
facilities of another partner to maximize the science return from those 
facilities on orbit. This is fostered through scientific working groups 
in discipline-specific areas, such as life sciences and microgravity 
sciences. For example, the International Life and Microgravity Science 
Working Group (ISLSWG), composed of the Japanese, Canadian, and several 
European space agencies (ESA, DLR, CNES, ASI), meets twice a year to 
discuss and coordinate research activities, many of which will be 
conducted on the ISS.

Q3.  What options does NASA have in place should COTS not prove viable? 
Will ATV and HTV be able to meet station needs until Orion/Ares becomes 
operational?

A3. Services to deliver cargo transportation requirements are being 
acquired through the Commercial Resupply Services competitive 
procurement, which is open to all bidders, including existing COTS 
partners (holders of both funded and unfunded COTS Space Act 
Agreements). In the event domestic commercial cargo resupply services 
are delayed, NASA will further optimize its usage of other cargo 
delivery capabilities, while aggressively managing the degradation in 
ISS systems and adjusting U.S. utilization of the ISS until the 
services become available.
    In addition to commercial services, NASA's strategy is to pre-
position ISS system spares on the flights which remain before Space 
Shuttle retirement in 2010. NASA also receives a share of the cargo 
capacity on all ATV and HTV flights as a part of the barter agreement 
for launch of European and Japanese elements to the ISS on the Space 
Shuttle. Finally, NASA has contracted with Russia to continue to 
provide cargo on Progress flights through the end of calendar year 
2011.
                   Answers to Post-Hearing Questions
Responses by Cristina T. Chaplain, Director, Acquisition and Sourcing 
        Management, U.S. Government Accountability Office

Questions submitted by Chairman Mark Udall

Q1.  Your prepared statement concludes that any delays in flying the 
Shuttle could ``require NASA to choose between completing the station 
as planned and pre-positioning of needed critical spares.'' In your 
view, what would NASA need to consider in making such a tradeoff?

A1. There would be little value in bringing up additional components to 
the station, if the station itself could not operate effectively until 
2016 or beyond. Therefore, NASA would have to consider what spares are 
vital to sustaining the station that require the lift capacity of the 
Shuttle and give them high priority. This is a fluid situation as NASA 
is still learning about the lifespan of its spares and is continually 
identifying parts that need special attention.

Q2.  What does GAO think about NASA's acquisition strategy for 
acquiring commercial cargo transportation services? What do you think 
about the schedule it has laid out in the ISS re-supply services 
request for proposal?

A2. On the surface, it would seem that NASA is prematurely awarding a 
launch contract given that COTS capabilities have not been 
demonstrated. However, the government's liability for costs is limited 
by the fact that the contract is an Indefinite Delivery Indefinite 
Quantity (IDIQ) contract, which provides for an indefinite quantity of 
supplies or services within stated limits during a fixed period of 
time. More specifically, the government is only obligated to purchase a 
minimum amount of supplies or services. Under NASA's solicitation, the 
agency may select multiple vendors to participate in this contract; 
they all will be subject to NASA insight and approval for notice to 
proceed and or approval of requirements, plans, tests, or success 
criteria; there are stated criteria as to what capabilities need to be 
demonstrated; and NASA will determine if vendors are successful. 
Therefore, while NASA has already awarded the contract to one vendor, 
it is our understanding that the vendor still needs to demonstrate 
capability before more than the minimum amount of services will be 
ordered. Moreover, other vendors, including those who are not being 
paid under Space Act agreements, can eventually participate in the IDIQ 
if they develop capability that would suit the station.

Q3.  Your prepared statement indicates that NASA has stated it will use 
international partners' vehicles to conduct some supply activities. 
Since partners have already committed these significant portions of 
these vehicles' capacity to carry their own cargo, how much additional 
cargo capacity would NASA have access to?

A3. NASA is conducting ongoing assessments on how ISS re-supply will be 
supported by international partner vehicles. International partner 
vehicles differ in what cargo they can carry and each has an internal 
capacity of roughly 2,000 kilograms. However, even with the use of 
these vehicles in some fashion, NASA still faces a capacity shortfall 
of over 50 metric tons between 2010 and 2015.

Q4.  In your prepared statement you indicate that if unanticipated 
construction delays occur, NASA may need to hold back two components--
Node 3 and the Cupola--which could constrain the ability to conduct 
research and the quality of life on the station for the crew. What 
research would be impacted?

A4. It is difficult to identify what research would be impacted by not 
installing the Cupola and Node 3. Both elements are not specific to the 
conduct of research. However, failure to install these elements would 
further limit the availability of storage space on the station. A 
shortfall in storage capacity could impact research if some of the 
laboratory modules are used to store materials and supplies. We will be 
examining this question more specifically in a follow-on review for 
this subcommittee.

Q5.  In your prepared statement, you indicate that Johnson Space Center 
officials were skeptical that commercial transportation services would 
be available on the projected schedule. How do you reconcile this 
skepticism with the accelerated pace embodied in the schedule for the 
new Commercial Resupply RFP?

A5. The schedule goals for the COTS program may well be optimistic as 
our testimony emphasized. However, the launch services RFP itself only 
obligates the government to purchase a minimum amount of services or 
supplies.

Questions submitted by Representative Tom Feeney

Q1.  What options does NASA have in place should COTS not prove viable? 
Will ATV and HTV be able to meet station needs until Orion/Ares become 
operational?

A1. NASA's options for servicing the International Space Station (ISS) 
are limited if Commercial Orbital Transportation Services (COTS) do not 
prove viable. The European Automated Transfer Vehicle (ATV) and the 
Japanese H-II Transfer Vehicle (HTV), along with the Russian Progress 
vehicle, can provide limited capabilities to deliver cargo and supplies 
to ISS, but NASA predicts a 51.8 metric ton shortfall to ISS re-supply 
needs relying on these vehicles alone after Shuttle retirement. The ATV 
has a cargo capability of 7,500 kg (primarily for water and atmospheric 
gas); the HTV has a cargo capability of 6,000 kg (primarily for water 
and atmospheric gas, but also for limited unpressurized external 
cargo); and the Progress has a cargo capability of 2,600 kg (including 
some pressurized cargo). None of these vehicles has the capability to 
carry crew members. Additionally, none of these vehicles has a cargo 
return capability because they disintegrate during return to Earth. 
Lastly, only limited numbers of the ATV and HTV are being produced.
    According to NASA officials, without COTS, only Russian Soyuz 
vehicles can provide for crew rotation and very small cargo return 
capabilities. Currently, NASA reliance on Russian vehicles for ISS 
support is permitted under an exemption to the Iran Nonproliferation 
Act of 2000 (now entitled the Iran, North Korea and Syria 
Nonproliferation Act), which expires January 1, 2012.
                   Answers to Post-Hearing Questions
Responses by Jeffrey P. Sutton, Director, National Space Biomedical 
        Research Institute

Questions submitted by Chairman Mark Udall

Q1.  Your prepared statement refers to ``strategic goals the ISS can 
fulfill in the area of biomedical research to address exploration 
needs.'' Could you please elaborate on these goals, the progress being 
made to date, and what more needs to be done to achieve these goals?

A1. Two broad strategic goals are outlined in my prepared statement 
regarding the International Space Station (ISS) and biomedical research 
to address exploration needs. The first goal is that ISS serves, and 
needs to be utilized, as an invaluable platform for biomedical science 
and technology projects that are currently under way. These projects 
have substantial promise for yielding results, countermeasures and 
technologies that will enable safe human exploration of space. Some of 
the projects are ground-based studies that are working their way 
through a product pipeline toward ISS flight testing and evaluation 
over the next several years. Other projects are presently ready for 
flight definition and study aboard the ISS. As ISS nears completion and 
research capabilities grow, it is strategically prudent to capitalize 
on investments made in the current portfolio of research and technology 
development.
    A second goal is to take advantage of the efforts associated with 
the first goal and foster new opportunities in biomedical research and 
development for exploration. One area to look at is emerging 
partnerships between academia and industry, where there has been 
positive activity to share costs on projects. Another area of 
opportunity lies in the integration and synergy among projects that 
make up an expanding portfolio of flight studies. Integration among 
projects is important and adds value to the scientific enterprise. It 
is also timely as the depth and breadth of ISS capabilities as an 
orbiting, microgravity laboratory expand. Moreover, integration fosters 
international cooperation, international crew participation, and can 
lead to new, unanticipated discoveries to advance knowledge and 
countermeasures to complex biomedical risks.
    These two goals were presented in the context of the important role 
the ISS can have for biomedical research and exploration. There are 
other considerations as well. For example, beneficial information for 
exploration is gained on human performance, psychosocial adaptation and 
team cohesion while accruing operational experience aboard ISS. 
Furthermore, it should not be construed that the goals stated in my 
testimony are inconsistent with the goals and sub-goals put forth in 
the ``2006 NASA Strategic Plan.''
    With this clarification in mind, it is laudable that progress in 
ISS biomedical research has been achieved, given the (1) challenges of 
conducting biomedical research in general, (2) constraints imposed by 
mass, power, volume, cost and crew time, (3) impacts from the Columbia 
tragedy, and (4) limitations imposed by performing research within a 
facility simultaneously undergoing construction. Progress in specific 
areas is summarized in my prepared statement, which provides references 
for the principal U.S.-sponsored biomedical experiments aboard the ISS. 
Ground-based projects that are ready for, or in the process of maturing 
toward, ISS testing and evaluation, are also listed with references.
    Regarding matters that need to be addressed in order to achieve the 
goals, it is vital to have adequate and consistent funding to enable 
continuity in science and technology efforts. At present, there is a 
small but critical mass of outstanding and dedicated investigators from 
acrossthe Nation, who are conducting necessary investigations to enable 
safe human exploration of space. These investigators are scientific, 
technical and educational leaders, who are at the forefront of their 
fields and are at premier academic institutions, biotechnology 
companies and government laboratories (NASA and other agencies). They 
have the unique, collective expertise to drive U.S. achievements in 
space biomedical research forward, while at the same time inspiring and 
training the next generation of scientists, engineers and physicians. 
It is therefore important that their projects and teaming with each 
other, with younger investigators entering the field, and with the 
operational community at NASA be sustained and appropriately augmented 
as ISS capabilities expand.
    Along similar lines, as NASA looks to implement memoranda of 
understanding with other federal agencies, such as the National 
Institutes of Health, new appropriations for collaborative ISS research 
should be considered. These new appropriations are also relevant to the 
success of the ISS National Laboratory. It is not apparent how ISS 
science endeavors can be implemented by relying only on funds 
redirected from within agencies with relatively flat budgets.
    In strengthening the pipeline of biomedical research that requires 
ISS utilization, it is further recommended that NASA permit the 
National Space Biomedical Research Institute (NSBRI) to be more engaged 
in transitioning and managing science and technology development for 
the ISS. The 1996 NASA Cooperative Agreement Notice 9-CAN-96-01, 
``Soliciting Proposals for the Establishment of the National Space 
Biomedical Research Institute,'' states in Section 7.0, and reiterates 
in Section 10.4, that ``it is NASA's intent that responsibility for all 
appropriate NASA-sponsored Space Station human experiment opportunities 
be transferred to the Institute.'' Although NSBRI is NASA's primary 
partner for biomedical research, and has multiple international 
collaborations, NASA has not utilized the resources and expertise of 
NSBRI to help review, select or manage research for the ISS. This is an 
area that should be revisited.

Q2.  NASA has developed a Human Research Program Utilization Plan for 
the ISS, which identifies the risks for human exploration of space and 
the research on the ISS that can help mitigate the risks and lead to 
the development of countermeasures.

Q2a.  Do NASA's current plans for ISS utilization enable the agency to 
adequately address the risks outlined in the plan and to develop 
countermeasures?

A2a. NASA's ``Human Research Program Utilization Plan for the 
International Space Station'' identifies 25 human health and 
performance risks requiring the ISS in order to perform research needed 
to quantify the risks and validate countermeasures and technologies. 
For each risk, there is a brief description of the planned activities 
and a top-level schedule, wherein a significant portion of the proposed 
work will be completed by 2016. Some risk assessment and countermeasure 
validation will occur beyond this date.
    As stated in the document, the plan is subject to change based on 
multiple considerations. Nevertheless, in its current instantiation, 
the plan summarizes important risks and the development of 
countermeasures. Some risk areas are described in more detail than 
others, but in general, limited information is provided in the 
document.
    NASA's current plans for ISS utilization enable the agency to 
address the risks. The question is what constitutes adequate risk 
mitigation? It is apparent that a more detailed, integrated utilization 
plan is needed to ensure as much progress and success as possible 
within the proposed time frame.

Q2b.  If not, what else needs to be done?

A2b. Items to be done are listed as recommendations for the Human 
Research Program Utilization Plan for the ISS:

        <bullet>  Prioritize the risks into categories to identify 
        those among the 25 that are the most urgent to mitigate 
        utilizing the unique capabilities of the ISS;

        <bullet>  Expand each risk section to provide a more 
        comprehensive listing of proposed research, countermeasures and 
        technologies;\1\
---------------------------------------------------------------------------
    \1\ For example, ISS research to address the first risk in the 
plan, ``Risk of Inability to Adequately Treat an Ill or Injured Crew 
Member,'' is scheduled for FY08, FY09 and FY11. It would be helpful to 
list all relevant technologies at high readiness levels for flight that 
are candidates for testing and evaluation aboard ISS. Near infrared 
spectroscopy for non-invasive blood and tissue chemistry, and in-flight 
blood lab-on-a-chip technology for astronaut health monitoring are two 
such technologies. While both projects are currently funded by NSBRI, 
neither project is identified in the plan.

        <bullet>  Characterize the current pipeline of biomedical 
        projects feeding into, and already approved as part of, the 
        portfolio of research, development, testing and evaluation to 
---------------------------------------------------------------------------
        be conducted aboard the ISS;

        <bullet>  Identify current science and technology gaps in the 
        risk reduction plan utilizing the ISS;\2\
---------------------------------------------------------------------------
    \2\ This is important to do now as there is often a significant 
lead time to procure the needed studies and mature them to ISS-ready 
status.

        <bullet>  Outline the flight resources and manifest 
---------------------------------------------------------------------------
        opportunities;

        <bullet>  Describe current and planned experiment hardware and 
        associated engineering needs;

        <bullet>  Discuss opportunities for integration and added value 
        among studies addressing different risks;\3\
---------------------------------------------------------------------------
    \3\ For instance, NSBRI is supporting a project to develop an 
ultrasound catalog for autonomous medical care. The catalog will 
provide, among other deliverables, an atlas of normal human anatomy and 
physiology acquired using ultrasound aboard the ISS, starting with 
Expedition 6. Studies should continue on this project which addresses 
multiple risks, including but not limited to the ``Risk of Inability to 
Adequately Treat an Ill or Injured Crew Member,'' ``Risk of Accelerated 
Osteoporosis,'' ``Risk of Cardiac Rhythm Problems,'' and ``Risk of 
Intervertebral Disc Damage.''

        <bullet>  Depict the roles and extent of industry involvement 
---------------------------------------------------------------------------
        in the enterprise;

        <bullet>  Estimate the crew time dedicated to participate in 
        research activities;

        <bullet>  Describe the metrics to be used to assess risk 
        mitigation effectiveness and outcomes for the planned ISS 
        activities;\4\
---------------------------------------------------------------------------
    \4\ All projects within the Human Research Program can be assigned 
countermeasure and/or technology readiness levels. The rate of change 
of these levels with time provides an estimate of when projects are 
ready for flight testing and evaluation. Not all projects mature to 
flight and some projects enter the system as flight studies. There are 
also other measures to characterize the pipeline beyond readiness 
levels and their time rate of change.

---------------------------------------------------------------------------
        <bullet>  Address plans for data sharing;

        <bullet>  Address plans for how intellectual property will be 
        handled;

        <bullet>  Expand on issues concerning ISS partner 
        participation;

        <bullet>  Discuss how research, development, testing and 
        evaluation will be supported.

Q3.  In your prepared statement, you indicate that affordable and 
reliable access to and from the ISS are key to the success of 
conducting biomedical research. You go on to say that critical to this 
success is the availability of cost-effective transportation services. 
How critical is a down mass capability for biomedical research?

A3. The physical return of samples and other materials is critical to 
the success and reproducibility of biomedical experiments aboard the 
ISS. Down mass capability is essential to guarantee the quality of 
certain types of biological specimens (fluids, cells and tissue) being 
returned to Earth. Access to powered, large-volume, pressurized lockers 
for transport is necessary.
    Given the need for this capability, whenever possible, it is 
anticipated that on-orbit resources would be utilized to characterize 
findings, and that digital data would be down-linked to Earth. In my 
verbal testimony, I referred to the successful use of on-orbit 
ultrasound to perform medical imaging on ISS crew members. Streamed 
video and still images of clinical quality from a series of studies 
were obtained without the need for down mass capability.
    The U.S. orbiter and the Russian Soyuz have served as the primary 
means to ensure safe return of biomedical samples from research 
conducted aboard the ISS. Both vehicles are capable of providing 
powered mid-deck locker return, when necessary, for valuable 
experimental materials. It is desirable to have configurable soft-packs 
when power and/or pressurization is not necessary.
    The transfer vehicles in development by international partners (the 
European ATV and the Japanese HTV) do not provide down mass capability. 
Although these vehicles play an important role in delivery of cargo to 
the ISS, their utility for transferring experimental samples and other 
materials from the ISS to Earth is absent. Similar to the conditions 
provided by the orbiter and Soyuz, the Space X Dragon capsule, 
currently under development for NASA's Commercial Orbital 
Transportation Services program, is expected to be able to accommodate 
both pressurized and non-pressurized cargo in a mid-deck locker-like 
configuration. Other developments are also in progress.

Q4.  Given your experience in leading an institute that involves 
universities, federal agencies, and industry in conducting research to 
support human space exploration, what should NASA consider as it 
explores options for managing the ISS National Lab?

A4. NASA should consider management options for the ISS National Lab 
that have been successfully implemented in other large-scale, ambitious 
research and engineering projects of national and international 
importance. Within NASA, excellent examples include the Apollo and 
Hubble Space Telescope programs. There are many non-NASA examples, 
including the Manhattan Project, which exemplify how outstanding 
scientists have been brought together to work on teams, with an upper-
level management structure guiding and integrating teams to achieve a 
single common purpose of paramount significance.
    There is not necessarily a single, best way to manage the ISS 
National Lab. Substantial resources exist, and more are being put into 
place, aboard the ISS. There is a wealth of biomedical research and 
technological infrastructure within universities, medical schools, 
industry and government laboratories to enable ISS National Lab 
achievements. As mentioned previously, there is a cadre of outstanding 
investigators who have, and students who are acquiring, the necessary 
skills to generate productive and meaningful discoveries in space, in 
partnership with ISS crews. Funding, reliable access to and from the 
ISS, and international limitations are challenging issues but 
fundamentally solvable.
    Two items that NASA should focus on regarding management are 
requirements and leadership. A strategic and tactical plan that is 
consistent with, but includes more detail than the reports presently 
available on the ISS National Lab, should be developed, with particular 
attention paid to requirements. The management options are narrowed by 
considering only those systems that allow the requirements to be met. 
In formulating the strategic and tactical plan, it can be useful to 
assemble a small working group of NASA and non-NASA experts, whose 
membership includes experience in leading large scientific institutes, 
conducting basic and applied biomedical research in space, partnering 
with industry and successfully implementing international science and 
technology programs. Attention should be paid to the needs and 
expectations of key stakeholders, and the plan should be thoroughly 
vetted before being implemented.
    Leadership is a key consideration for success in managing the ISS 
National Lab. The Director should possess not only the necessary 
credentials, experience, skills and integrity to perform his or her 
duties, but must also have a bold vision for the ISS National Lab that 
is embraced by NASA, other federal agencies, Congress, and to the 
greatest extent possible, the American public. The ISS National Lab 
must have a strong leadership team to effectively implement the 
strategic and tactical plan, and to modify the plan accordingly, in 
order to achieve maximum return on, and benefit from, our Nation's 
investment in the ISS and its precious resources.

Questions submitted by Representative Tom Feeney

Q1.  At the hearing, you outlined a number of initiatives conducted by 
the National Space Biomedical Research Institute related to developing 
countermeasures for long-term human exploration of space. Which among 
these has generated the most promise, and which, in your opinion, 
continues to pose the greatest challenges?

A1. Ten NSBRI-sponsored science and technology projects, all generating 
substantial promise, are highlighted in my prepared statement. Three 
are described in more detail here to illustrate the extent of promise 
within NSBRI's portfolio. This is followed by remarks concerning an 
NSBRI initiative, which despite considerable promise, poses great 
challenges.
    NSBRI took a strong position in enhancing near-infrared 
spectroscopy analysis and subsequently developing a small, lightweight, 
portable means of performing non-invasive blood and tissue measurements 
for use in space.\5\ By assessing tissue pH and lactic acid in real-
time during exercise, it is possible to adapt exercise countermeasures 
and efficiencies for individual crew members. This device has been 
tested on astronauts exercising at Johnson Space Center, and the 
technology is maturing toward evaluation aboard the ISS. There are 
medical applications for space exploration (e.g., assessing tissue 
viability in the case of a crush injury or exposure to extreme 
temperatures) and applications to health care on Earth (e.g., assessing 
the microvasculature in diabetics).
---------------------------------------------------------------------------
    \5\ The device is reminiscent of the medical tricorder used by Dr. 
McCoy in the fictional series Star Trek.
---------------------------------------------------------------------------
    Light in the blue part of the spectrum is being used as a 
countermeasure for performance errors associated with circadian 
desynchronization, sleep loss and adaptation to shifts in work 
schedule. NSBRI has sponsored research published in leading journals, 
such as Science and Nature, delineating mechanisms associated with blue 
light effects. The Institute has also taken the lead in developing, 
testing and evaluating the countermeasure in operational settings, and 
in working with NASA to modify the lighting in designs for the crew 
exploration vehicle. There are several applications of this 
countermeasure on Earth.
    NSBRI assessed the utility of several portable medical imaging 
technologies (dual energy X-ray absorptiometry, magnetic resonance 
imaging, diffuse optical tomography and ultrasound) for use in space. 
In partnership with NASA, a series of elegant studies were performed 
aboard ISS using ultrasound, which has become the medical imaging 
technology of choice. NSBRI therefore shifted its portfolio to reflect 
the promise of ultrasound, and currently supports novel countermeasure 
development projects using scanning confocal ultrasound and high-
intensity focused ultrasound (HIFU). HIFU shows particular promise in 
addressing the risk of inability to adequately treat an ill or injured 
crew member. NSBRI has co-sponsored, with the Department of Defense, a 
small portable ultrasound system capable of sensing and then (using 
autonomous image guidance) performing non-invasive surgery with 
HIFU.\6\ This countermeasure, employing an integrated sensor-effector 
platform, has applications on Earth in emergency medicine and on the 
battlefield.
---------------------------------------------------------------------------
    \6\ See http://www.nsbri.org/Research/Projects/
viewsummary.epl?pid=158
---------------------------------------------------------------------------
    One of the most challenging risks to mitigate, for human space 
exploration, is the harmful effects of radiation. A recent report from 
the National Research Council, entitled ``Managing Space Radiation Risk 
in the New Era of Space Exploration'' (2008), provides an insightful 
assessment of the risk and efforts to protect against exposure to space 
radiation. NSBRI supports NASA's radiation program in several ways.\7\ 
The Institute funds the development of gas and solid-state dosimeters 
for real-time assessment of radiation exposure to astronauts. This is 
particularly important for missions beyond low Earth orbit. A number of 
projects on NSBRI teams, such as those dealing with bone and the 
cardiovascular system, have a radiation component. Countermeasures are 
being investigated to protect against the harmful effects of radiation 
to these and other systems.
---------------------------------------------------------------------------
    \7\ It is worth noting that NASA's radiation program, within the 
Human Research Program, is supported at an amount that is 50 percent 
greater than the entire NSBRI. To accomplish its mission, the Institute 
relies on its ability to leverage resources in innovative ways.
---------------------------------------------------------------------------
    Perhaps the most significant contribution of NSBRI in addressing 
radiation risks is a new initiative addressing the mitigation of 
effects due to acute radiation exposure. In February 2008, NSBRI 
released an announcement ``Research Opportunities Soliciting an NSBRI 
Center of Acute Radiation Research for Ground-Based Studies on Acute 
Radiation Effects.'' \8\ The goal is to develop countermeasures to 
acute effects that could potentially compromise crew members and even 
the mission itself. Countermeasure development in this area is 
challenging, but it is an essential part of supporting long-duration, 
human exploration of space.
---------------------------------------------------------------------------
    \8\ See http://www.nsbri.org/Announcements/rfa08-02.html
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                 Statement of the American Society for
                    Gravitational and Space Biology
                 ASGSB President, Danny A. Riley, Ph.D.
          Professor of Cell Biology, Neurobiology and Anatomy
                      Medical College of Wisconsin
    The American Society for Gravitational and Space Biology (ASGSB), 
founded in 1984, provides a forum to foster research, education and 
professional development in the multidisciplinary fields of 
gravitational and space biology. We are a diverse group of scientists, 
engineers and students who exchange ideas that bridge basic and applied 
biological research in space and gravitational sciences. Our society of 
350 professionals and students from universities, government, and 
industry represents the core community that works with NASA to create 
and disseminate knowledge about how living organisms respond to gravity 
and the space flight environs.
    For many years, our members have worked toward the reality of an 
International Space Station (ISS) as a platform for conducting the 
cutting edge research, as described in the multiple National Research 
Council (NRC) reports.\1\ We consider the ISS National Laboratory an 
essential and unique tool for probing biological function and 
adaptation during long-term space flight. The studies are essential for 
human space exploration and, at the same time, return multiple health 
and economic benefits to America. There is no substitute on earth. 
Moreover, the U.S. has already invested at least $100 billion in the 
ISS. This is not the time for us to abandon the investment or the 
opportunity.
---------------------------------------------------------------------------
    \1\ An Assessment of Balance in NASA's Science Programs (2006). 
Review of NASA Plans for the International Space Station (2006). 
Science in NASA's Vision for Space Exploration (2005).
---------------------------------------------------------------------------
    Our Society has been decimated by the unprecedented retraction and 
termination of funding of non-exploration fundamental biology. The 
viability of our community is foundationally linked to the ability to 
conduct cutting edge research on ISS.

The American Society for Gravitational and Space Biology considers the 
following elements ESSENTIAL to make the International Space Station 
productive for research:

Viable ASGSB research community

        <bullet>  Substantial and long-term commitment of NASA to fund 
        fundamental biology ground and flight research programs

        <bullet>  Active community of plant and animal scientists and 
        engineers engaged in world class, fundamental and applied space 
        research

        <bullet>  Stable research and training environments to attract 
        and educate next generation scientists and engineers

        <bullet>  Continuous pipeline of meritorious, peer-reviewed 
        investigations encompassing fundamental and applied research in 
        space-related biological sciences

ISS Resources and Environment

        <bullet>  Hardware and instrumentation to support animal and 
        plant housing and experimentation on ISS, including bio-
        containment work stations and variable speed centrifugation 
        capabilities

        <bullet>  Frequent and affordable transportation to and from 
        ISS

        <bullet>  Commercial and basic research entities participating 
        jointly on missions

        <bullet>  Ground personnel and facilities support for flight 
        experiments

        <bullet>  Crew member involvement in the conduct of 
        investigations

ISS National Laboratory Management

        <bullet>  Empowered and budgeted administrative unit within 
        NASA to fund and integrate the flight hardware and science for 
        non-exploration fundamental biology

        <bullet>  An ISS National Laboratory management unit, a 
        consortium of stakeholders, tightly coupled with external 
        advisory and peer review to implement NRC-defined research 
        priorities

        <bullet>  External science advisory structure with oversight 
        and influence on NASA programmatic priority decisions

To revitalize and establish all of these elements requires immediate 
attention, time and a renewed national commitment as well as supportive 
leadership at NASA Headquarters.

    ASGSB life scientists have conferred extensively with their 
counterparts in the physical sciences. The consensus is that, for the 
U.S. to prevent the utter destruction of the human capital and living 
knowledge in the space life and physical sciences, there must be an 
infusion of ``keep alive'' funds in 2009. We jointly estimate such 
``keep alive funds'' at $91M for the coming fiscal year. Such funds 
must be assigned to ``non-exploration research'' in the space life and 
physical sciences at NASA. Moreover, for NASA to engage in the mandated 
``America COMPETES'' initiative, $160M of additional funds are required 
for the life and physical sciences at NASA.
    It is ironic that the loss of financial support for the life 
sciences and our research on the ISS began in 2004, immediately after 
President Bush announced the ``Vision for Space Exploration'' and 
asserted that the ISS would be completed because the U.S. finishes what 
we start. He also recognized explicitly that we must use the ISS to 
learn about long-term space exposure on the body, in order to venture 
safely and successfully into space.
    Failure to utilize fully U.S. investment in the space station and 
neglecting, to the point of destruction, the ASGSB community is 
antithetical to competitive national goals and interests. We look 
forward to working with Congress to regain American leadership in the 
space enterprise and to continue to make great contributions to health 
and knowledge while cultivating the next generation of scientists and 
engineers.

                                       <all>
</pre></body></html>
